<html>
<title> - NASA'S AERONAUTICS R&D PROGRAM: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         NASA'S AERONAUTICS R&D
                       PROGRAM: STATUS AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2008

                               __________

                          Serial No. 1100999

                               __________

     Printed for the use of the Committee on Science and Technology


<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

41-902 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001











                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL T. MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant






























                            C O N T E N T S

                              May 1, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    15

Prepared Statement by Representative Costello, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16

                               Witnesses:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration (NASA)
    Oral Statement...............................................    16
    Written Statement............................................    18

Mr. Carl J. Meade, Co-Chair, Committee for the Assessment of 
  NASA's Aeronautics Research Program, National Research Council
    Oral Statement...............................................    28
    Written Statement............................................    29
    Biography....................................................    33

Mr. Preston A. Henne, Senior Vice President, Programs, 
  Engineering and Testing, Gulfstream Aerospace Corporation
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    38

Dr. Ilan Kroo, Professor, Department of Aeronautics and 
  Astronautics, Stanford University
    Oral Statement...............................................    39
    Written Statement............................................    40
    Biography....................................................    42

Discussion
  Additional Funding for NASA Aeronautics........................    42
  NASA and NextGen...............................................    43
  Research Information...........................................    45
  Aviation and the Environment...................................    46
  Wind Tunnels...................................................    46
  Noise and Aviation.............................................    47
  R&D and NextGen................................................    48
  NASA Aeronautics and Technology Demonstration..................    48
  National Research Council Assessment of NASA R&D Activities....    49
  Noise and Aircraft Pollution...................................    51
  U.S. R&D and European R&D......................................    52
  Air Traffic Controllers and NextGen............................    53
  NASA's Aviation Safety Program.................................    54
  NAOMS/ASIAS....................................................    55
  National Research Council Priorities/UAVs......................    56

              Appendix: Answers to Post-Hearing Questions

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration (NASA)..........................................    60

Mr. Carl J. Meade, Co-Chair, Committee for the Assessment of 
  NASA's Aeronautics Research Program, National Research Council.    64

Mr. Preston A. Henne, Senior Vice President, Programs, 
  Engineering and Testing, Gulfstream Aerospace Corporation......    68

Dr. Ilan Kroo, Professor, Department of Aeronautics and 
  Astronautics, Stanford University..............................    70























 
           NASA'S AERONAUTICS R&D PROGRAM: STATUS AND ISSUES

                              ----------                              


                         THURSDAY, MAY 1, 2008

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         NASA's Aeronautics R&D

                       Program: Status and Issues

                         thursday, may 1, 2008
                   10:00 a.m.<ls-thn-eq>0912:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, May 1, 2008 at 10:00 a.m., the House Committee on 
Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to review NASA's current Aeronautics R&D Program, 
examine what needs to be done to make it as relevant as possible to the 
Nation's needs, and in particular to examine R&D challenges related to 
safety and environmental impacts.

Witnesses

    Witnesses scheduled to testify at the hearing include the 
following:

Dr. Jaiwon Shin, Associate Administrator, Aeronautics Research Mission 
Directorate, National Aeronautics and Space Administration

Carl J. Meade, Co-Chair, Committee for the Assessment of NASA's 
Aeronautics Research Program, National Research Council, National 
Academies

Preston A. Henne, Senior Vice President, Programs, Engineering and 
Test, Gulfstream Aerospace Corporation

Dr. Ilan Kroo, Professor, Department of Aeronautics and Astronautics, 
Stanford University

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet> IWhy is it important for the Federal Government to 
        invest in aeronautics R&D, and is the current level of 
        investment adequate?

        <bullet> IWhat needs to be done to ensure that NASA's 
        aeronautics R&D is relevant to the Nation's needs and to 
        maintain U.S. leadership?

        <bullet> IHow can NASA's aeronautics R&D activities be more 
        rapidly transitioned to the marketplace and to public sector 
        users?

        <bullet> IHow can NASA work most effectively with industry and 
        the universities to carry out a meaningful aeronautics R&D 
        program?

        <bullet> IWhat are the most important aviation safety issues 
        facing the Nation, and what is NASA's aeronautics R&D program 
        doing to address them?

        <bullet> IWhat are the most important issues related to 
        aviation's impact on the environment, e.g., noise, emissions, 
        and energy consumption, and what is NASA's aeronautics program 
        doing to address them?

        <bullet> IWhat are the most important aeronautics R&D issues 
        that will need to be addressed if the Next Generation Air 
        Transportation System (NextGen) initiative is to succeed, and 
        what is NASA's role in addressing them?

        <bullet> IWhat are the most promising flight regimes for NASA 
        to investigate and what R&D initiatives would offer the most 
        promise for such areas as supersonic flight, V/STOL flight, and 
        so forth?

        <bullet> IWhat are the most important challenges to be 
        addressed if the Nation is to sustain an efficient, 
        environmentally compatible, and safe aviation system? What 
        should NASA's role be in addressing those challenges and is 
        NASA's current aeronautics R&D program able to fill that role?

BACKGROUND

Overview

    NASA has long been a major source of the Nation's aeronautical 
research and development (R&D), R&D that has found application in both 
civil and military systems. However, funding for NASA's aeronautics 
program has been in decline for a major portion of the decade, in spite 
of recent congressional efforts to reverse that negative trend. In 
addition, beginning in late 2005, NASA began restructuring its 
aeronautics program to move away from a program that included 
technology demonstration projects and R&D that led to greater 
technology maturity towards a program focused on more fundamental 
research. These changes in NASA's Aeronautics R&D program occur at a 
time when the Next Generation Air Transportation System initiative 
known as NextGen is ramping up and increased concerns about aviation's 
actual and potential impact on the environment are growing.
    NextGen is intended to transform the existing air traffic control 
system to accommodate projected growth in air passenger and cargo rates 
over the next decade. As part of this modernization, NextGen aims to 
develop a more efficient and more environmentally friendly national air 
transportation system, while maintaining safety. The development of 
NextGen is being overseen by the Joint Planning and Development Office 
(JPDO), a joint initiative of the Department of Transportation, NASA, 
Commerce, Defense Homeland Security, and the White House OSTP. FAA has 
traditionally relied on NASA for a significant portion of the R&D 
related to air traffic management as well as research to help address 
substantial noise, emissions, efficiency, performance, and safety 
challenges that are required to ensure vehicles can support the NextGen 
vision.
    NASA's capabilities are likely to be needed even more in the years 
ahead as worldwide debate intensifies over how to deal with climate 
change caused by aviation. Aviation greenhouse gas emissions dominated 
the discussions last year at the ICAO Assembly in Montreal. And in late 
2007, the European Union continued discussions on how to impose its 
emissions trading system on international aviation. R&D will be needed 
in several areas to meet the objectives of improving scientific 
understanding of the impacts of aviation; accelerating air traffic 
management improvements and efficiencies to reduce fuel burn; hastening 
the development of promising environmental improvements in aircraft 
technology; and exploring alternatives to current greenhouse gas (GHG)-
emitting fuels for aviation.
    Promising research is already being conducted by NASA in several of 
these areas, including collaborations with industry for research at the 
system level on projects such as the X<ls-thn-eq>0948B Blended Wing 
with Boeing, Geared Turbo Fan with Pratt & Whitney, and sonic boom 
suppression technologies with Gulfstream Aerospace. However, the 
declining funding for Aeronautics R&D in NASA's budgets provides a 
worrisome backdrop that calls into question the Agency's ability to 
meet the expectations of federal and private sector partners. The 
assessment of NASA's Aeronautics Research Program just completed by a 
Committee established by the National Research Council (NRC) reinforces 
concern over NASA's ability to successfully conduct a comprehensive 
aeronautics R&D program under the budgets given to NASA's aeronautics 
program.
    Projecting what the air transportation system will look like and 
anticipating how to deal with increased demand, the integration of new 
aircraft technology in the National Airspace System, safety issues, and 
aviation's effect on the environment will require a responsive 
aeronautics R&D program at NASA. However, NASA's Aeronautics Research 
Program will be severely challenged in attempting to address those 
issues under current budgetary trends.

Fiscal Year 2009 Budget Request

    NASA's FY09 budget provides $446.5 million for the Aeronautics 
Research Program under the direction of Aeronautics Research Mission 
Directorate (ARMD). It should be noted that NASA's FY 2009 budget has 
been restructured pursuant to the Consolidated Appropriation Act, 2008, 
and is now presented in seven accounts. In addition, the budget 
estimates presented in the FY 2009 request are in direct program 
dollars rather than in the full cost dollars used in previous 
Presidential budget requests. From a direct cost perspective,\1\ the 
proposed FY09 budget for Aeronautics Research is a decrease of $65.2 
million from that appropriated in FY08. This continues a multi-year 
trend of declines in the budget requests for NASA's aeronautics 
programs.
---------------------------------------------------------------------------
    \1\<ls-thn-eq>1AAs part of the budget restructuring, NASA shifted 
from a full-cost budget, in which each project budget included overhead 
costs, to a direct cost budget. All overhead budget estimates are now 
consolidated into the Cross Agency Support budget line. NASA has stated 
that maintaining a full cost budget with seven appropriations accounts 
would be overly complex and inefficient. The direct cost budget shows 
program budget estimates that are based entirely on program content. 
Individual project managers continue to operate in a full-cost 
environment, including management of overhead costs.
---------------------------------------------------------------------------
    The Aeronautics Research Program budget funds:

        <bullet> IFundamental Aeronautics. The FY09 request for 
        Fundamental Aeronautics is $235.4 million, a decrease of $34.5 
        million from the $269.9 million enacted in FY08. Long-term 
        research conducted by the Fundamental Aeronautics Program will 
        be used to provide feasible solutions to the performance and 
        environmental challenges of future air vehicles. Research 
        efforts in revolutionary configurations, lighter and stiffer 
        materials, improved propulsion systems, and advanced concepts 
        for high-lift and drag reduction all target the efficiency and 
        environmental compatibility of future air vehicles. NASA's FY09 
        budget request says that space exploration activities will 
        benefit from fundamental technology advances that can impact 
        the Agency's future ability to both access space and survive 
        the planetary entry, descent, and landing phase of missions to 
        other planetary surfaces.

        <bullet> IAirspace Systems. The FY09 request for Airspace 
        Systems is $74.6 million, a decrease of $25.5 million from the 
        $100.1 million enacted in FY08. The Airspace Systems Program is 
        intended to address the air traffic management research needs 
        of NextGen in collaboration with the member agencies of the 
        JPDO. NASA is working with the JPDO as well as other 
        government, industry, and academic partners to enable the 
        formation, development, integration, and demonstration of 
        revolutionary concepts, capabilities, and technologies intended 
        to allow significant increases in capacity, efficiency, and 
        flexibility of the National Airspace System.

        <bullet> IAviation Safety. The FY09 request for Aviation Safety 
        is $62.6 million, a decrease of $3.9 million from the $66.5 
        million enacted in FY08. The program builds on NASA's unique 
        safety-related research capabilities to improve aircraft safety 
        for current and future aircraft, and to overcome aircraft 
        safety technological barriers that would otherwise constrain 
        the full realization of NextGen. To that end, NASA says that it 
        is focusing its Aviation Safety Program on developing cutting-
        edge technologies to improve the intrinsic safety attributes of 
        current and future aircraft that will operate in NextGen. For 
        example, NASA's work on an Integrated Intelligent Flight Deck 
        will include research into a forward looking sense-and avoid 
        concept aimed at detecting hazardous icing conditions with 
        ground-based and on-board sensing technologies, a potentially 
        significant safety capability for the flying public. 
        Furthermore, the Aviation Safety Program supports NASA's human 
        and robotic exploration missions by advancing knowledge, tools, 
        and technologies in areas relevant to operations in harsh 
        environments.

        <bullet> IAeronautics Test Program. The FY09 request for the 
        Aeronautics Test Program is $73.9 million, a decrease of $1.2 
        million from the $75.1 million enacted in FY08. Prior to 2005, 
        NASA's management approach for major test facilities was for 
        each NASA Research Center to be fully responsible for their 
        Center's facilities. NASA believed that this approach limited 
        the potential ability to pursue Agency-wide approaches and 
        hampered interaction. In 2006, the Aeronautics Test Program was 
        developed to establish corporate management of NASA's 
        aeronautics ground test facilities. This was done, NASA says in 
        its FY09 budget request, to optimize utilization of the 
        Agency's wind tunnel and air breathing propulsion test facility 
        assets for efficiency and cost effectiveness; to sustain and 
        improve NASA's core capability of wind tunnel and air breathing 
        propulsion testing; and to ensure a minimum core capability is 
        maintained.

    NASA's out-year projections for the Aeronautics Research in the 
President's FY09 budget request show only minor changes in projected 
funding levels through 2013. As a point of comparison, NASA Aeronautics 
funding was about $1.85 billion (2006 dollars) in 1994--the current 
budget request is thus only about 24 percent of that level.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Congressional Direction to Develop a National Aeronautics R&D Policy 
                    and Plan

    In the 2005 NASA Authorization Act, Congress reaffirmed the 
national commitment to aeronautics research made in the National 
Aeronautics and Space Act of 1958 and went on to state that 
``Aeronautics research and development remains a core mission of NASA. 
NASA is the lead agency for civil aeronautics research.'' The Act also 
directed that the government of the United States ``promote aeronautics 
research and development that will expand the capacity, ensure the 
safety, and increase the efficiency of the Nation's air transportation 
system, promote the security of the Nation, protect the environment, 
and retain the leadership of the United States in global aviation.'' 
The Act also directed the development of a national policy to guide the 
aeronautics research and development programs of the United States 
through 2020. The policy was to include national goals for aeronautics 
research and development and describe the role and responsibilities of 
each Federal agency that will carry out the policy.
    In addition, the Act specified that the national aeronautics 
research and development policy describe for NASA (a) the priority 
areas of research for aeronautics through fiscal year 2011; (b) the 
basis on which and the process by which priorities for ensuing fiscal 
years will be selected; (c) the facilities and personnel needed to 
carry out the aeronautics program through fiscal year 2011; and (d) the 
budget assumptions on which the policy is based.
    In developing the national aeronautics research and development 
policy, the Act specified consideration of several issues, namely:

        <bullet> IThe extent to which NASA should focus on long-term, 
        high-risk research or more incremental research, and the 
        expected impact of that decision on the United States economy, 
        and the ability to achieve environmental and other public goals 
        related to aeronautics.

        <bullet> IThe extent to which NASA should address military and 
        commercial needs.

        <bullet> IHow NASA will coordinate its aeronautics program with 
        other federal agencies.

        <bullet> IThe extent to which NASA will conduct research in-
        house, fund university research, and collaborate on industry 
        research, and the expected impact of that mix of funding on the 
        supply of United States workers for the aeronautics industry.

    In response to the congressional direction, the Bush Administration 
released its National Aeronautics Research and Development Policy, 
along with its accompanying Executive Order 13419. That policy 
established principles and objectives to drive federal aeronautics R&D 
activities and guidelines that delineate agency roles and 
responsibilities in (a) stable and long-term foundational research; (b) 
advanced aircraft systems development; (c) air transportation 
management systems; and (d) national research, development, test and 
evaluation infrastructure. The Policy also called for an infrastructure 
plan for managing critical federal research, development, test and 
evaluation (RDT&E) assets.
    The National Aeronautics R&D Policy laid out seven key principles 
to guide the conduct of the Nation's aeronautics R&D activities through 
2020. These principles (with two exceptions discussed later) served as 
the framework for the R&D Plan issued in December 2007:

        <bullet> IMobility through the air is vital to economic 
        stability, growth, and security as a nation.

        <bullet> IAviation is vital to national security and homeland 
        defense.

        <bullet> IAviation safety is paramount.

        <bullet> ISecurity of and within the aeronautics enterprise 
        must be maintained.

        <bullet> IThe United States should continue to possess, rely 
        on, and develop its world-class aeronautics workforce.

        <bullet> IAssuring energy availability and efficiency is 
        central to the growth of the aeronautics enterprise.

        <bullet> IThe environment must be protected while sustaining 
        growth in air transportation.

    For each principle addressed in the plan, the state-of-the-art of 
related technologies and systems was provided as well as a set of 
fundamental challenges and associated high-priority R&D goals and 
supporting objectives for each goal. Objectives are phased over three 
time periods: near-term (<5 years), mid-term (5<ls-thn-eq>0910 years), 
and far-term (>10 years). Two principles in the Policy are being 
addressed in different efforts. Specifically, Aviation security R&D 
efforts are coordinated through the National Strategy for Aviation 
Security and its supporting plans. Aerospace workforce issues are being 
explored by the Aerospace Revitalization Task Force led by the 
Department of Labor.
    The infrastructure plan called for in the 2005 Authorization Act 
has yet to be completed. The R&D Plan issued in December 2007 outlined 
future steps in developing the RDT&E infrastructure plan that will 
focus on the critical RDT&E assets and capabilities necessary to 
support the aeronautics R&D goals and objectives laid forth in this 
Plan. The RDT&E infrastructure includes experimental facilities and 
computational resources, as well as the cyber-infrastructure that 
serves to connect the two. The supplemental infrastructure plan will 
also address an approach for constructing, maintaining, modifying, or 
terminating assets based on the needs of the broad user community.

Establishing Research Priorities: NRC's Decadal Survey of Civil 
                    Aeronautics

    In 2005, NASA contracted with the NRC to develop a consensus 
document representing the external (industry and academia) community's 
views about what NASA's aeronautics research priorities ought to be. 
The Decadal Survey of Civil Aeronautics was the first decadal survey 
ever produced for NASA's aeronautics program. Eighty-five aeronautics 
experts from academia, industry, and federal laboratories met and 
worked over a one-year period to develop a consensus document. The 
report laid out five key areas for research: aerodynamics and 
aeroacoustics; propulsion and power; materials and structures; 
dynamics, navigation and control, and avionics; and intelligent and 
autonomous systems, operations and decision-making, human integrated 
systems, networking and communications. Overall, the Decadal Survey 
laid out a prioritized list of 51 challenges to address and recommended 
that NASA use them as the foundation for its aeronautics program over 
the next decade.
    The report was the subject of hearings before the House Committee 
on Science and Technology's Subcommittee on Space and Aeronautics in 
July and September of 2006. At the first of those hearings, then 
Subcommittee Chairman Ken Calvert raised concern over instability in 
NASA's aeronautics R&D program, saying that ``NASA's aeronautics 
program has, in recent years, been prone to changes in leadership and 
program goals and strategies.'' At that same hearing, then Ranking 
Democratic Member Mark Udall called for investing in aeronautics R&D, 
thereby leading to such important efforts as enhancing the capability 
of America's air transportation system and enabling more 
environmentally compatible aircraft with significantly lower noise 
emissions and energy consumption relative to aircraft currently in 
service. He also warned that ``if we don't reverse this budgetary 
decline that NASA's aeronautics program is undergoing, we are not going 
to have the robust and vital R&D program we need and the [NRC] report 
envisions.''

NRC's Assessment of NASA's Aeronautics Research Program

    The 2005 NASA Authorization Act directed the NASA Administrator to 
enter into an arrangement with the NRC for an assessment of the 
Nation's future requirements for fundamental aeronautics research and 
whether the Nation will have a skilled research workforce and research 
facilities commensurate with those requirements. The assessment was to 
include an identification of any projected gaps, and recommendations 
for what steps should be taken by the Federal Government to eliminate 
those gaps.
    The Committee for the Assessment of NASA's Aeronautics Research 
Program found that ``even though the NASA aeronautics program has the 
technical ability to address each of the highest-priority R&T 
challenges from the Decadal Survey individually (through in-house 
research and/or partnerships with external research organizations), 
ARMD would require a substantial budget increase to address all of the 
challenges in a thorough and comprehensive manner.''
    The Committee recommended that NASA:

        <bullet> IEnsure that ``its research program substantively 
        advances the state of the art and makes a significant 
        difference in a time frame of interest to users of the research 
        results by (1) making a concerted effort to identify the 
        potential users of ongoing research and how that research 
        relates to those needs and (2) prioritizing potential research 
        opportunities according to an accepted set of metrics. In 
        addition, absent a substantial increase in funding and/or a 
        substantial reduction in other constraints that NASA faces in 
        conducting aeronautics research (such as facilities, workforce 
        composition, and federal policies), NASA, in consultation with 
        the aeronautics research community and others as appropriate, 
        should redefine the scope and priorities within the aeronautics 
        research program to be consistent with available resources and 
        the priorities identified in (2), above (even if all 51 
        highest-priority R&T challenges from the Decadal Survey of 
        Civil Aeronautics are not addressed simultaneously). This would 
        improve the value of the research that the aeronautics program 
        is able to perform, and it would make resources available to 
        facilitate the development of new core competencies and unique 
        capabilities that may be essential to the Nation and to the 
        NASA aeronautics program of the future.''

        <bullet> IBridge ``the gap between research and application--
        and thereby increase the likelihood that this research will be 
        of value to the intended users.'' Furthermore, the Committee 
        recommended that NASA, for ``technology intended to enhance the 
        competitiveness of U.S. industry, establish a more direct link 
        between NASA and U.S. industry to provide for technology 
        transfer in a way that does not necessarily include the 
        immediate, public dissemination of results to potential foreign 
        competitors.''

        <bullet> IDevelop ``a vision describing the role of its 
        research staff as well as a comprehensive, centralized 
        strategic plan for workforce integration and implementation 
        specific to ARMD. The plan should be based on an ARMD-wide 
        survey of staffing requirements by skill level, coupled with an 
        availability analysis of NASA civil servants available to 
        support the NASA aeronautics program. The plan should identify 
        specific gaps and the time frame in which they should be 
        addressed NASA should reduce the impact of facility 
        shortcomings by continuing to assess facilities and mothball or 
        decommission facilities of lesser importance so that the most 
        important facilities can be properly sustained.''

The Challenge of Sustaining an Efficient, Environmentally Compatible, 
                    and Safe Aviation System in the Face of Increasing 
                    Demand

    As evidenced by frequent reports of flight delays around the 
country, the Nation's air transportation system is reaching saturation. 
The number of passengers using the system has been climbing steadily. 
In 2006, passengers exceeded 750 million; it is likely that between 
2012 and 2015, the number of passengers could reach one billion each 
year. At that point, the air transportation system will be reaching its 
limits. Some models project that the number of passengers could double 
or even triple by the year 2025.
    In the U.S., the major effort to develop a new air transportation 
system falls under the aegis of NextGen. The vision for NextGen is a 
system that is based on satellite navigation and control, digital non-
voice communication and advanced networking. Furthermore, NextGen 
envisions shifting of decision-making from the ground to the cockpit. 
Flight crews will have increased control over their flight trajectories 
and ground controllers will become traffic flow managers. The air 
transportation system of the future will likely need to accommodate new 
flight regimes such as supersonic flight and the emergence of scheduled 
vertical and short take-off and landing (V/STOL) airline operations. 
Recent aircraft groundings for inspection of wiring bundles remind us 
that aviation safety issues associated with existing aircraft will also 
continue to need to be addressed.
    There has long been a recognition of the need for R&D to minimize 
the adverse impacts on the environment, namely in the areas of aircraft 
noise around airports, energy consumption, and engine emissions. This 
is particularly important in light of the expected growth in air travel 
projected in the next decade. Some progress has been achieved in noise 
reduction for conventional fixed wing aircraft. FAA cites a decrease 
from seven million to half a million people exposed to significant 
aircraft noise in the past thirty years, this despite a significant 
number of passenger emplanements. Such a reduction was made possible 
through the evolution of aircraft powerplants, from the use of 
turbojets to more efficient and quieter generations of turbofans which 
have benefited from NASA R&D. However, noise remains a significant 
issue, particularly around the Nation's busiest airports and more needs 
to be done. Noise also has been a significant challenge for civil V/
STOL aircraft.
    Airlines and other users of the Nation's air transportation system 
are particularly sensitive to the cost of fuel, and R&D to increase 
aircraft energy efficiency has been a significant focus of NASA's 
aeronautics R&D program at various times. Yet technical or operational 
measures to promote energy efficiency have to be considered in the 
context of the overall aviation system. As a result, air transportation 
is particularly sensitive to requirements that may impact on fuel 
efficiency. For example, higher fuel consumption is oftentimes the 
result of having to design aircraft capable of meeting airport noise 
restrictions. For that reason, there is high interest in future 
powerplants that are both quiet and fuel efficient. NASA's Ultra-
Efficient Engine Technology (UEET) program was a government-industry 
cooperative effort to develop improved engine technologies. NASA's 
Space Act Agreement with Pratt & Whitney on the Geared Turbo Fan is a 
more recent illustration of NASA's work on this challenging problem.
    Concerns about climate change and the impact of the aviation sector 
on global warming have spurred a variety of efforts to cut aviation 
emissions in the U.S. and overseas. Studies have determined that 
airlines contribute worldwide up to three percent of greenhouse gas 
emissions. Governmental and private sector organizations have 
implemented efforts to reduce aviation-related emissions. In the U.S., 
the focus has been on continued development of NextGen and R&D on 
engines. While there is increasing understanding of the impact of 
carbon dioxide, the impacts from other emissions are less well known. 
The goal is to identify the harmful emissions, accurately measure their 
impact, and design appropriate technologies or procedures to mitigate 
or eliminate their effects. In Europe, the response has been more 
aggressive. To cut aviation emissions, the European Union (EU) has 
embarked on an emission trading scheme for its airline industry. This 
trading scheme may include U.S. airlines serving Europe and has 
generated controversy. U.S. airlines are reported to have said that 
forced participation in the European Union's carbon trading plan 
violates international treaties. The Air Transport Association, the 
trade group for U.S. carriers, is reported to have called the 
European's focus on aviation emissions ``out of proportion'' and has 
noted the U.S. industry's success with market driven approaches such as 
buying more fuel-efficient aircraft, reducing the weight of their 
planes, and investigating alternative fuels.
    In October 2007, the International Civil Aviation Organization 
(ICAO), the United Nations body responsible for regulating the aviation 
industry, rejected airline participation in Europe's Climate Emissions 
Trading System. Instead, ICAO created a group of senior government 
officials to recommend what action the body should take on climate 
change. Calling for an ``aggressive'' plan of action from the new 
group, ICAO is reported to have said that the options to be considered 
include voluntary measures, technological advances in both aircraft and 
ground-based equipment, more efficient operational measures, 
improvements in air traffic management, positive economic incentives, 
and market-based measures to achieve reductions in emission of 
greenhouse gases.
    The European Union is also focusing its aeronautics R&D on 
environmental effects. Under the aegis of its Seventh Framework 
Programme, the EU's main instrument for funding research over the 
period 2007 to 2013, the Union will be conducting research on 
developing technologies to reduce the environmental impact of aviation 
with the aim of halving the amount of carbon dioxide emitted by air 
transport, cutting specific emissions of nitrogen oxides by 80 percent 
and halving perceived noise. The research will address green engine 
technologies, alternative fuels, novel aircraft/engine configurations, 
intelligent low-weight structures, improved aerodynamic efficiency, 
airport operations and air traffic management as well as manufacturing 
and recycling processes. The ``Clean Sky'' Joint Technology Initiative 
will bring together European R&D stakeholders to develop `green' air 
vehicle design, engines and systems aimed at minimizing the 
environmental impact of future air transport systems. This initiative 
establishes a Europe-wide partnership between industry, universities 
and research centers, with a total public/private funding of $1.6 
billion.
    Last year, to better understand governmental, industry, and 
international efforts to reduce aviation-related emissions, the House 
Science and Technology Committee and the House Transportation and 
Infrastructure Committee asked the Government Accountability Office to 
survey those various initiatives, their potential to reduce emissions, 
and the competitive impact on U.S. airlines. The Committees are 
awaiting GAO's report.

Analyzing Safety Trends--NAOMS and ASIAS

    Last September, in a letter denying a press request under the 
Freedom of Information Act for the data generated through a survey of 
airline pilots about safety incidents conducted under the National 
Aviation Operations Monitoring Service (NAOMS), a NASA official 
indicated that the data would not be released because it is ``sensitive 
and safety-related, [and] could materially affect the public confidence 
in, and the commercial welfare of, the air carriers and general 
aviation companies whose pilots participated in the survey''--a 
position subsequently reversed by the NASA Administrator. The survey 
was intended to be a forward-looking tool to identify emerging aviation 
safety problems. Instead, NASA had decided to stop the NAOMS project--
despite the fact that the project had enjoyed unusual success in 
gathering responses from pilots.
    NASA subsequently posted redacted responses collected from surveys 
of general aviation pilots and airline carrier pilots between April 
2001 and December 2004 and a portion of the actual or raw survey 
responses collected to ``show the breadth and scope of the pilot 
community surveyed and the types of aircraft flown.'' In February of 
this year, five Members of the Committee asked the Government 
Accountability Office to use the unredacted set of data collected by 
the NAOMS project to provide the Committee with an appropriate level of 
analysis of the data and verification of the survey methodology. The 
Committee is awaiting the results of GAO's analysis.
    The value of having another tool to enhance safety, such as NAOMS, 
was demonstrated last week. It was reported that the Department of 
Transportation's Inspector General found that managers at a Texas 
facility had reclassified errors by controllers as mistakes by pilots. 
The errors included instances in which controllers allowed aircraft to 
get too close to one another and others in which pilots were given 
improper or late instructions. FAA officials noted that none of the 
errors resulted in crashes but provided no further details. While the 
report was not released, the FAA Acting Administrator characterized the 
report as ``disturbing.'' The availability of corroborative data from 
another source, such as NAOMS, might have provided FAA with an earlier 
indication that the reclassifications were not warranted.
    NASA currently is working with FAA and the Commercial Aviation 
Safety Team (a cooperative government-industry initiative) on the 
development of the Aviation Safety Information Analysis and Sharing 
(ASIAS) system. ASIAS is intended for use by the aviation community to 
automatically integrate and analyze large sources of operational flight 
data in order to detect and mitigate system-wide anomalies or dangerous 
trends before an accident occurs. If ASIAS works as planned, government 
and industry stakeholders will be able to query operational data to 
automatically identify systemic risks, evaluate identified risks, and 
formulate and monitor the effectiveness of safety interventions 
targeted at identified risks. However, achieving such capabilities will 
not be easy. In addition to the challenge of developing and delivering 
new algorithms to automatically detect and identify vulnerabilities, 
NASA and its partners will need to develop new methods to automatically 
integrate and process large sources of disparate data.
    Chairman Udall. Good morning. I would like to welcome our 
witnesses to today's hearing, and thank you for your 
participation.
    Today the Subcommittee continues our oversight of NASA's 
major programs by focusing on aeronautics. It is important that 
we do so because in many ways, NASA's aeronautics program is 
one important answer to the question of what it is that makes 
NASA relevant to the Nation's needs.
    At the same time, it has become painfully clear that NASA's 
aeronautics program has been significantly shortchanged in 
recent years when it comes to getting the resources required to 
address those national needs. That is unacceptable as far as I 
am concerned. NASA has many worthwhile programs underway, 
activities that certainly deserve our support. Yet I am hard-
pressed to think of any program at NASA, with the possible 
exception of NASA's climate research initiatives, that is more 
relevant to our society's needs than NASA's aeronautics 
program.
    Aviation knits our country together, maintains our economic 
vitality, improves the quality of our lives and helps enhance 
our national security. Moreover, aviation is a sector that 
makes a significant positive contribution to our balance of our 
trade and promotes America's competitiveness in the global 
economy.
    Yet the explosive growth of aviation over the last several 
decades has brought its own set of challenges. These include 
dealing with the increasing congestion of the Nation's airspace 
system, the need to maintain safety in the face of increasing 
travel demand and the need to mitigate the negative impacts of 
aviation on the environment, whether noise, increasing energy 
consumption or harmful emissions.
    Now, with respect to emissions, it is clear that an 
emerging focus of concern is greenhouse gas emissions that can 
contribute to climate change, an area that this committee has 
been trying to call attention to over the past year. It is 
clear that meeting all those challenges is going to require a 
national commitment to cutting-edge research into new 
technologies and operational procedures.
    We must focus on research that will ensure that the 
Nation's air traffic management system will be able to meet 
anticipated demand while preserving safety and making the whole 
experience a lot more pleasant than it is now for the average 
traveler. We also need to focus on developing technologies that 
make aircraft much more energy efficient and produce lower 
levels of harmful emissions.
    In addition, NASA needs to continue to pursue research that 
will open up new flight regimes for our utilization, for 
example, research that will enable such things as civil 
rotorcraft and supersonic aircraft that are environmentally 
friendly, safe and that can operate without adverse impacts on 
our communities. We need to focus on research that will ensure 
that we maintain the high level of safety that we have enjoyed 
in our aviation sector.
    Indeed, the National Academies completed a Decadal Survey 
of Civil Aeronautics several years ago that identified some 51 
key technical challenges around which NASA, in close 
collaboration with industry and academia, could structure a 
compelling and productive aeronautics R&D agenda for the next 
decade. That is the good news.
    However, as a number of witnesses at today's hearing will 
testify, and as past witnesses have also testified, the decline 
in NASA's aeronautics funding is making it increasingly 
difficult to maintain an aeronautics research program that will 
be capable of stepping up to the challenges the Nation's 
aviation sector will be facing in the coming decades.
    In short, the future relevance of NASA's aeronautics 
program is at risk, just when the need for NASA'S research 
contributions is greatest. In part, that is because carrying 
research to a level of maturity that allows the results to be 
transitioned to the users, whether in the public or the private 
sector, requires a greater level of investment than the current 
Administration has been willing to make. That needs to change. 
If promising technologies and operational concepts aren't 
matured to the point that they can be transitioned to the users 
for future development or implementation, the Nation will never 
receive the full benefit of the investment that is made in that 
research. That is the challenge we face.
    Aeronautics needs to be a priority at NASA. It is as simple 
as that. I think the NASA Reauthorization Act of 2005 got it 
right when it reaffirmed that ``Aeronautics research remains a 
core mission of NASA.''
    Our witnesses today will tell us about the ways that NASA 
research can contribute to a bright and exciting future for 
American aviation. We need to ensure that NASA maintains its 
commitment to carrying out that research, and we have a lot to 
discuss at today's hearing so at this point I will again thank 
our witnesses for your participation, and we very much look 
forward to your testimony.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I'd like to welcome our witnesses to today's hearing 
and thank you for your participation.
    Today, the Subcommittee continues our oversight of NASA's major 
programs by focusing on Aeronautics.
    It is important that we do so, because in many ways NASA's 
aeronautics program is one important answer to the question of what it 
is that makes NASA relevant to the Nation's needs.
    At the same time, it has become painfully clear that NASA's 
aeronautics program has been significantly shortchanged in recent years 
when it comes to getting the resources required to address those 
national needs.
    That's unacceptable as far as I am concerned. NASA has many 
worthwhile programs underway--activities that certainly deserve our 
support.
    Yet I am hard-pressed to think of any program at NASA, with the 
possible exception of NASA's climate research initiatives, that is more 
relevant to our society's needs than NASA's aeronautics program.
    Aviation knits our country together, maintains our economic 
vitality, improves the quality of our lives, and helps enhance our 
national security.
    Moreover, aviation is a sector that makes a significant positive 
contribution to our balance of trade--and promotes America's 
competitiveness in the global economy.
    Yet the explosive growth of aviation over the last several decades 
has also brought its own set of challenges.
    These include dealing with the increasing congestion of the 
Nation's airspace system, the need to maintain safety in the face of 
increasing travel demand, and the need to mitigate the negative impacts 
of aviation on the environment--whether noise, increasing energy 
consumption, or harmful emissions.
    And with respect to emissions, it is clear that an emerging focus 
of concern is greenhouse gas emissions that can contribute to climate 
change, an area that this committee has been trying to call attention 
to over the past year.
    It is clear that meeting all of those challenges is going to 
require a national commitment to cutting-edge research into new 
technologies and operational procedures.
    We must focus on research that will ensure that the Nation's air 
traffic management system will be able to meet anticipated demand while 
preserving safety and making the whole experience a lot more pleasant 
than it is now for the average traveler.
    We also need to focus on developing technologies that can make 
aircraft much more energy efficient and produce lower levels of harmful 
emissions.
    In addition, NASA needs to continue to pursue research that will 
open up new flight regimes for our utilization, for example, research 
that will enable such things as civil rotorcraft and supersonic 
aircraft that are environmentally friendly, safe, and that can operate 
without adverse impacts on our communities.
    And we need to focus on research that will ensure that we maintain 
the high level of safety that we have enjoyed in our aviation sector.
    Indeed, the National Academies completed a Decadal Survey of Civil 
Aeronautics several years ago that identified some 51 key technical 
challenges around which NASA--in close collaboration with industry and 
academia--could structure a compelling and productive aeronautics R&D 
agenda for the next decade.
    That's the good news.
    However, as a number of the witnesses at today's hearing will 
testify, and as past witnesses have also testified--the decline in 
NASA's aeronautics funding is making it increasingly difficult to 
maintain an aeronautics research program that will be capable of 
stepping up to the challenges the Nation's aviation sector will be 
facing in the coming decades.
    In short, the future relevance of NASA's aeronautics program is at 
risk--just when the need for NASA's research contributions is greatest.
    In part that is because carrying research to a level of maturity 
that allows the results to be transitioned to the users--whether 
private or public sector--requires a greater level of investment than 
the current Administration has been willing to make.
    That needs to change.
    If promising technologies and operational concepts aren't matured 
to the point that they can be transitioned to the users for further 
development or implementation, the Nation will never receive the full 
benefit of the investment that it has made in that research.
    That's the challenge we face.
    Aeronautics needs to be a priority at NASA. It is as simple as 
that.
    I think the NASA Authorization Act of 2005 got it right when it 
reaffirmed that ``Aeronautics research remains a core mission of 
NASA.''
    Our witnesses today will tell us about the ways that NASA research 
can contribute to a bright and exciting future for American aviation.
    We need to ensure that NASA maintains its commitment to carrying 
out that research.
    We have much to discuss at today's hearing, so at this point I will 
again thank our witnesses for your participation, and we look forward 
to your testimony.

    Chairman Udall. It is with great pleasure I now recognize 
the Ranking Member, my partner, Mr. Feeney, for an opening 
statement.
    Mr. Feeney. Thank you, Chairman Udall, for calling today's 
hearing and thanks also to our witnesses for taking time away 
from their busy schedules to come before us today. I realize 
most of you have traveled some distance, carving at least a 
day, if not two, out of your week to be here with us and I 
appreciate that. Your wisdom and expertise are greatly 
appreciated.
    Mr. Chairman, there are very few enterprises over the past 
100 years that have contributed so powerfully to America's 
economy and enhanced our nation's quality of life and our 
security than NASA's aeronautics research and development 
program. It actually began some 93 years ago with the 
establishment of the National Advisory Committee for 
Aeronautics in 1915. Even though the Wright Brothers had 
conducted their first powered flight in 1903, by the beginning 
of World War I, the United States lagged behind Europe in 
airplane technology. In order to catch up, Congress founded 
NACA.
    NACA involved into a splendid organization that produced 
gems of aeronautical research. In 1958, NACA was folded into 
NASA when the latter was created in response to the Sputnik 
mission. Exemplary aeronautical research continued. And the 
Space Task Force, which drew from the talented base at NACA's 
Langley Memorial Aeronautical Laboratory, began America's human 
space flight program, Project Mercury.
    The discoveries and applications that have flowed from NACA 
and NASA have spurred a large and vibrant aerospace industry. 
As should be expected, this industry and aerospace technology 
has evolved over time, especially over the last three decades. 
Since the late 1970s, the airline industry has been 
deregulated. Manufacturers and carriers have been consolidated. 
The airspace has become saturated. Building new runways and 
airports has become very difficult and very expensive. The size 
and performance of aircraft operating in the system are much 
more diverse and environmental performance and efficiency are 
driving designs of the next generation of aircraft. The list of 
changes goes on.
    In the face of these changes, it is fair to ask how healthy 
and relevant is NASA's aeronautics program today. Is it 
appropriate for the Federal Government to continue to fund 
aeronautics research, and if so, where should the line be drawn 
between government and industry research responsibilities? Are 
NASA's aeronautics researchers pursuing the right questions? Is 
the Agency making the most effective use of research funding? 
Are the Agency's discoveries and products being adopted by 
industry?
    Adding further complexity to the discussion is the NextGen 
program, of which NASA is a critical partner. Unlike the mixed 
results from past efforts to modernize the air traffic control 
system, NextGen must succeed. There is no alternative. In the 
increasingly competitive global economy, America's advantages 
in mobility and logistics cannot be frittered away.
    And in an era of increased emphasis on energy and 
environmental concerns, I gently point out that NextGen's 
efficiencies will produce energy savings and a lessened 
environmental footprint as aircraft use more direct routes, 
experience less air and ground holds and employ techniques like 
Continuous Descent Approach. Improved mobility is 
environmentally friendly and economically beneficial.
    But if NextGen is to succeed, NASA must develop and 
validate technologies to enable more efficient, environmentally 
benign and safer aircraft and engines as well as surveillance, 
navigation and control infrastructure.
    I am hoping the testimony we will receive this morning will 
help us reach a broad consensus on how to shape the program to 
meet current and future challenges. I am especially anxious to 
hear the views of industry and from the National Research 
Council about their findings and recommendations contained in 
their recently published analysis of NASA's aeronautics 
programs. I also want to congratulate Dr. Shin, a longtime NASA 
aeronautics researcher, who was recently appointed to head the 
Agency's aeronautics directorate.
    Aeronautics is not a mature industry. Any number of new 
technologies that enable cleaner, quieter, more efficient 
aircraft will make a telling difference between success and 
failure. We cannot afford to cede our leadership to foreign 
suppliers.
    With that, Mr. Chairman, again thank you for the hearing 
and I look forward to hearing from our witnesses.
    [The prepared statement of Mr. Feeney follows:]
            Prepared Statement of Representative Tom Feeney
    Thank you, Mr. Chairman, for calling this morning's hearing. And my 
thanks, too, to our witnesses for taking time away from their busy 
schedules to appear before us today. I realize most of you have 
traveled some distance, carving at least a day--if not two--out of your 
work week to be here. Your wisdom and expertise are greatly 
appreciated.
    Mr. Chairman, there are very few federal enterprises over the past 
one hundred years that have contributed so powerfully to America's 
economy and enhanced our nation's quality of life--and our security--
than NASA's aeronautics research and development program. It began 93 
years ago with the establishment of the National Advisory Committee for 
Aeronautics (NACA) in 1915. Even though the Wright brothers conducted 
the first powered flight in 1903, by the beginning of World War I, the 
United States lagged behind Europe in airplane technology. In order to 
catch up, Congress founded NACA.
    NACA evolved into a splendid organization that produced gems of 
aeronautical research. In 1958, NACA was folded into NASA when the 
latter was created in response to Sputnik. Exemplary aeronautical 
research continued. And the Space Task Force, which drew from the 
talent based at NACA's Langley Memorial Aeronautical Laboratory, began 
America's human space flight program--Project Mercury.
    The discoveries and applications that have flowed from NACA and 
NASA have spurred a large and vibrant aerospace industry.
    As should be expected, this industry and aerospace technology has 
evolved over time, especially over the last three decades. Since the 
late 1970s, the airline industry has been deregulated; manufacturers 
and carriers have consolidated; the airspace has become saturated; 
building new runways and airports has become very difficult and 
expensive; the size and performance of aircraft operating in the system 
are much more diverse; and environmental performance and efficiency are 
driving designs of the next generation of aircraft. The list goes on.
    In the face of these changes, it's fair to ask how healthy and 
relevant is NASA's aeronautics program today? Is it appropriate for the 
Federal Government to continue to fund aeronautics research, and if so, 
where should the line be drawn between government and industry research 
responsibilities? Are NASA's aeronautics researchers pursuing the right 
questions? Is the Agency making the most effective use of its research 
funding? Are the Agency's discoveries and products being adopted by 
industry?
    Adding further complexity to the debate is the NextGen program, of 
which NASA is a critical partner. Unlike the mixed results from past 
efforts to modernize the air traffic control system, NextGen must 
succeed. In the increasingly competitive global economy, America's 
advantages in mobility and logistics cannot be frittered away.
    And in an era of increased emphasis on energy and environmental 
concerns, I gently point out that NextGen's efficiencies will produce 
energy savings and a lessened environmental footprint as aircraft use 
more direct routings, experience less air and ground holds, and employ 
techniques like Continuous Descent Approach. Improved mobility is 
environmentally friendly and economically beneficial.
    But if NextGen is to succeed, NASA must develop and validate 
technologies to enable more efficient, environmentally benign, and 
safer aircraft and engines, as well as surveillance, navigation and 
control infrastructure.
    I am hopeful the testimony we'll receive this morning will help us 
reach broad consensus on how to shape the program to meet future 
challenges. I am especially anxious to hear the views of industry, and 
from the National Research Council about their findings and 
recommendations contained in their recently published analysis of 
NASA's aeronautics program. I also want to congratulate Dr. Jaiwon 
Shin, a longtime NASA aeronautics researcher, who was recently 
appointed to head the Agency's aeronautics directorate.
    Aeronautics is not a mature industry. Any number of new 
technologies that enable cleaner, quieter, more fuel efficient aircraft 
will make a telling difference between success and failure. We cannot 
afford to cede our leadership to foreign suppliers.
    Thank you.

    Chairman Udall. Thank you, Mr. Feeney.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Thank you, Mr. Chairman for calling this hearing on NASA's 
Aeronautics R&D programs. As Chairman of the Aviation Subcommittee, I 
am extremely interested in these programs because NASA and FAA 
coordinate research for implementation of NextGen. Further, these 
programs also lead to further reductions in aviation's environmental 
impact. Our Aviation Subcommittee is having a hearing on aviation and 
the environment next week where we will delve further into aviation's 
environmental impacts, but I want to be clear that aeronautics R&D is a 
significant component in assisting the industry in its efforts to 
reduce aviation emissions.
    A strong aerospace industry will enable the United States to defend 
itself, compete in the global marketplace, maintain a highly skilled 
workforce, and provide all Americans with the ability to travel safely 
and securely anywhere in the world. Continued reductions in the NASA 
aeronautics budgets delay our ability to meet the goals of NextGen, 
which is expected to reduce congestion and delays in our skies and 
produce great efficiencies in our aviation system.
    I continue to be troubled that the Bush Administration sees NextGen 
as the answers to our congestion in the skies, but does not budget 
accordingly to reach that goal. R&D is essential to advancing NextGen 
and we cannot lose sight of that.
    I welcome our witnesses and look forward to their testimony.

    Chairman Udall. I would like to move right to an 
introduction of our panel of witnesses. First up, we have Dr. 
Jaiwon Shin, who is the new Associate Administrator at NASA for 
the Aeronautics Research Mission Directorate. Congratulations 
on your new appointment. Next to Dr. Shin, we have Mr. Carl 
Meade, who is appearing today as the Co-Chair of the National 
Research Council's Committee for the Assessment of NASA's 
Aeronautics Research Program. Welcome to you. Mr. Preston Henne 
is the Senior Vice President for Programs, Engineering and 
Testing for Gulfstream Aerospace Corporation. We are looking 
forward to your testimony. There are some exciting things going 
on at Gulfstream. And then finally we have Dr. Ilan Kroo, who 
is Professor in the Department of Aeronautics and Astronautics 
at Stanford University. Welcome.
    I think you all know that spoken testimony is limited to 
five minutes each, after which the Members of the Subcommittee 
will have five minutes each to ask questions. Dr. Shin, we will 
start with you.

    STATEMENT OF DR. JAIWON SHIN, ASSOCIATE ADMINISTRATOR, 
AERONAUTICS RESEARCH MISSION DIRECTORATE, NATIONAL AERONAUTICS 
                AND SPACE ADMINISTRATION (NASA)

    Dr. Shin. Chairman Udall, Ranking Member Feeney, thank you 
for this opportunity to appear before you today to provide an 
update on NASA's aeronautics research program. I will also 
address the issues raised by the Subcommittee concerning the 
R&D challenges in aeronautics, specifically the Next Generation 
Air Transportation System, or NextGen, aviation safety, 
aviation environmental impacts and promising new flight 
regimes.
    As you know, NASA has a long and successful history of 
conducting R&D in technologies that have benefited our nation's 
aviation community. One such example is the vertical extensions 
found on wingtips, which help to improve an aircraft's full 
efficiency and cruising range, known as winglets----
    Chairman Udall. Dr. Shin, would you pull the microphone a 
little closer? We just want to make sure we get your words in 
the record. Thank you.
    Dr. Shin. Known as winglets, this technology was developed 
by NASA during the 1970s and is now found on aircraft of all 
types around the world. You should have before you a folder 
that depicts some examples of NASA innovation that have made a 
difference in the way we safely travel today. NASA's 
Aeronautics Research Mission Directorate, or ARMD, continues 
this tradition through its commitment to conducting long-term 
cutting-edge research for the benefit of the broad aeronautics 
community and in support of NASA's goals for both manned and 
robotic space exploration.
    I believe that aviation in the United States could be on 
the verge of another renaissance. Demand for air travel is 
expected to double or even triple in the next two decades, 
which will require a revolutionary air transportation system. 
In order to realize this new system, a number of significant 
challenges must be overcome such as protecting the environment, 
ensuring safety, dramatically improving efficiency and 
revolutionizing the ways we manage the flow of aircraft. The 
aeronautics research that we conduct today will play a vital 
role in transforming the air transportation system of tomorrow.
    While each of the four programs within ARMD uniquely 
address critical challenges, the four programs integrate their 
research for a holistic approach to high-level challenges such 
as NextGen. I would like to illustrate why this holistic 
approach is important by going over the four questions raised 
by the Committee.
    As for the NextGen R&D issues, I must say that it is 
difficult to identify the most critical barrier to NextGen. 
While it is easy to consider the air traffic management system 
to be the most critical issue, the reality is, we must treat 
the entire system as an interrelated enterprise instead of 
segregating research into separate areas. To foster this 
thinking, ARMD's research programs address issues of air 
traffic management, avionics advanced vehicles, safety and 
environmental impact. The vast majority of what ARMD does is 
directly in line with the NextGen vision that is clearly 
supported by national aeronautics R&D policy.
    It is a well-known fact that the current U.S. air 
transportation system is among the safest modes of 
transportation ever. Even as we dramatically transform our air 
transportation system, it is imperative that we maintain or 
preferably improve on this impressive safety record. ARMD's 
Aviation Safety Program is working on development of new 
technologies such as new airborne sensors of flight hazards, 
methods of controlling aircraft even in upset conditions and 
systems capable of monitoring aircraft and airspace to detect 
anomalies before they can develop into accidents. Likewise, the 
Aviation Safety Program is developing new materials and 
structures that can age with great durability and less fatigue 
and is establishing a research program in human system 
integration and NextGen operations.
    I should point out that as the number of flight operations 
at many of the largest airports in the Nation continues to 
grow, environmental concerns over noise and emissions will 
limit the capacity of those airports and therefore limit the 
capacity of the entire system. NASA's Fundamental Aeronautics 
Program is working to improve the environmental impact of 
aviation through green aircraft research initiatives to reduce 
noise, local and global emissions and local air quality. We are 
also working on advanced vehicle concepts that will satisfy 
both forecasted demand and environmental compliance. 
Furthermore, the Aviation Systems Program is ensuring that 
today's fleet and new generations of vehicles can operate 
within the NextGen in a matter minimizing aviation's 
environmental impact.
    NASA is not fixated on developing new capability in just 
one flight regime, and I believe that an ideal situation will 
exist when multiple vehicle types exist, each suited for a 
particular use, operating in an air transportation system that 
is flexible enough to accommodate a wide range of vehicles 
without limiting performance. Examples of some of the most 
promising concepts include advanced subsonic transonic 
transport with nearly half the fuel burn of today's vehicles 
and a noise footprint that can be confined to the boundary of 
the airport, advanced supersonic transports with low sonic boom 
characteristics so that the aircraft may be flown 
supersonically over land and advanced rotorcraft that allow 
vertical or short takeoff and landing with vastly improved 
range and performance and reduced environmental impact, mainly 
from noise.
    I am pleased to report to you that NASA aeronautics now is 
in full execution of a robust fundamental research program that 
is well aligned with the national aeronautics R&D policy and 
directly supports the development of the NextGen system. ARMD's 
commitment to technical excellent with strong partnerships with 
industry, academia and other government agencies will ensure 
our reputation as the world's premier aeronautics R&D 
organization.
    I welcome any questions you may have. Thank you.
    [The prepared statement of Dr. Shin follows:]
            Prepared Statement of Representative Jaiwon Shin
    Chairman Udall and Members of the Subcommittee, thank you for this 
opportunity to appear before you today to provide an update on NASA's 
aeronautics research program and to address the issues raised by the 
Subcommittee concerning the R&D challenges in aeronautics; 
specifically, the Next Generation Air Transportation System (NextGen), 
promising new flight regimes, aviation safety, and aviation 
environmental impacts.
    NASA has a long and successful history of conducting research and 
development (R&D) in technologies that have benefited our nation's 
aviation community. Today, NASA's Aeronautics Research Mission 
Directorate (ARMD) continues this tradition through its commitment to 
conducting long-term, cutting-edge research for the benefit of the 
broad aeronautics community. ARMD has put together a robust research 
portfolio that addresses the challenges facing our nation as it 
transforms its air transportation system to meet growing capacity 
needs. Furthermore, the portfolio ensures aeronautics research and 
critical core competencies continue to play a vital role in support of 
NASA's goals for both manned and robotic space exploration.
    Growth in the air transportation system is vital to the well being 
of our nation. In order to realize the revolutionary changes required 
to meet forecasted capacity increases, a number of significant 
challenges must be overcome such as protecting the environment, 
ensuring safety, dramatically improving efficiency and revolutionizing 
the ways we manage the flow of aircraft. In the next two decades we 
must find ways to make advances that improve aircraft and system 
efficiency, reduce aviation's impact on the environment and allow more 
people to utilize air travel in ways that are more significant than all 
the gains realized over the last three decades. The research ARMD 
conducts today to address these issues will play a vital role in 
transforming the air transportation system of tomorrow.

ARMD Principles

    Every successful organization can point to core principles that 
guide its strategic direction. Since the restructuring of NASA's 
aeronautics program in 2006, ARMD has been guided by three such core 
principles: 1) we will dedicate ourselves to the mastery and 
intellectual stewardship of the core competencies of aeronautics for 
the Nation in all flight regimes; 2) we will focus our research in 
areas that are appropriate to NASA's unique capabilities; and, 3) we 
will directly address the fundamental research needs of the NextGen 
while working closely with our agency partners in the Joint Planning 
and Development Office (JPDO). While the leadership of ARMD has 
changed, these principles remain core to our strategic decision-making 
process and help to guide the direction of all of our programs. These 
principles ensure that NASA is focused on the most appropriate cutting-
edge research to overcome a wide range of aeronautics challenges facing 
our nation's future air transportation system and space exploration 
missions. Lastly, these principles have helped ARMD structure a robust 
aeronautics program that is well aligned with the principles, goals and 
objectives of the recent National Aeronautics R&D Policy and Plan.

Program Descriptions

    Four programs have been established under ARMD using our guiding 
principles: the Fundamental Aeronautics Program, the Aviation Safety 
Program, the Airspace Systems. Program and the Aeronautics Test 
Program. While each program uniquely addresses critical challenges, the 
four programs integrate their research for a holistic approach to high 
level challenges such as NextGen. The following are brief descriptions 
of each program and how their research supports the broad aeronautic 
community.
    ARMD's Fundamental Aeronautics Program (FAP) pursues long-term, 
cutting-edge research in all flight regimes (from subsonic to 
hypersonic) to produce data, knowledge FAP, and design tools that will 
be applicable across a broad range of air vehicles. FAT focuses on 
creating innovative solutions for the technical challenges of the 
future which include 1) increasing performance (including fuel 
efficiency, range, speed, payload, take-off and landing distances) 
while meeting stringent noise and emissions constraints; 2) alleviating 
environmental and congestion/capacity problems through the use of new 
aircraft and rotorcraft concepts; 3) improving the speed of air 
transportation while maintaining strict standards for performance and 
environmental compatibility; and 4) facilitating access to space and 
re-entry through planetary atmospheres. FAP research will directly 
support the NextGen challenges of overcoming the environmental and 
performance barriers to projected increases in capacity. Research in 
new aircraft and rotorcraft concepts will also directly support NextGen 
goals of better utilization of the airspace.
    ARMD's Aviation Safety Program (AvSP) builds upon NASA's unique 
research capabilities to improve aircraft safety, and to overcome 
safety limits that would otherwise constrain the full realization of 
the NextGen system. To meet these safety challenges, AvSP focuses on 
developing cutting-edge technologies to improve the intrinsic safety 
attributes of current and future aircraft and also on exploring how 
NextGen operations can improve upon the existing remarkable safety 
record of our current air transportation system. Examples of new 
technologies with direct application to NextGen include new sensors and 
methods to automatically detect and identify flight hazards, hidden 
anomalies or trends in aircraft systems, advanced materials, and flight 
control systems resilient in the face of failure and adverse flight 
conditions such as weather.
    ARMD's Airspace Systems Program (ASP) enables the development of 
revolutionary improvements to the national airspace system that allow 
sufficient capacity to meet increasing demand for air travel. ASP 
focuses on research to incorporate intelligent automation into the 
system with balanced roles for people and computers while preserving 
the high safety standard. Included in this is the development of 
automated aircraft trajectories that are safe, efficient and robust 
under a wide variety of traffic conditions. Solutions for enabling 
greater capacity at the busiest airports and in dense airspace 
integrate uncertainties, such as weather, into air traffic management 
decisions. The end result of ASP research is more efficient operations 
and reduced flight delays.
    ARMD's Aeronautics Test Program (ATP) focuses on the support of 
both ground based facilities, such as wind tunnels and aero-propulsion 
test facilities, as well as the aircraft and flight test 
infrastructure. ATP makes strategic utilization, operations, 
maintenance, and investment decisions for major wind tunnels/ground 
test facilities at Ames Research Center in California, Glenn Research 
Center in Ohio, and Langley Research Center in Virginia, and supports 
selected mission support and test bed aircraft at Dryden Flight 
Research Center, also in California. ATP ensures the availability of 
world-class aeronautics test facilities and test aircraft for the 
benefit of the aeronautics community.

Addressing NextGen R&D Issues

    Aviation in the United States is facing an exciting possibility for 
being on the verge of another renaissance. Demand for air travel is 
expected to double or even triple in the next two decades, which will 
require a revolutionary new air traffic management system. New 
technologies and design capabilities are making it possible to create 
entirely new vehicles that look radically different from the familiar 
``tube-and-wing'' aircraft that are now so familiar. These new aircraft 
will bring remarkable new capabilities that may require entirely new 
operational procedures in the airspace. Aeronautics research is crucial 
to overcoming the numerous challenges that impede the growth of air 
travel. In addition, there is an inherent challenge of improving safety 
even as we increase capacity. NASA is focused on addressing these 
critical long-term challenges.
    It is difficult to identify the ``most critical'' barrier to 
NextGen. Thus, one clear focus for NASA is treating the entire system 
as an inter-related enterprise, mirroring the National Aeronautics R&D 
Policy, instead of segregating research into separate areas. Alignment 
with the National Aeronautics R&D Policy helps ensure that NASA is 
focused on the most important R&D issues.
    NASA understands that the NextGen concept involves much more than 
just revolutionizing the air traffic management system; it also 
includes the advanced aircraft concepts that will populate the system 
over the next several decades. In particular, NASA is focusing on three 
generations of vehicles beyond the current generation, ``N,'' 
represented by the Boeing 787 for the fixed wing subsonic class of 
aircraft. Generation ``N+1'' is presumed to enter into service in 2015, 
market permitting, and is envisioned to be a tube-and-wing 
configuration but equipped with more advanced technologies than 
Generation ``N'' aircraft. Generation ``N+2'' will employ revolutionary 
concepts to achieve simultaneous gains in fuel burn, noise, and 
emissions, with an Initial Operating Concept around 2020. Generation 
``N+3'' will follow with much improved performance and reduced 
environmental impact.
    We must ensure that the airspace in which these aircraft will 
operate allows them to make full use of their capabilities. 
Simultaneously, we must also ensure that safety is not compromised. Our 
system-wide view of the entire air transportation system is reflected 
in the recent cross-Program NASA Research Announcement (NRA) topic 
entitled: ``Integration of Advanced Concepts and Vehicles into the Next 
Generation Air Transportation System.''
    To foster this thinking, ARMD's three research programs address 
issues of Air Traffic Management (ATM), avionics, advanced vehicles, 
safety, and environmental impact. The vast majority of what ARMD does 
is directly aligned with the NextGen vision that is clearly supported 
by the National Aeronautics R&D Policy. The following examples 
illustrate the alignment of ARMD programs with the National Aeronautics 
R&D Policy and the NextGen vision:

        <bullet> IThe Airspace Systems Program directly addresses the 
        Policy's first principle of ``mobility through the air'' by 
        conducting air traffic management research that will develop 
        concepts, capabilities, and technologies required to meet the 
        Nation's anticipated growth in airspace operations, both in the 
        air and on the ground. The Fundamental Aeronautics Program 
        directly addresses this principle by conducting research that 
        can enable the development of advanced aircraft systems that 
        fly with higher performance, lower fuel consumption, and 
        minimum environmental impact (noise and emissions) at a range 
        of speeds and from a wide variety of airports.

        <bullet> IThe core mission of the Aviation Safety Program 
        directly addresses the Policy's third principle that states 
        that aviation safety is paramount.

        <bullet> IThe Fundamental Aeronautics Program simultaneously 
        addresses the Policy's sixth principle of ``assuring energy 
        availability and efficiency'' and seventh principle of 
        ``protecting the environment'' by conducting research to 
        improve aircraft performance, increase fuel efficiency, 
        evaluate alternative fuels, lower emissions (including 
        particulate matter) and reduce noise. In addition, the Airspace 
        Systems Program also addresses these two principles by 
        conducting research to improve efficiency and reduce 
        environmental impact through better utilization of the 
        airspace.

    Additional examples of specific challenges and the NASA strategy to 
address them are provided in the following sections.

Safety Issues Facing the Nation

    The current U.S. air transportation system is among the safest 
modes of transportation ever. Throughout the implementation of NextGen 
it is imperative that we maintain or preferably improve on this 
impressive safety record. However, there is no single safety issue upon 
which to focus our efforts. Instead, we need to continually analyze for 
and predict safety issues as NextGen is implemented.
    We do know that there are many complex aspects of NextGen that 
present research challenges accepted by all ARMD research programs. For 
example, a major challenge will be the proper design, integration, and 
use of automation in both ground-based and airborne systems. Meeting 
this challenge will require advances in human-machine integration 
capabilities, better decision-making through data and knowledge mining 
systems, and intelligent systems that adapt to failures and hazardous 
flight conditions. Another challenge is the need for improved software 
verification and validation techniques to prevent against anomalies 
that could propagate across highly integrated systems with unintended 
consequences. In addition, new aircraft create challenges for effective 
maintenance and continued airworthiness assurance of advanced materials 
and lightweight structures when exposed to typical operational hazards 
and aging effects.
    Consequently, NASA's Aviation Safety Program conducts fundamental 
research across its four project areas to address both established and 
emerging safety barriers to the full realization of NextGen. For 
example, one aspect of the research portfolio is investigating human-
machine integration issues to include the best use of automation. We 
also know that a myriad of new aircraft materials will be used, so NASA 
is working to predict the long-term aging effects to understand the 
fundamental characteristics of advanced materials and aircraft 
structures, with the intent to design and mitigate against aging 
related hazards. NASA is also looking at mitigating unknown issues that 
may develop iii flight by designing intelligent on-board systems that 
can respond to and reliably mitigate against failures and flight in 
adverse conditions such as icing. Finally, NASA is also researching new 
data mining techniques to predict future failures from trends in 
current operations. This involves a fundamental shift away from a 
forensic approach of trying to understand why an accident occurred to a 
prognostic approach to safety that allows unsafe conditions to be 
identified before they become tragic. NASA continues to work with the 
Commercial Aviation Safety Team and other stakeholders to identify 
current and emerging aviation safety issues.

The Impact of Aviation on the Environment

    As NextGen evolves to meet the projected growth in demand for air 
transportation, NASA's Fundamental Aeronautics Program is working to 
answer two major questions: (1) how will we continue to reduce the 
environmental impact of aviation (in terms of noise, local and global 
emissions, and local air quality) despite growth? and, (2) what kinds 
of advanced vehicles will be required to satisfy both forecasted demand 
and environmental compliance? Furthermore, the Airspace Systems Program 
is ensuring that today's fleet and new generations of vehicles can 
operate within the NextGen in a manner minimizing aviation's 
environmental impact. These efforts represent significant investments 
in ``green'' aircraft research initiatives being led by NASA ARMD.
    As the number of flight operations at many of the largest airports 
in the Nation continues to increase, environmental concerns over noise 
and emissions will limit the capacity of those airports, and therefore 
limit the capacity of the entire system. Concerns over global emissions 
(mostly over greenhouse gases) may radically change air transportation 
as we know it: without new and innovative aircraft concepts and air 
traffic management concepts that can provide unprecedented levels of 
performance and environmental compliance, the overall capacity of the 
system will be significantly hampered. By 2025, the demand for air 
transportation will be satisfied by a variety of classes of aircraft. 
The Fundamental Aeronautics Program is developing ``green'' ideas, 
technologies, and tools to enable the development of highly efficient 
and environmentally friendly aircraft (including subsonic aircraft; 
supersonic aircraft; and aircraft with the ability to take-off and land 
on short runways, yet cruise efficiently at transonic speeds) and 
rotorcraft to meet the performance and environmental requirements that 
will be demanded by the public. Below are some specific examples of 
NASA's ongoing work to mitigate the environmental (and global climate) 
impact of aviation:

        1. INASA has set aggressive goals for fuel burn, noise, and 
        emissions reductions for three generations of vehicles 
        (referred to as ``N+1, ``N+2,'' and ``N+3'') and is pursuing 
        technologies that can achieve each of these goals.

        2. IAdvancement of hybrid wing-body vehicle (``N+2'') 
        technologies for low noise, higher performance, and better 
        engine/airframe integration. These efforts have the potential 
        of enabling aircraft that, unlike conventional tube-and-wing 
        aircraft, can simultaneously achieve significantly reduced 
        noise, emissions, and fuel burn.

        3. ISystem-level understanding of laminar flow control 
        techniques for application in ``N+1'' and ``N+2'' concepts. 
        Laminar flow technology can significantly decrease the fuel 
        burn of both conventional and unconventional aircraft and, 
        therefore accomplish significant CO\ emissions reductions (up 
        to 50 percent better than the current state-of-the-art).

        4. IAggressive weight reduction technologies using advanced 
        materials and structural concepts for both aircraft and engine 
        structures with significant reduction of CO\ emissions due to 
        decreases in fuel burn.

        5. IStudies into the necessary technologies and integration 
        approaches to realize significantly improved gas turbine 
        engines with higher efficiency (resulting in lower CO\ 
        emissions) and lower NOX emissions.

        6. IEfforts to assess the validity and applicability of 
        biofuels/alternative fuels of various different sources to 
        aviation applications.

        7. IApproaches to improve the viability of both supersonic 
        transports and advanced rotorcraft in the NextGen incorporating 
        environmental constraints.

    In addition, NASA has recently issued a solicitation for the 
``N+3'' generation of advanced vehicles (see http://
www.aeronautics.nasa.gov/fap) that will have dramatically improved 
environmental performance to the point that emissions of CO\ will be 
reduced by up to 70 percent and the noise of such aircraft will be 
barely noticeable outside airport boundaries.
    To facilitate the transition of advanced ideas and technologies 
into the aircraft fleet, NASA is partnering with the Federal Aviation 
Administration's (FAA) Continuous Low Emissions, Energy and Noise 
(CLEEN) program to guide efforts to mature technologies that have 
already shown promise to the point where they can be adopted by the 
current and future aircraft fleet. This collaboration with the FAA is 
only one of the many joint activities that both agencies are pursuing 
to ensure that the environmental impact of aviation is significantly 
reduced in the presence of net growth.
    Finally, NASA actively participates in Aviation Climate Change 
Research Initiative (ACCRI) to better understand and assess the global 
climate impact of current and future advanced vehicles. In fact, the 
``N+3'' solicitation is specifically addressing some of the leading 
issues in global climate.
    It is widely recognized that 90<ls-thn-eq>0995 percent of the 
environmental gains in the current air transportation system have 
resulted from improvements in aircraft and aircraft technologies. 
NASA's Fundamental Aeronautics Program is ensuring that, in the future, 
dramatic improvements can be derived from the next generation of 
aircraft.

New Flight Regimes

    NASA is not fixated on developing new capabilities in just one 
flight regime, but instead believes that an ideal situation will exist 
when multiple vehicle types exist, each suited for a particular use, 
operating in an air transportation system that is flexible enough to 
accommodate a wide range of vehicles without limiting performance. 
Examples of some of the most promising concepts for large improvements 
in aviation include:

        <bullet> IAdvanced subsonic/transonic transports with nearly 
        half the fuel burn of current vehicles (and therefore half the 
        greenhouse gas emissions), a noise footprint that can be 
        confined to the boundary of the airport, and local emissions 
        that are far below those encountered today. These gains will 
        require revolutionary changes in the airframe and propulsion 
        plant and the way in which they are integrated into a single 
        system. Alternative sources of energy are likely to play a 
        significant role in the development of these vehicles.

        <bullet> IAdvanced supersonic transports with comparable 
        performance to their subsonic/transonic counterparts and with 
        low sonic boom characteristics so that the aircraft may be 
        allowed to fly supersonically over land. In addition, take-off 
        and landing noise will be significantly reduced to meet or 
        exceed Stage 4 requirements.

        <bullet> ICruise-Efficient Short Take-Off and Landing (CESTOL) 
        aircraft that cruise with very high performance and low 
        environmental impact, yet can take off and land from very short 
        runways.

        <bullet> IAdvanced rotorcraft (large civil tiltrotors and 
        variable-speed compound concepts) that allow vertical or short 
        take-off and landing with vastly improved range and performance 
        and reduced environmental impact (mainly from noise).

Knowledge/Technology Transfer

    NASA believes ``knowledge transfer'' is critical and deserves high 
priority attention and a concerted effort to ensure it happens in a 
timely manner. Emphasizing ``technology transfer'' only drives a 
tendency to focus on devices and widgets, rather than on the knowledge 
enabling their creation. To ensure broad benefits to the community, the 
knowledge that underpins any new technology must be transferred to the 
community such that technology can be broadly applied. This 
``transfer'' occurs at many levels ranging from the exchange of 
fundamental ideas to the adoption of new systems. We have created a 
number of mechanisms to enable such an exchange. For example, we have 
established technical working groups to engage industry and academic 
partners on a regular basis in order to facilitate knowledge transfer. 
Space Act Agreements are used to enable NASA to leverage industry's 
unique systems-level expertise while enabling industry to quickly 
acquire research results.
    A new process has been established to help ensure that NASA's 
fundamental research can be transitioned for implementation in NextGen 
systems and concepts. NASA Aeronautics, the FAA, and the JPDO are 
working collaboratively to establish this process, which ensures 
research is sufficient and appropriate to enable NextGen. The new 
process has top-level commitment from the NASA Associate Administrator 
for Aeronautics and the FAA Vice President for Operations Planning 
Services, Air Traffic Organization. A coordinating committee that 
includes both FAA and NASA representatives oversees four initial 
Research Transition Teams (RTT) that are organized around the NextGen 
Concept of Operations framework. This framework connects the FAA's 
Operational Evolution Partnership elements with NASA research. The JPDO 
has an important role in the transfer in which they inform the 
Integrated Work Plan as work progresses. The teams are working to plan 
near-term R&D transition in areas such as surface management and long-
term transition in areas such as dynamic airspace allocation. With 
regards to the initial collaborative RTT activity, more than 35 
participants from FAA service units, NASA, MITRE/CAASD, and industry 
attended a workshop in Washington, DC in February 2008 to focus on 
integration of NASA and FAA research plans, schedules, roadmaps, and 
coordinated simulations for near-term NextGen Trajectory Management 
objectives.
    In April 2008, NASA and FAA program, project, and senior 
researchers attended a RTT kick-off workshop focused on Surface ATM 
concepts. The primary goal of this RTT is to jointly collaborate on 
near- and mid-term objectives to reduce the risk of development of an 
Integrated Airport Surface/Arrival/Departure system concept for 
NextGen. Furthermore, NASA and FAA personnel are scheduled to conduct 
two additional RTT workshops early in the summer of 2008. In a fully 
collaborative effort, one workshop will work to define the far-term 
NextGen objectives of the dynamic airspace allocation concept, and the 
second will contribute to the definition of mid-term NextGen roles, 
responsibilities and objectives for the Multi-Sector Planner concept.
    Following completion of the four pilot RTT workshops, NASA, FAA, 
and JPDO will make improvements to the RTT process based on lessons 
learned, and continue the collaboration of researchers and implementers 
to ensure that the research needed for NextGen is identified, 
conducted, and transitioned.

Building on NASA's Research Heritage

    It is important to remember that NASA has a long heritage of 
conducting revolutionary research. The following are examples of NASA 
research that are making a difference in aviation today.

        <bullet> INASA completed the first test of a digital fly-by-
        wire system in a modified F<ls-thn-eq>098 Crusader aircraft in 
        1972. It was the forerunner of the fly-by-wire flight control 
        systems now used on the Space Shuttle and on today's military 
        and civilian aircraft to make them safer, more maneuverable and 
        more efficient.

        <bullet> IWinglets are one of the most successful examples of 
        NASA aeronautical innovation being utilized around the world on 
        all types of aircraft. Winglets are vertical extensions of 
        wingtips that improve an aircraft's fuel efficiency and 
        cruising range.

        <bullet> IThe FAA is engaged in national deployment of the 
        NASA-developed Traffic Management Advisor (TMA) tool. TMA is 
        now a component of the FAA's Free Flight program to increase 
        the capacity of the Nation's airspace. The application enables 
        en route air traffic controllers and traffic management 
        specialists to develop complete arrival-scheduling plans. These 
        plans help maximize an airport's use of available capacity by 
        making early runway assignments for arriving aircraft and 
        spacing aircraft so that they reach the airport at appropriate 
        intervals.

        <bullet> INASA's work improved aviation safety in hazardous 
        weather conditions caused by wind-shear. In collaboration with 
        industry and the FAA, NASA developed and validated on-board 
        aircraft wind-shear sensors that could detect and measure the 
        intensity of wind-shear conditions ahead of the aircraft, such 
        that a pilot could be alerted in time to safely avoid a 
        hazardous weather condition.

    Figure 1 at the end of this testimony depicts some of these 
improvements along with others that have made a difference in the way 
we safely travel today.

Recent Accomplishments

    After undergoing a thorough reformulation period, all of ARMD's 
programs are now in full implementation. The most important ``thing'' 
that these programs generate is knowledge. To validate our 
accomplishments and disseminate our results, we have placed a renewed 
emphasis on publication in peer-reviewed references and Program 
planning accounts for the effort needed to document research results. 
While there are too many success stories over the past two years to 
list, here are a few examples of recent accomplishments.

        <bullet> IIn partnership with Boeing and the Air Force Research 
        Laboratory (AFRL), the Fundamental Aeronautics Program 
        successfully completed several flight tests of a blended wing 
        body (BWB) aircraft, named X<ls-thn-eq>0948B, which has the 
        potential to provide increased capacity, increased fuel 
        efficiency and decreased noise compared to today's aircraft. 
        The X<ls-thn-eq>0948B was cited as one of the ``Best 
        Innovations of the Year 2007'' by Time Magazine.

        <bullet> IThe Fundamental Aeronautics Program successfully 
        demonstrated, in partnership with Pratt & Whitney, the 
        feasibility of a high-efficiency fan design for an ultrahigh 
        bypass ratio turbofan engine that, in combination with other 
        technologies, has the potential for achieving significant noise 
        reduction for aircraft.

        <bullet> IThe Aviation Safety Program developed new data-mining 
        tools to integrate and analyze large quantities of operational 
        flight data to detect potential systemic problems across a 
        fleet of aircraft. The ability to automatically detect and 
        identify hidden anomalies or trends in aircraft systems will 
        enable corrective action to be taken in a timely manner before 
        an unsafe situation occurs.

        <bullet> IThe Aviation Safety Program designed and built a new 
        silicon carbide circuit chip that has exceeded 6,000 hours of 
        continuous operation at 500 degrees Celsius (C) in a laboratory 
        environment. The highly durable packaging of circuit chips is 
        being developed to enable extremely functional but physically 
        small and resilient circuitry that can provide constant engine 
        health monitoring, even in the harsh conditions in the hot 
        sections of jet engines.

        <bullet> ITo better enable effective decision-making essential 
        for NextGen, the Airspace Systems Program developed an 
        aircraft-level flow control model to examine the impact of 
        constraints (such as ground-delay decisions due to congestion) 
        on flows into and out of New York area airports. The study 
        examined variations in the geographical location of 
        constraints, magnitude of constraints, and flow prioritization 
        approaches, and found that prioritizing New York flows through 
        congested sectors is possible without increasing system delays.

        <bullet> IThe Airspace Systems Program developed an initial 
        concept for Airspace Super Density Operations that meets the 
        multiple objectives of NextGen terminal airspace operations: 
        significantly increased capacity, robustness to varied and 
        chaotic weather conditions, reduced environmental impact, and 
        coordination of arrival and departure operations to/from 
        multiple proximate airports. Initial assessments of core 
        elements were conducted including: closely-spaced approach 
        procedures, continuous descent arrival operations, 4D 
        trajectory navigation, delegated spacing function and dynamic 
        routing to avoid adverse weather.

Success Through Partnerships

    NASA believes we should be in the leadership position to conduct 
fundamental research required to solve all the aeronautics challenges 
listed above. However, NASA also believes that we do this in close and 
strong partnerships with industry, academia and other government 
agencies in order to maximize the research capabilities of the Nation. 
Because these partnerships are so important, NASA has put many 
mechanisms in place to engage academia and industry, including industry 
working groups and technical interchange meetings at the program and 
project level, Space Act Agreements for cooperative partnerships with 
industry, and the NRA process that provides full and open competition 
for the best and most promising research ideas. Cooperative 
partnerships with industry consortia can result in a significant 
leverage of resources for all partners and can provide opportunities to 
test the value of component-technology advances in full system-level 
contexts. All research results, whether generated by NASA internally or 
by its partners through the NRA, will be openly disseminated through 
archival publications and conference proceedings as well as NASA 
publications to benefit broad U.S. aeronautics community while ensuring 
the dissemination policy is consistent with national security and 
foreign policy guidelines.
    ARMD is actively using the NRA mechanism to foster collaboration 
with academia, industry, and non-profit organizations. The first 
Research Opportunities in Aeronautics NRA was released in May 2006 and 
since then two more versions have been issued on an annual basis. The 
response to the NRA has been tremendous. As of the end of April 2008, 
more than 1380 proposals have been received resulting in more than 327 
awards. An important aspect of these awards is that they are closely 
aligned with the research goals of internal NASA efforts. This results 
in a cooperative arrangement that is mutually beneficial to NASA and to 
the performing organization. The NRA is based on the principle of full 
and open competition and provides an ideal mechanism for bringing the 
best ideas from across the Nation to bear on particular problems.
    Last year, ARMD established over 30 Space Act Agreements with 
different members of the aerospace industry and, in some situations, 
with consortia of industrial participants. These collaborative 
opportunities have produced very significant research results at the 
system level where the expertise of industry and NASA come together to 
integrate technologies that can, one day, be incorporated into the 
aircraft fleet.
    Finally, NASA recognizes the importance of close coordination not 
just with industry and academia, but with its partners in other 
government agencies as well. For example, NASA and the JPDO have 
established quarterly reviews to ensure close coordination, and NASA 
participates in all major JPDO planning activities. NASA and the FAA 
have developed a joint program plan for the Aviation Safety Information 
Analysis and Sharing (ASIAS) effort with well defined roles and 
responsibilities. NASA and the Department of Defense have signed an MOU 
to facilitate the establishment of an integrated national strategy for 
the management of their respective aeronautics test facilities. NASA 
and the U.S. Air Force have established an Executive Research Council 
that meets at least twice a year to ensure close coordination and 
collaboration. And lastly, NASA and the Army have signed a Memorandum 
of Understanding to coordinate research efforts on rotorcraft.

Conclusion

    NASA Aeronautics is now in full execution of a robust fundamental 
research program that is well aligned with the National Aeronautics R&D 
Policy and directly supports the development of the NextGen system. 
NASA Aeronautics pursues long-term, cutting-edge research to address 
new challenges in the Nation's air transportation system and to support 
the Agency's space exploration vision. ARMD's commitment to technical 
excellence with strong partnerships with industry, academia and other 
government agencies will ensure our reputation as the world's premier 
aeronautics R&D organization.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Udall. Thank you, Dr. Shin.
    Mr. Meade.

  STATEMENT OF MR. CARL J. MEADE, CO-CHAIR, COMMITTEE FOR THE 
  ASSESSMENT OF NASA'S AERONAUTICS RESEARCH PROGRAM, NATIONAL 
                        RESEARCH COUNCIL

    Mr. Meade. Mr. Chairman, Members of the Subcommittee, thank 
you for inviting me here to testify today. My colleague, Dr. 
Donald Richardson, and I are co-chairs of the National Research 
Council's Committee for the Assessment of NASA's Aeronautics 
Research Program, and it is in that capacity that I appear to 
you today. Unless otherwise noted, the views I offer are 
strictly those of the Committee and not those of my employer, 
Northrop Grumman Corporation.
    In addition to responding to the questions posed by the 
Subcommittee in its April 17th invitation to appear, which will 
be annotated in my written testimony, I would like to make some 
general observations.
    Our committee evaluated NASA's entire aeronautics 
portfolio, both civil and non-civil. However, the majority of 
our attention was devoted to the request by Congress to assess 
NASA's aeronautics research program against a very specific 
benchmark, which was the Decadal Survey of Civil Aeronautics, 
published by the NRC in 2006. Therefore, most of our findings 
and recommendations are centered around that comparison.
    The NASA aeronautics research program does have room for 
improvement, both in its direction and its execution. When 
assessing NASA's research against the recommendations of the 
decadal survey, we found mixed results. Our study found that 
NASA's efforts to achieve 20 of the 51 decadal survey 
technologies have no significant shortcomings or very minor 
shortcomings that are recoverable within the overall project 
concept and will substantially advance the state-of-the-art. 
Seven of the 51 have major shortcomings that would be difficult 
to recover within the current overall project concept. For the 
remaining 24 challenges, NASA is effectively addressing some 
areas but not others and so the results can best be described 
as mixed.
    Your subcommittee specifically requested information 
regarding safety and environmental challenges. I will try to 
summarize those right now. Of the 20 challenges identified with 
little or no shortcomings, about half are related to safety or 
the environment. The same can be said for the other categories 
I just outlined, and this is consistent with the safety and 
environmental content of the entire set of 51 technology 
challenges, which is about half related to safety and the 
environment.
    It would be easy to misinterpret our findings as largely 
negative. This is not the intent of the Committee, nor would it 
be proper interpretation to regard the results of our study as 
an indictment of the performance of NASA's Aeronautics Research 
Mission Directorate. Our committee would like to emphasize that 
by and large, we found the ARMD workforce to be both dedicated 
and competent.
    Having said that, it does not appear that the ARMD has 
responded in any significant way to the recommendations of the 
decadal survey. Keep in mind, however, that the Decadal Survey 
of Civil Aeronautics was the first survey of its kind published 
in aeronautics. Consequently, ARMD has no experience in 
utilizing decadal surveys, which may help explain why the 
directorate did not respond immediately to its publication.
    To properly understand our report, it is also important to 
keep in mind that the authors of the decadal survey itself were 
not bound by budgetary considerations, and this unlike decadal 
surveys from other scientific disciplines which we have seen in 
the recent past. Therefore, it is not unexpected that the ARMD 
would not be able to make progress on all 51 of the technology 
challenges contained in the decadal survey. In fact, barring an 
increase in funding for this activity, we have recommended that 
ARMD redefine its scope and address only the challenges with 
the highest priorities where significant, timely progress can 
be made in advancing the state of the art.
    Aside from the quality of the research conducted by ARMD, 
we would stress the need for a cultural change within the 
directorate. Indeed, the Committee was most concerned about the 
lack of urgency demonstrated by some projects and the tendency 
of some researchers to assume that the ultimate consumer of the 
fruits of their labor was NASA itself. As one example, one of 
ARMD's three operating principles states, and I quote, ``We 
will focus our research in areas that are appropriate to NASA's 
unique capabilities.'' In my opinion, NASA and the country 
would be better served if the principles were revised to 
include ``We will mold NASA's unique capabilities to enable 
research in the most vital areas.''
    I will be glad to answer any questions you may have.
    [The prepared statement of Mr. Meade follows:]
                  Prepared Statement of Carl J. Meade
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me to testify today. My colleague, Dr. Donald Richardson, and I are Co-
Chairs of the National Research Council's Committee for the Assessment 
of NASA's Aeronautics Research Program. I appear here today in my 
capacity as Co-Chair of that committee. The views I share with you, are 
those of the Committee, not those of my employer, Northrop Grumman 
Corporation.
    The Subcommittee's April 17, 2008 letter to me requesting this 
testimony posed three questions that are addressed below.

1. IWhat were the major findings and recommendations of your recently 
completed assessment of NASA's fundamental aeronautics research 
program?

    Our committee assessed the entirety of NASA's Aeronautics Research 
Program and made several recommendations to NASA to improve its ability 
to (1) meet the high-priority technology challenges that are identified 
in the Decadal Survey of Civil Aeronautics, which was published by the 
National Research Council in 2006, (2) address NASA's internal 
requirements for aeronautics research (e.g., to support robotic and 
human space exploration), and (3) satisfy non-civil aeronautics 
research requirements that NASA is addressing in agreement with other 
federal agencies and departments. The committee also addressed 
workforce expertise and research facilities relevant to the goals of 
NASA's Aeronautics research program.
    The committee determined that the strategic objectives of the 
Decadal Survey are consistent with the key principles of the National 
Aeronautics Research and Development Policy (NSTC, 2006) and the 
National Plan for Aeronautics Research and Development and Related 
Infrastructure (NSTC, 2007). Thus, the recommendations below will also 
help achieve the goals of the National Policy and Plan.
    Attachment 1 contains the full committee report, NASA Aeronautics 
Research--An Assessment (NRC, 2008), available online at <www.nap.edu/
catalog.php?record<INF>-</INF>id=12182>.

RESOURCES VERSUS SCOPE OF RESEARCH

    NASA supports a great deal of worthwhile research. However, NASA 
must determine how to respond to a vast array of worthwhile research 
possibilities within the constraints of budget, facilities, workforce 
composition, and federal policies. The Decadal Survey of Civil 
Aeronautics (NRC, 2006), recommended that NASA use the 51 highest-
priority Research and Technology (R&T) challenges in the Decadal Survey 
as the foundation for the future of NASA's civil aeronautics research 
program during the next decade. However, the Decadal Survey was 
designed to identify the highest-priority R&T challenges without 
considering the cost or affordability of meeting the challenges.\1\ As 
a result, even though the NASA aeronautics program has the technical 
ability to address each of the highest-priority R&T challenges from the 
Decadal Survey individually (through in-house research and/or 
partnerships with external research organizations), NASA's Aeronautics 
Research Mission Directorate (ARMD) would require a substantial budget 
increase to address all of the challenges in a thorough and 
comprehensive manner.
---------------------------------------------------------------------------
    \1\<ls-thn-eq>1AOther decadal surveys that the NRC routinely 
produces for NASA in the space sciences consider budgetary factors in 
formulating their findings and recommendations, and it may be 
worthwhile to follow that model in future decadal surveys for 
aeronautics research.
---------------------------------------------------------------------------
    In addition to resource limitations, NASA's aeronautics research 
program faces many other constraints (in terms of the existing set of 
NASA centers, limitations on the ability to transfer staff positions 
among centers, and limitations on the ability to compete with the 
private sector in terms of financial compensation in some critical 
fields), and attempting to address too many research objectives will 
severely limit the ability to develop new core competencies and unique 
capabilities that may be vital to the future of U.S. aeronautics.
    Recommendation. The NASA Aeronautics Research Mission Directorate 
should ensure that its research program substantively advances the 
state-of-the-art and makes a significant difference in a time frame of 
interest to users of the research results by (1) making a concerted 
effort to identify the potential users of on-going research and how 
that research relates to those needs and (2) prioritizing potential 
research opportunities according to an accepted set of metrics. In 
addition, absent a substantial increase in funding and/or a substantial 
reduction in other constraints that NASA faces in conducting 
aeronautics research (such as facilities, workforce composition, and 
federal policies), NASA, in consultation with the aeronautics research 
community and others as appropriate, should redefine the scope and 
priorities within the aeronautics research program to be consistent 
with available resources and the priorities identified in (2), above 
(even if all 51 highest-priority R&T challenges from the Decadal Survey 
of Civil Aeronautics are not addressed simultaneously). This would 
improve the value of the research that the aeronautics program is able 
to perform, and it would make resources available to facilitate the 
development of new core competencies and unique capabilities that may 
be essential to the Nation and to the NASA aeronautics program of the 
future.

ASSESSMENT RESULTS--MEETING THE R&T CHALLENGES

    The basic planning documents for most of NASA's research projects 
were prepared before the Decadal Survey was published in 2006, and the 
NASA research portfolio, as a whole, does not seem to have changed 
course in response to the Decadal Survey. Thus, the content of the 
Decadal Survey of Civil Aeronautics appears to not have been a 
significant factor in the selection of the research portfolio being 
pursued by many of the ARMD's research projects.
    NASA is doing a mixed job in responding to the 51 highest-priority 
R&T challenges in the Decadal Survey of Civil Aeronautics. In a few 
cases, the shortcomings noted by the Committee (both major and minor) 
indicate that NASA research plans are poorly conceived and the 
resulting research will likely be ineffective. In most cases, however, 
shortcomings reflect inconsistencies between NASA project plans and the 
Decadal Survey. These inconsistencies are generally the result of NASA 
choosing to do little or no work in a particular task area and/or 
selecting research goals that fall short of advancing the state-of-the-
art far enough and with enough urgency either to make a substantial 
difference in meeting individual R&T challenges or the larger goal of 
achieving the strategic objectives of the Decadal Survey of Civil 
Aeronautics. However, as noted above, NASA does not have the resources 
necessary to address all 51 R&T challenges simultaneously in a thorough 
and comprehensive manner, and so (regardless of how the projects plans 
were developed) it is inevitable that the plans, as a whole, do not 
fully address all the priorities of the Decadal Survey.

WORKFORCE

    There are--among NASA, the academic community, and the civilian 
aerospace industry--enough skilled research personnel to adequately 
support the current aeronautics research programs at NASA and 
nationwide, at least for the next decade or so. NASA may experience 
some localized problems at some centers, but the requisite intellectual 
capacity exists at the various centers and/or in organizations outside 
NASA. Thus, NASA should be able to achieve its research goals, for 
example, by using NASA Research Announcements or other procurement 
mechanisms; through the use of higher, locally competitive salaries in 
selected disciplines at some centers; and/or by creating a virtual 
workforce that integrates staff from multiple centers with the skills 
necessary to address a particular research task. The content of the 
NASA aeronautics program, which has a large portfolio of tool 
development but little or no opportunities for flight tests, may in 
some cases hamper the ability to recruit new staff as compared with the 
space exploration program. In addition, there will likely be increased 
requirements for specialized or new skill sets. Workforce problems and 
inefficiencies can also arise from fluctuations in national aerospace 
engineering employment and from uneven funding in particular areas of 
endeavor.
    Recommendation. To ensure that the NASA aeronautics program has and 
will continue to have an adequate supply of trained employees, the 
Aeronautics Research Mission Directorate should develop a vision 
describing the role of its research staff as well as a comprehensive, 
centralized strategic plan for workforce integration and implementation 
specific to ARMD. The plan should be based on an ARMD-wide survey of 
staffing requirements by skill level, coupled with an availability 
analysis of NASA civil servants available to support the NASA 
aeronautics program. The plan should identify specific gaps and the 
time frame in which they should be addressed. It should also define the 
role of NASA civil servant researchers vis-a<ls-thn-eq>AE2-vis external 
researchers in terms of the following:

        <bullet> IDefining, achieving, and maintaining an appropriate 
        balance between in-house research and external research (by 
        academia and industry) in each project and task, recognizing 
        that the appropriate balance will not be the same in all areas.

        <bullet> IDefining and addressing issues related to research 
        involving multi-disciplinary capabilities and system design 
        (i.e., research at Levels 3 and 4, respectively, as defined by 
        ARMD).

        <bullet> IEnsuring that research projects continue to make 
        progress when NASA works with outside organizations to obtain 
        some of the requisite expertise (when that expertise is not 
        resident in NASA's civil servant workforce).

    NASA should use the National Research Council report Building a 
Better NASA Workforce (NRC, 2007) as a starting point in developing a 
comprehensive ARMD workforce plan.

FACILITIES

    NASA has a unique set of aeronautics research facilities that 
provide key support to NASA, other federal departments and agencies, 
and industry. With very few exceptions, these facilities meet the 
relevant needs of existing aeronautics research. NASA also has a 
dedicated effort for sustaining large, key facilities and for shutting 
down low-priority facilities. However, some small facilities 
(particularly in the supersonic regime) are just as important as some 
larger facilities and may warrant more support than they currently 
receive. In addition, at the current investment rate, widespread 
facility degradation will inevitably impact the ability of ARMD 
projects and other important national aeronautics research and 
development to achieve their goals.
    Recommendation. Absent a substantial increase in facility 
maintenance and investment funds, NASA should reduce the impact of 
facility shortcomings by continuing to assess facilities and mothball 
or de-commission facilities of lesser importance so that the most 
important facilities can be properly sustained.

2. IYour report stresses the importance of ensuring that NASA's 
aeronautics research results are transferred to industry, the FAA, and 
other organizations that manufacture, own, and operate key elements of 
the air transportation system. What needs to be done to ensure that the 
transfer takes place in an efficient and effective manner?

USER CONNECTIONS

    NASA civil aeronautics research will provide value to its 
stakeholders if and only if the results are ultimately transferred to 
industry, to the Federal Aviation Administration, and to the other 
organizations that manufacture, own, and operate key elements of the 
air transportation system. A closer connection between the managers of 
NASA aeronautics research projects and some potential users of NASA 
research would ensure that the need to transfer research results to 
users is properly considered in project planning and execution, and it 
would facilitate the formation of a coordinated set of research goals 
and milestones that are timed to meet the future needs of the Nation. 
In addition, for technology intended to enhance the competitiveness of 
U.S. industry, U.S. leadership would be enhanced by a technology-
transfer process that does not necessarily include the immediate, 
public dissemination of results to potential foreign competitors, so 
that the U.S. industrial base has a head start in absorbing the fruits 
of this research.
    Recommendation. The NASA Aeronautics Research Mission Directorate 
should bridge the gap between research and application--and thereby 
increase the likelihood that this research will be of value to the 
intended users--as follows:

        <bullet> IFoster closer connections between NASA principal 
        investigators and the potential external and internal users of 
        their research, which include U.S. industry, the Federal 
        Aviation Administration, the Department of Defense, academia, 
        and the NASA space program.

        <bullet> IImprove research planning to ensure that the results 
        are likely to be available in time to meet the future needs of 
        the Nation.

        <bullet> IConsistently articulate during the course of project 
        planning and execution how research results are tied to 
        capability improvements and how results will be transferred to 
        users.

        <bullet> IFor technology intended to enhance the 
        competitiveness of U.S. industry, establish a more direct link 
        between NASA and U.S. industry to provide for technology 
        transfer in a way that does not necessarily include the 
        immediate, public dissemination of results to potential foreign 
        competitors.

    As part of the effort to implement this recommendation, NASA should 
ensure that the Next Generation Air Transportation System (NGATS/
NextGen) Air Traffic Management (ATM)<ls-thn-eq>09Airportal Project and 
the NGATS ATM<ls-thn-eq>09Airspace Project meet the research and 
development (R&D) needs defined by the NextGen Joint Planning and 
Development Office (JPDO) for NASA.\2\
---------------------------------------------------------------------------
    \2\<ls-thn-eq>1AThe Next Generation Air Transportation System is 
now most commonly abbreviated as NextGen, but the titles of NASA's 
related research projects still feature the old acronym, NGATS.

3. IDo you have any recommendations for the Committee to consider as we 
---------------------------------------------------------------------------
prepare to draft a NASA reauthorization bill?

    NASA has a critical part to play in preserving the role of the 
United States as a leader in aeronautics. NASA research facilities and 
expertise support research by other federal agencies and industry, and 
the results of research conducted and/or sponsored by NASA are embodied 
in key elements of the air transportation system, military aviation, 
and the U.S. space program. NASA aeronautics research will carry on 
this tradition as long as its research is properly prioritized and 
research tasks are executed with enough depth and vigor to produce 
meaningful results in a timely fashion. Accordingly, the effectiveness 
of NASA's aeronautics research would be enhanced by Congressional 
direction to implement the high-priority research challenges in the 
Decadal Survey of Civil Aeronautics. Congress may also choose to relax 
the constraints that limit the ability of NASA to implement a more 
robust aeronautics research program. As noted above, constraints of 
particular interest include the budget, facilities, workforce 
composition, and related federal policies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Carl J. Meade
    Mr. Meade is currently the Director of Space Systems at Northrop 
Grumman Corporation's Integrated Systems sector in El Segundo, 
California. He and his team are responsible for the capture and 
execution of various government projects relating to crewed space 
flight and non-payload military space vehicles. He was previously 
employed at Lockheed Martin Aeronautics Company (aka ``Skunk Works'') 
in Palmdale, California where he was responsible for the development of 
a portfolio of advanced aerospace vehicles. He also held numerous 
positions on the X<ls-thn-eq>0933 program--first as Flight Assurance 
Manager, then as Operations Manager, and finally as the Program 
Director. Immediately prior to his arrival at Lockheed Martin, Carl was 
an Air Force officer on astronaut duty with NASA.
    Carl began his aerospace career as a Hughes Fellow at the 
California Institute of Technology. After completing his graduate 
degree, Carl continued employment at Hughes Aircraft Company as an 
electronics design engineer. He was then called to active military duty 
and flew tactical fighter aircraft in the U.S. Air Force. He was 
selected for test pilot training in 1980 and graduated first in his 
class at the USAF Test Pilot School at Edwards AFB.
    While assigned to the Air Force Flight Test Center, Carl tested 
various fighter aircraft and instructed at the USAF Test Pilot School. 
Selected as an astronaut in June 1985, Carl was assigned to the NASA 
Johnson Space Center in Houston where he held a variety of technical 
and leadership assignments. He flew as an Astronaut on Space Shuttle 
missions STS<ls-thn-eq>0938, STS<ls-thn-eq>0950 and STS<ls-thn-eq>0964. 
During an untethered space walk on STS<ls-thn-eq>0964, he performed the 
first flight-test of a rescue jet-pack and was consequently awarded the 
Air Force Distinguished Flying Cross.
    Carl has authored several publications and is a member of the 
Society of Experimental Test Pilots and the Association of Space 
Explorers. He has served as a member of the National Research Council's 
committee evaluating the National Aerospace Initiative and also on 
committee assessing NASA's Aeronautics Research Mission Directorate. He 
holds an undergraduate degree in Electrical Engineering from the 
University of Texas at Austin, and a graduate degree in the same field 
from the California Institute of Technology. During most weekends, you 
can find Carl teamed with his wife, Celyna, and sons David, Jacob and 
Michael in a futile attempt to convert their patch of Mojave Desert 
into a tropical oasis. Between tours of duty in the yard, Carl finds 
that the experimental aircraft currently under construction in his shop 
provides ample opportunity to consume all remaining free time.

    Chairman Udall. Thank you, Mr. Meade.
    Mr. Henne.

   STATEMENT OF MR. PRESTON A. HENNE, SENIOR VICE PRESIDENT, 
    PROGRAMS, ENGINEERING AND TESTING, GULFSTREAM AEROSPACE 
                          CORPORATION

    Mr. Henne. Mr. Chairman, Members of the Subcommittee, thank 
you for this opportunity to testify before your committee.
    My employer, Gulfstream Aerospace, is headquartered in 
Savannah, Georgia, with some 9,800 employees. Gulfstream is a 
$5 billion annual revenue company that designs, builds and 
services premium business aircraft. We have major facilities in 
eight states within our continental borders. Gulfstream has a 
current product line of seven different models ranging in price 
from $14 million to $59 million. Our primary competitors are 
Canadian with Bombardier, French with Dassault and Brazilian 
with Embraer.
    Foreign countries and businesses recognize the huge value 
associated with strong aeronautics enterprise. You have 
already--both the Members have identified the value of 
aeronautics today and I won't delve into that. But foreign 
countries recognize and invest in national aeronautics 
enterprises. The United States seems to take aeronautics for 
granted, often describing it in political circles as a mature 
industry, able to fend for itself in terms of continuing R&D 
needs. I suspect, however, that we should not be ready to close 
the aeronautical patent office.
    To give one grand example, successful civil supersonic 
transportation is still to be achieved, yet we continually see 
decreasing NASA aeronautics R&D budgets. Over the past 10 years 
funding in NASA aeronautics research has declined by some 48 
percent from over $1 billion to somewhere around $622 million 
today. The United States is down to one civil aircraft 
manufacturer and doesn't even participate in the regional jet 
manufacturing market. Gulfstream used to be alone in the large 
cabin business jets. We now have three strong foreign 
competitors intent on capturing our market. More importantly, 
they are keen on capturing the engine for jobs and economic 
growth.
    Why is it important for the Federal Government to invest in 
aeronautical R&D? The aeronautics enterprise contribution to 
jobs, to tax revenues, to favorable balance of trade, as you, 
Mr. Chairman, have already mentioned, is massive. The recent 
Executive Order establishing a national aeronautics R&D policy 
states, ``Continued progress in aeronautics, the science of 
flight, is essential to America's economic success.''
    Congress in 1958 directed that government-sponsored 
aeronautical activities be conducted to contribute materially 
to specific objectives including the following: improvement of 
the usefulness, performance, speed, safety and efficiency of 
aeronautical vehicles and the preservation of the role of the 
United States as a leader in aeronautical technology.
    The role of federal investment in aeronautics is to advance 
U.S. technological leadership, to lead innovation and to 
develop advanced aeronautics concepts and technologies. It is 
the catalyst for progress.
    In the past, NASA aeronautics has served as a great source 
of aeronautical R&D efforts. Dr. Shin mentioned some of those. 
However, with the ever-decreasing budgets, this pipeline is 
drying up. In recent years, even vehicle technology 
demonstrations, a vital risk reduction link between basic R&D 
and product application, have been terminated. This has been a 
substantial blow to maturing aeronautical technologies and for 
U.S. companies involved. Clearly, our aeronautics program needs 
a revitalization effort to address existing priorities and to 
address the insufficient aeronautics research funding.
    How do we ensure that it is relevant? The following 
considerations are put forth. An understanding that the status 
quo with ever-reducing budgets isn't working. NASA aeronautics 
needs to work beyond just fundamentals and take a continuing 
role in technology demonstration, and the split, the public-
private funding participation, needs to be more balanced in an 
equitable situation.
    According to a recent article in a well-respected trade 
publication, government versus private expenditures for all 
U.S. R&D have virtually reversed themselves in the last 45 
years. In 1964, the government funded 64 percent of all R&D. In 
2006, industry funded 66 percent, or roughly $220 billion in 
R&D funding.
    Specifically, NASA's aeronautics budget should be increased 
to fund research into NextGen. We have already heard that. 
Environment research, we have heard that. In aviation safety, 
NASA clearly plays an important role in all of those areas.
    In opening new flight regimes, NASA should be leading the 
way. Frankly, what more important leadership role can NASA 
aeronautics have? As mentioned earlier, we have yet to achieve 
successful supersonic civil transportation. To achieve that 
really requires improvements in aeronautical technology, 
technology demonstrations. This is what NASA aeronautics has 
historically excelled in and should continue to excel in. Risk 
reduction and barrier removal in R&D focused on new flight 
regimes is a strong inducement for commercial growth, job 
creation and protecting the national aeronautics leadership 
position.
    In closing, my recommendations are: that the budget for 
NASA aeronautics must increase substantially, the 
reestablishment of NASA aeronautics as a vital R&D activity; a 
high-priority activity supporting a broad group of U.S. 
companies needs to happen; NASA aeronautics procurement 
policies need to allow commercial contracting practices; U.S. 
Government action to minimize foreign competitor advantages due 
to strong financial aid needs to occur; and separation of 
aeronautics activity out of the space agency as a means to 
implement a strong aeronautics R&D policy needs to be 
considered.
    Mr. Chairman, thank you for the opportunity to express 
these views, and I look forward to your questions.
    [The prepared statement of Mr. Henne follows:]
                 Prepared Statement of Preston A. Henne

Mr. Chairman, Members of the House Space and Aeronautics Subcommittee:

    It is a pleasure to be here today to discuss the status of NASA's 
Aeronautics program.
    By way of introduction, my name is Preston Henne and I am Senior VP 
of Programs, Engineering and Test at Gulfstream Aerospace. Gulfstream 
headquarters are in Savannah, GA and has roughly 9800 employees. 
Gulfstream is a $5B annual revenue company that designs, builds and 
services premium business aircraft. Gulfstream proudly has facility 
sites in eight states within our continental borders. Our supply chain 
is extensive and accounts for supplier employees in literally every 
state, producing goods and services in support of our product line. 
Gulfstream has a current product line of seven different models ranging 
in price from $14M to $59M. Our primary competitors are Canadian 
(Bombardier), French (Dassault), and Brazilian (Embraer).
    In the 105 years of flight, aeronautics has become integral to the 
world's culture. Aeronautical products and services touch nearly 
everyone in the world in one way or another. The U.S. leadership in 
developing and applying aeronautical technology over the last 100 years 
is indisputable. This leadership has provided remarkable commercial 
growth and economic opportunity for millions and millions of people in 
the U.S. However, this aeronautical leadership and, more importantly, 
the opportunities associated with it, are being strongly challenged by 
foreign competition in the world market place.
    Foreign countries and businesses recognize the huge value 
associated with a strong aeronautics enterprise, and are clearly 
willing to invest national as well as corporate treasuries to grow it. 
The U.S., on the other hand, seems to take the aeronautics enterprise 
for granted. It is often described in political circles as a mature 
industry and able to fend for itself in terms of continuing R&D needs. 
I suspect, however, that we should not be ready to close the 
aeronautical patent office. As but one grand example, financially 
successful and environmentally acceptable civil supersonic 
transportation is still to be achieved. Yet, we see continually 
decreasing NASA Aeronautics R&D budgets. To illustrate this point, the 
downward federal budget trend of the past decade for this account 
continues for the current fiscal year. The President's FY09 request for 
aeronautics research represents a 28 percent decline over the 
appropriated level of FY08, which in turn was 30 percent lower than the 
previous year. Over the last ten years, funding for NASA Aeronautics 
research has declined by some 48 percent, from $1.2B in 1999 to $622M 
in FY08.
    The U.S. is down to one large civil aircraft manufacturer and no 
longer even participates in the regional jet market as a manufacturer. 
Gulfstream used to be alone in the market for large cabin business 
jets. We now have three strong foreign competitors that are intent on 
capturing our market. More importantly, they are keen on capturing the 
engine for jobs and economic growth.

So, why is it important for the Federal Government to invest in 
aeronautics R&D? A strong aeronautics industrial base provides huge 
economic value. The aeronautics enterprise contribution to jobs, to tax 
revenues, to favorable balance of trade is massive. The recent 
Executive Order establishing a National Aeronautics R&D Policy states: 
``Continued progress in aeronautics, the science of flight, is 
essential to America's economic success . . .'' Congress, in the 
original creation of NASA in the National Aeronautics and Space Act of 
1958, directs that: ``Government-sponsored aeronautical activities be 
conducted to contribute materially to specific objectives, including 
the following:

        <bullet> Iimprovement of the usefulness, performance, speed, 
        safety, and efficiency of aeronautical . . . vehicles;

        <bullet> Ipreservation of the role of the United States as a 
        leader in aeronautical . . . technology.''

    The role of federal investment in aeronautics is to advance U.S. 
technological leadership, to lead innovation, and to develop advanced 
aeronautics concepts and technologies. It is the catalyst for progress.
    In the past NASA Aeronautics served as a great source of 
aeronautical R&D efforts. NASA aeronautical technology has found its 
way into the market place in multiple forms and in numerous products. 
With ever decreasing budgets, however, this pipeline is drying up. In 
recent years, even vehicle technology demonstrations, a vital risk 
reduction link between basic R&D and product application, have been 
terminated. This has been a substantial blow to maturing aeronautical 
technologies and for U.S. companies involved.
    Clearly, our nation's aeronautics program needs a revitalization 
effort to address our existing priorities and the insufficient 
aeronautics research funding.

How do we ensure NASA's aeronautics program is relevant? In making NASA 
aeronautics more relevant to our nation's needs, the following 
considerations are put forth:

        <bullet> IA tacit understanding that the status quo, with ever 
        reducing budgets, isn't working

        <bullet> INASA aeronautics needs to work beyond just 
        ``fundamentals'' and needs to take a continuing role in 
        technology demonstration

        <bullet> IPublic-private funding participation needs to be 
        balanced along more equitable conditions

    As an example, a recent viewpoint article in a well-respected trade 
publication stated that government versus private expenditures for all 
U.S. R&D have virtually reversed themselves over the past 45 years. In 
1964, the government funded 64 percent of all R&D--by 2006, industry 
funded some 66 percent of the total, or roughly $220 billion in R&D 
funding.
    The following points offer some specifics:

<bullet> INextGen Research Needs

    NASA and the Federal Aviation Administration (FAA) are coordinating 
research to help implement the Next Generation Air Traffic Control 
System, known as NextGen, which will use satellite technology to 
increase capacity and efficiency within the airspace. Since NextGen is 
scheduled for completion by 2020--when air traffic is expected to 
double--it is essential that Congress provide NASA with adequate 
funding now so that it can meet its research obligations over the next 
ten years.
    Specifically, NASA's Aeronautics budget should be increased to help 
fund research into:

        <ls-thn-eq>09 IAirspace management

        <ls-thn-eq>09 IReduced separation/vortex wake alleviation

        <ls-thn-eq>09 IHigh density arrival technology

        <ls-thn-eq>09 IRoles of air traffic controllers, automated 
        decision-making and conflict resolution

<bullet> IEnvironmental Research Needs

    NASA research has produced advances in engine and airframe 
performance that have helped reduce emissions and lower noise. These 
efforts need to be enhanced and expanded. NASA research should also be 
focused around the development of:

        <ls-thn-eq>09 IAlternative low carbon life cycle aviation fuels

        <ls-thn-eq>09 IMethods to make more efficient use of airspace 
        that will help reduce emissions, including Continuous Descent 
        Approaches and improved in-flight re-planning capabilities

        <ls-thn-eq>09 INew methods to reduce noise, specifically with 
        regard to supersonic flights

<bullet> IAviation Safety Research Needs

    NASA plays a critical role in developing important safety enhancing 
technologies including infrastructure needed for FAA and industry 
aircraft certification. Key areas of focus should include complex 
hardware and software certification, human/automation interface, and 
aircraft separation management.

How can NASA work most effectively with industry and the universities? 
To work effectively with industry and universities NASA needs to play 
to their strengths and interests. NASA has repeatedly developed 
aeronautical technology plans and road maps for high priority research 
subjects of national interest. These road maps need to lead to 
companies and universities with appropriate interest and expertise. 
These roadmaps need to turn into aeronautical R&D Programs up to and 
including large scale demonstrations. These programs need to satisfy 
both NASA and company or university objectives . . . and they need to 
be funded. NASA needs to provide significant funding to assure 
innovation, to assure risk reduction, and to assure broad dissemination 
of results. In order to enable broad participation of interested 
companies, enhanced contracting policies need to admit commercial 
practices.

What role should NASA play in opening new flight regimes? On the 
question of opening new flight regimes, NASA should be leading the way. 
Frankly, what more important leadership role can NASA Aeronautics have? 
As I mentioned earlier, we have not yet achieved successful civil 
supersonic transportation. Successful in this context means 
technically, environmentally, and economically successful. To make the 
leap to a substantial transportation speed increase, new environmental 
and safety standards are needed. Aeronautical technology improvements 
are needed. Technology demonstrations are needed. This is what NASA 
Aeronautics has historically excelled in and should continue to excel 
in. The risk reduction and barrier removal R&D focused on new flight 
regimes is a strong inducement for commercial growth, jobs creation, 
and protecting the national aeronautics leadership position.

Recommendations and Closing Remarks

    As the Subcommittee continues its very important work in producing 
a NASA Reauthorization Bill, I wish to leave you with the following 
recommendations:

        (1) IThat the budget for NASA's Aeronautics Directorate be 
        increased for FY09 to $700M--this would constitute nearly an 
        $80M increase over the approved FY08 level. Further, this 
        increase would support the 2005 National Academy of Sciences 
        report, Rising Above the Gathering Storm, which recommended an 
        increase by at least ten percent annually to keep America's 
        economy competitive.

        (2) IRe-establishment of NASA Aeronautics as a vital R&D 
        activity supporting a broad group of U.S. aeronautics 
        companies.

        (3) IEnhance NASA Aeronautics procurement policies to allow 
        commercial contracting practices.

        (4) IU.S. Government action to minimize foreign competitor 
        advantages due to strong financial aid.

        (5) ISeparation of the aeronautics activity out of the space 
        agency as a means to implement a strong aeronautics R&D policy.

    Mr. Chairman, Members of the Space and Aeronautics Subcommittee, I 
thank you for the opportunity to express these views on what we believe 
to be important to our future. I look forward to your questions.

                     Biography for Preston A. Henne
    Preston ``Pres'' Henne is Senior Vice President for Programs, 
Engineering and Test at Gulfstream. He also is a Vice President of 
General Dynamics Corp.
    Henne began his aerospace career in 1969 at McDonnell Douglas, 
where he managed several advanced programs in aerodynamics and 
acoustics for both military and commercial aircraft. Known for his work 
in advanced aerodynamic technology, he was responsible for the 
aerodynamic design of the wing on the C<ls-thn-eq>0917--considered the 
most versatile aircraft in airlift history and winner of the 1994 
Collier Trophy for aeronautical achievement. Henne later served as 
Chief Design Engineer for the MD<ls-thn-eq>0980 aircraft. In 1991, he 
became Vice President and General Manager of the MD<ls-thn-eq>0990 
Program at McDonnell Douglas' Long Beach Douglas Aircraft facility, 
where he oversaw the aircraft's complete development and certification 
process.
    Joining Gulfstream in 1994, Henne is credited with the design, 
development, test and certification of the Gulfstream V aircraft--which 
was awarded the 1997 Collier Trophy. Henne became a Vice President of 
General Dynamics in July 1999 when the company acquired Gulfstream. As 
Senior Vice President, Programs, Engineering and Test, he is 
responsible for Gulfstream's product program management, engineering, 
and flight operations. His organization was responsible for the 
development of the Gulfstream 550--which was recognized with the 
Collier Trophy in 2003.
    Henne earned a Bachelor's degree in aeronautical and astronautical 
engineering with highest undergraduate honors from the University of 
Illinois in 1969 and a Master's degree in engineering from California 
State University at Long Beach in 1974. He is a member of the 
Innovation Leadership Advisory Board (ILAB) at the University of 
Illinois College of Engineering and of the Georgia Tech Research 
Corporation Board of Trustees. Henne is a Fellow of the American 
Institute for Aeronautics and Astronautics (AIAA) and a Fellow of the 
Royal Aeronautical Society. His awards include the AIAA Engineer of the 
Year Award in 1996 and the AIAA Hap Arnold Award in 2001 for excellence 
in aeronautical program management. He has been elected to the National 
Academy of Engineering in 2004. In 2005 the University of Illinois 
recognized Henne with the Alumni Award for Distinguished Service.

    Chairman Udall. Thank you, Mr. Henne.
    Dr. Kroo.

     STATEMENT OF DR. ILAN KROO, PROFESSOR, DEPARTMENT OF 
       AERONAUTICS AND ASTRONAUTICS, STANFORD UNIVERSITY

    Dr. Kroo. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to testify on NASA's aeronautics 
research program.
    I teach at Stanford University and conduct research related 
to future aeronautical concepts. My familiarity with NASA's 
research program comes from continuing interactions during my 
career at Stanford and participation in several studies by the 
National Research Council including the Decadal Study of Civil 
Aeronautics in 2006.
    I will focus my comments on three questions suggested by 
the Committee. The first question was, what are the most 
important challenges to be addressed if the Nation is to 
sustain an efficient, environmentally compatible and safe 
aviation system and what should NASA's role be in addressing 
these challenges. Well, as noted by my colleagues and the 
Chair, the Nation's air transportation system has been a 
critical engineer for our economy and quality of life for many 
decades. Commercial aircraft have made dramatic improvements in 
cost, safety and efficiency over the last 50 years. However, 
the growing global demand for air travel and the impact of this 
growth on the environment have led us to a critical point in 
the evolution of aviation.
    Even today, system capacity limitations, the cost of fuel 
and local environmental impact are clear problems. It will 
certainly not be possible to sustain an acceptable system in 
the future without significant technical advances. The greatest 
challenge will be to accommodate the anticipated growth in air 
travel without increasingly problematic global and local 
environmental impact.
    This is not just a regulatory problem. It requires long-
term research and development of new technologies spanning 
multiple disciplines. In many ways, NASA is ideally positioned 
to address these problems. No other agency or industry has the 
experience and tools to both study the impact of aviation on 
the global environment and to develop technologies that may be 
needed in the future aircraft engine, airframes and air traffic 
management systems. Unfortunately, the magnitude of the problem 
is great and growing, and NASA's aeronautics program is not.
    This brings us to the second question. The adverse impact 
of aviation on the environment has long been a concern and that 
concern has recently expanded to include the impact of aviation 
on climate. What are the most promising R&D avenues for 
addressing these concerns and what should NASA's R&D priorities 
be in this area? Well, in terms of efficiency and environmental 
impact, commercial aviation can be considered a real success 
story. A few decades ago, fuel usage per passenger mile was 
about 70 percent greater than it is today. A flight across the 
country in a new 737 now requires only about 29 gallons of 
gasoline or kerosene per person, and that is about 80 passenger 
miles per gallon. Unfortunately, the trouble is that trillions 
of passenger miles are flown each year and that traffic is 
expected to double over the next 20 years. So although aviation 
currently accounts for two to four percent of human CO\ 
emissions, its impact on the environment may be much greater in 
the future due to this projected growth, pollutants other than 
CO\ and the disproportionate effect of emissions at high 
altitudes. Local and regional environmental effects such as 
airport community and local air quality will also be aggravated 
by the projected increase in air travel.
    So in order to achieve a sustainable aviation system while 
accommodating increasing demand, dramatic improvements in 
aircraft efficiency are required. Unfortunately, most of the 
easy steps have already been taken and further advances require 
research into better modeling and design capabilities, new 
configuration concepts, improved flight management systems and 
alternative fuels that are well suited to aviation use. Many 
uncertainties also remain in the effects of aviation on the 
atmosphere, and research is also required to determine just how 
to minimize the impact of air travel in the future. Specific 
aggressive but rational targets for aircraft noise and 
emissions should guide the research priorities for NASA. Goals 
such as those described in the National Plan for Aeronautics 
R&D published last December are clearly affecting NASA's 
research plans, but cutting fuel consumption and noise by 50 
percent is very difficult and it is not clear that this can be 
achieved with the Agency's current resources.
    So what does NASA need to do so that its aeronautics R&D 
activities can be effectively transitioned to the public 
sector? Well, in the past few years, NASA has done a good job 
in defining a strong fundamental research program within 
severely limiting budget constraints. It has focused R&D 
activities on the kind of fundamental research that will be 
important for longer-term solutions, but if the goal is to 
actually create a future system that will work, not just write 
great research papers, much more is needed. The next step is to 
understand how some of the most promising technologies can be 
integrated at the system level and transitioned from the lab to 
the user. These critical integration and validation projects 
will require close collaboration with industry but it is 
difficult to see how they can be undertaken with NASA's current 
level of investment in aeronautics.
    Again, thank you, Mr. Chairman, for the opportunity to 
testify, and I will be happy to answer questions.
    [The prepared statement of Dr. Kroo follows:]
                    Prepared Statement of Ilan Kroo
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify on NASA's aeronautics research program. My name 
is Ilan Kroo. I teach at Stanford University and conduct research 
related to future aeronautical concepts. My familiarity with NASA's 
research program stems from work as a civil servant at NASA's Ames 
Research Center twenty years ago, continuing interactions with NASA 
during my research career at Stanford, and participation in several 
related studies by the National Research Council, including the Decadal 
Survey of Civil Aeronautics in 2006.
    I will focus these comments on NASA's role in research to improve 
the safety and reduce the environmental impact of our future air 
transportation system, addressing questions posed in your letter of 
April 17, 2008.

What do you consider to be the most important challenges to be 
addressed if the Nation is to sustain an efficient, environmentally 
compatible, and safe aviation system? What should NASA's role be in 
addressing these challenges?

    The Nation's air transportation system has been a critical engine 
for our economy and quality of life for many decades. In terms of cost, 
safety, and efficiency, commercial aircraft have made dramatic 
improvements over the last fifty years. However, the growing global 
demand for air travel, the constraints imposed on system capacity, and 
the impact of this growth on the environment have led us to a critical 
point in the evolution of aviation. Even now, issues with system 
capacity, the cost of fuel, and local environmental impact make it 
clear that it is not possible to sustain an acceptable system without 
significant technical advances. The greatest challenges will be to 
accommodate the anticipated two to threefold growth in air travel over 
the next twenty to thirty years without increasingly problematic local 
and global environmental impact. The growing diversity of air vehicles, 
from personal aircraft and light jets to regional jets and very large 
aircraft, potentially larger numbers of unmanned aircraft, and even 
supersonic aircraft make this challenge even more complex. Since these 
long-term issues cannot be solved by regulation alone and require the 
development of technologies that span multiple industries, the critical 
research is very appropriate for NASA to undertake. In many ways NASA 
is uniquely positioned to address some of these problems. No other 
agency or industry has the expertise and tools to study the impact of 
aviation on the global environment along with technologies that may be 
needed for future aircraft engines, airframes, and traffic management 
systems. Unfortunately the magnitude of the problem is great and 
growing, while NASA's aeronautics program is not.

The adverse impact of aviation on the environment has long been a 
concern, and that concern has recently expanded to include the impact 
of aviation on climate. What do you consider to be the most promising 
R&D avenues for addressing environmental concerns associated with 
aviation, and what should NASA's R&D priorities be in this area?

    In many ways commercial aviation is a success story in terms of 
efficiency and environmental impact. A few decades ago fuel usage per 
passenger mile was about 70 percent greater than it is today and the 
next generation of aircraft should reduce fuel consumption by 20 
percent compared with today's aircraft. A flight across the country in 
a Boeing 737<ls-thn-eq>09800 requires only about 29 gallons of fuel per 
person (a per-person mileage of about 80 miles per gallon).
    However, trillions of passenger-miles are flown each year and 
traffic is expected to double over the next twenty years. So, although 
aviation currently accounts for only about two to four percent of human 
CO\ emissions, its impact on the environment may be much greater in the 
future due to this projected growth, pollutants other than CO\, and the 
disproportionate effect of emissions deposition at high altitude. In 
order to achieve a sustainable aviation system while accommodating 
increasing demand, dramatic improvements in aircraft efficiency are 
required. Unfortunately, most of the easy steps have been taken and 
further improvements require research into better modeling and design 
capabilities, new configuration concepts, and alternate fuels that are 
well-suited to aviation use. Many uncertainties remain about the 
effects of aviation on the atmosphere, and research is required to 
determine how to minimize the impact of air travel in the future. 
Nearer-term problems, aggravated by increasing demand and alleviated 
with some of the technology advances noted above, include local and 
regional environmental effects such as airport community noise and 
local air quality.
    NASA's fundamental research work addresses some of these issues, 
but needs to be expanded and focused on the most promising technologies 
if it is to contribute in a significant way to solving these problems. 
Specific, aggressive, but rational targets for future aircraft noise 
and emissions should guide the research priorities for NASA's research. 
Challenging goals such as those described in the National Plan for 
Aeronautics R&D, published last December are clearly affecting NASA's 
research plans, but it is not clear how they can actually be achieved 
with the Agency's current resources.

Will it be possible for a Next Generation Air Transportation System 
[NextGen] to meet anticipated demand without incurring additional 
environmental degradation? If so, how?

    Some of the problems with increasing demand are obvious to 
travelers today, with flight delays and cancellations affecting the 
entire system. The importance of improved air traffic management to 
achieve a safe and efficient system, even as demand grows, is very 
clear. Perhaps less obvious is the role that future traffic management 
systems can play in reducing aviation's environmental footprint. 
Exploiting recent advances in reliable precision navigation to guide 
aircraft on routes that produce less noise, consume less fuel, or even 
to avoid regions with more sensitive atmospheric conditions may 
minimize both local and global environmental effects. Increased vehicle 
autonomy can enable real-time re-planning and more optimal flight paths 
without increasing pilot workload or compromising safety. NASA's 
fundamental work in this area is important but needs to progress to the 
next steps involving larger scale experiments and validation. 
Furthermore, although improved management of traffic is necessary in a 
next generation air transportation system, this alone will not be 
sufficient to meet the stringent environmental constraints that we 
expect in the future. Part of NASA's work in NextGen must be to combine 
new vehicle concepts that achieve unprecedented efficiency levels, with 
a traffic management system that can properly accommodate legacy 
aircraft and advanced designs that may fly at different altitudes and 
speeds. This has been recognized within NASA, but must be emphasized.

What does NASA need to do so that its aeronautics R&D activities can be 
effectively and more rapidly transitioned to the marketplace or to the 
public sector users, as the case may be?

    In the past few years NASA has done a good job in defining a 
strong, fundamental research program within severely-limiting budget 
constraints. It has focused R&D activities on the kind of fundamental 
research that will be important for longer-term solutions. The next 
step is to understand how some of the most promising technologies can 
be integrated at the system level and transitioned from the lab to the 
user. These critical integration and validation projects will require 
close collaboration with industry and it is difficult to see how they 
can be undertaken with NASA's current level of investment in 
aeronautics.
    Again, thank you Mr. Chairman, for the opportunity to testify.

                        Biography for Ilan Kroo
    Dr. Ilan Kroo is a Professor of Aeronautics and Astronautics at 
Stanford University, where he directs the Aircraft Aerodynamics and 
Design Group. He received his Bachelor's degree in Physics from 
Stanford in 1978, and continued studies in Aeronautics, leading to a 
Ph.D. degree in 1983. Prior to joining the Stanford faculty, he was a 
Research Scientist in the Advanced Aerodynamic Concepts Branch at 
NASA's Ames Research Center in California. Dr. Kroo's research includes 
the application of new computational architectures for high-fidelity 
optimization and studies of unconventional configurations including new 
concepts for efficient subsonic and supersonic aircraft. Dr. Kroo is a 
Fellow of the AIAA, received the AIAA Lawrence Sperry Award in 1990, 
the Outstanding Teacher Award in 1994, and the Dryden Lectureship in 
Research in 2003. He is a member of the National Academy of Engineering 
and the Air Force Scientific Advisory Board and is Chief Scientist of 
the Aerion Corporation.

                               Discussion

                Additional Funding for NASA Aeronautics

    Chairman Udall. Thank you, Dr. Kroo.
    At this point we want to move right to our first round of 
questions. I am going to recognize myself for five minutes, and 
I want to turn back to our final witness, Dr. Kroo.
    Each of you, with the exception of Dr. Shin, who is being a 
loyal representative of the Administration, has highlighted the 
negative impacts of the declining NASA aeronautics budget. If 
NASA's aeronautics program were to be given a higher level of 
funding on a sustained basis, not just a one-year infusion of 
cash but on a higher baseline funding level, by this Congress 
or the next Administration, what would be the most productive 
uses for that additional funding? What do you consider to be 
the most important priorities to pursue? Maybe we can move from 
my right to my left, starting with Dr. Kroo.
    Dr. Kroo. Well, as I mentioned, I believe that the issue of 
future technologies for reducing environmental impact are some 
of the most important areas for NASA to be working on, and if 
given a larger budget, NASA needs to proceed from the kind of 
fundamental research that they are doing very well to more 
research that can be used by the industry to actually achieve 
some of the goals that have been stated. So progressing from 
fundamental research to integration, system-level research and 
validation experiments and research work is a critical aspect 
of that.
    Chairman Udall. I will move to Mr. Henne. You have 
advocated, what, an $80 million or so increase over last year's 
approval level. What critical research projects would you 
target with that increase? You have to turn your microphone on, 
if you would.
    Mr. Henne. Sorry. I think you have some goals of the 
country with the environmental impact, with NextGen, with 
safety, and frankly, those should be the outcomes. What needs 
to happen is an investment in advanced technology and advanced 
concepts. It is with the vehicles you are going to achieve the 
improvements in the environment, the improvements in safety, 
the improvement in the ATC operation. It has to come from the 
vehicles. And so my look at that would be, we need to do more 
in advanced concepts and vehicle technology.
    Chairman Udall. Mr. Meade, would you care to comment?
    Mr. Meade. Yes, Mr. Chairman. Our committee was asked to 
specifically concentrate on the decadal survey so with respect 
to that framework, I would like to answer that. I think if you 
read our report, what you will find is that concentration and 
fuel efficiencies and NextGen enablers would be at the top of 
the list in addition to all of the safety efforts within the 
decadal survey, the 51 challenges, and those safety efforts 
come down to basically collision avoidance, wake turbulence and 
weather avoidance.
    Chairman Udall. Dr. Shin?
    Dr. Shin. Well, I couldn't agree more with the other 
witnesses' areas that they are pointing out as the current NASA 
program clearly indicates that we do address those air traffic 
management, safety and environmental impact areas within the 
budget that is allocated by the President.

                            NASA and NextGen

    Chairman Udall. Let me move to NextGen, if I might, and I 
am not going to get all of these questions tied to NextGen in 
but we would have a couple of rounds.
    Dr. Shin, speaking of NextGen, are you satisfied that the 
connection between the aeronautics R&D and the JPDO's research 
and development plan, integrated work plan is clear enough and 
is it a level of detail that allows NASA researchers to 
establish work priorities that will result in the timely 
delivery of NextGen's capabilities?
    Dr. Shin. I believe the JPDO has evolved significantly, 
both in terms of scope and quality of the documents they have 
been generated, and in particular last year all the member 
agencies worked very closely along with JPDO to generate 
several seminal planning documents. Because the nature of the 
work that JPDO is trying to embark and coordinate, it is a 
daunting task, trying to revolutionize the Nation's air 
transportation system, not just from air traffic management 
perspective but as I mentioned in my oral testimony, as a whole 
system. It is expected that such documents will take some time 
to have necessary depth and accuracy and clarity, so I think 
JPDO has been working diligently on that and NASA is heavily 
and very proactively participating in the development of all 
those documents.
    Chairman Udall. Thank you, Dr. Shin. I am going to return 
to this in the next round of questions but at this point I 
would like to recognize the Ranking Member, Mr. Feeney, for 
five minutes.
    Mr. Feeney. Thank you, Mr. Chairman. I also was interested 
in the progress of NextGen.
    Mr. Meade, with respect to the seven areas where you 
discovered major deficiencies and the other 24 that have 
problems, which of those areas do you think are most critical 
that NASA can address within current budget and which do you 
think cannot be addressed with reform or changes without 
additional funding? Just identify some of the major ones. You 
said the priority would be NextGen and then safety and 
environment but can you be more specific?
    Mr. Meade. I could if I could refer to the study itself. 
There were 51 of those----
    Mr. Feeney. You have a complicated color chart here.
    Mr. Meade. As you might imagine, it was fairly complicated. 
Now, I would like to talk a little bit about the seven that we 
found major deficiencies. Four of those seven, NASA was not 
working on at all. I mean, those were simply omitted from the 
portfolio of research for various reasons, probably low 
priority or lack of staff or whatever. So that was--that 
applied to four of them. The other three----
    Mr. Feeney. For example, unmanned aerial vehicles.
    Mr. Meade. That is right, for example, and, you know, we 
could turn to that color chart that you have and see which ones 
are actually not worked on. There are three others that were 
poorly managed, probably best described as not advancing the 
state of the art for various reasons, and so we would recommend 
that those things with the current budget scenario be totally 
dropped or revamped, and to get to the basis of your question, 
though, Mr. Feeney, I don't think that we are in a position 
right now to tell you that this is the top priority and this is 
the second priority. As you know, the decadal survey itself 
refused to do that and listed the top 51 that they thought was 
the most important. I think what we would recommend as a 
committee, however, is that a priority scheme be established 
and have NASA itself go in and decide which is the most 
important ones to work on.
    Mr. Feeney. Well, they sort of do that every year when they 
propose their budget, I assume.
    Mr. Meade. They do, but so far we have not seen any 
evidence that they use the decadal survey as any sort of 
guiding light.
    Mr. Feeney. Mr. Meade, one of the recommendations was that 
NASA, and I quote, ``not necessarily include the immediate 
public dissemination of results to potential foreign 
competitors.'' Mr. Henne, you know, listed three of his. I 
suspect there will be more in the future. Why did your group 
feel compelled to make this recommendation? Is it consistent 
with the practices of other Western governments when they do 
research and development? And then maybe we will hear from Mr. 
Henne and he may have an opinion on that as well.
    Mr. Meade. I think that comment was--the genesis of that 
comment began to build in our committee from looking back in 
the last 50 years of aviation history, particularly on the 1958 
law that brought NASA into existence, where, as a matter of 
fact, Mr. Henne, in his testimony, quoted that one of the 
purposes of NASA was to make sure that America stayed in the 
forefront of aviation. Back then, there were natural inhibitors 
to the dissemination of information outside our borders and the 
feeling of the Committee was that this----
    Mr. Feeney. American cars and airplanes used to be made 
entirely in America back then too. That has changed.
    Mr. Meade. Used to be, right, and so we had a very large 
capability to absorb the fruits of the labor of all this 
research ahead of any competition. Well, Tom Friedman was 
right, the world is flat, and by the way, there are many 
competitors around the globe now that have just--can very 
quickly react to the results of that research and so we have to 
decide if the American public is paying for this very worthy 
research, that the American public gain the benefit of this 
research.

                          Research Information

    Mr. Feeney. Well, real quickly, you made a recommendation, 
if they find some quantum leap in capabilities, should they 
provide it to Mr. Henne's company that would affect, for 
example, just the niche that Mr. Henne is in. Should they 
provide it to Mr. Henne's company but no foreign companies?
    Mr. Meade. I think that is beyond the scope of what our 
committee would recommend. However, this is a competitive 
atmosphere that everybody operates in.
    Mr. Feeney. Mr. Henne, do you have an opinion about that?
    Mr. Henne. That is a difficult question. In terms of 
transfer of information, you certainly would like to think that 
information that is generated by research funded by the U.S. 
public advantages U.S. interests first. I mean, that would be a 
guiding principle. But in today's global environment where we 
have suppliers that are international, we deal with 
international sales, that dividing line gets pretty hard to 
define in reality and so you would like policies that advantage 
U.S. interests. If it becomes crippling, then it doesn't do 
anybody any good.
    Mr. Feeney. I will have some more questions if we get to a 
second round. Thank you, Mr. Chairman.
    Chairman Udall. The Chair recognizes the Chairman of the 
Subcommittee on Technology and Innovation, the Member from 
Oregon, Mr. Wu.

                      Aviation and the Environment

    Mr. Wu. Thank you very much, Mr. Chairman.
    Dr. Kroo, your testimony had some interesting comments 
about environmental effects of aviation and I wanted to focus 
on a particular environment effect which is not addressed in 
your testimony, and that is noise pollution. There is an 
interesting article in Aviation Week this week about helicopter 
rotor blades which make less noise. When I was either a 
freshman or sophomore, we no longer have the benefit of Mr. 
Weiner on this committee but he would ask very pointed 
questions about the next generation of jet engine technology 
that would be more quiet. It is my impression that whether it 
is from a research or more likely from a regulatory point of 
view, the Europeans have taken the lead in quieter engines. Are 
we putting enough research emphasis on noise pollution, in your 
view, and can you discuss that for us just a little bit?
    Dr. Kroo. Sure. There are two kinds of goals, one that may 
be addressed with regulatory issues, which are near-term goals, 
and then there are the goals that apply for a longer-term over 
the next couple of decades. Certainly some of the near-term 
goals can be addressed with regulation and in next generation 
designs of airplanes but in the future, rather dramatic changes 
in noise of aircraft are possible and are consistent with some 
of the other environmental goals so that as airplanes become 
more efficient, they don't just require more acoustic treatment 
on engines but the engines can actually be smaller. They can 
have less jet noise on takeoff and therefore airplanes designed 
with the environmental impact in mind can really be 
dramatically quieter.
    Mr. Wu. That is 20, 30 years out.
    Dr. Kroo. So the goal of the European framework research is 
to achieve half the noise by 2020, half the average noise. This 
is not inconsistent with some of the R&D aeronautics goals that 
have been provided quite recently in this country. That would 
make a dramatic difference. Having a lot more traffic would 
also make a dramatic difference, and we have to figure out how 
to accommodate that.

                              Wind Tunnels

    Mr. Wu. Right, cutting the noise in half dramatically 
changes the noise footprint on the ground. Let me ask you a 
question about the research infrastructure. One of your 
colleagues at Stanford was very, very concerned a few years 
ago, I believe about the number of wind tunnels available for 
research here in the United States. In your view, has that 
situation gotten better or worse?
    Dr. Kroo. That situation is somewhat better. The Air Force, 
for example, has stepped up to fund some of the facilities in 
this country such as the national full-scale facility, the 80 
by 120 foot wind tunnel located at NASA Ames. There are many 
wind tunnels that are continually closing down, being 
refurbished only not to be used in this country, and this is a 
difficult situation. We still go to Europe to do wind tunnel 
testing, and that is a problem.
    Mr. Wu. Mr. Henne, do you see going to Europe to use their 
wind tunnels as a problem?
    Mr. Henne. Let me--that is a fascinating question for me 
because we just completed a whole series of development wind 
tunnel tests on a new aircraft model, the last one being the 
most important, most expensive, and it was done in Europe.
    Mr. Wu. Do you see that as a problem?
    Mr. Henne. Yes, it is, because you have to believe, you 
have to walk out of that tunnel believing that your data is 
available to others.
    Mr. Wu. Dr. Kroo, would you agree with that assessment?
    Dr. Kroo. I think so. I do think that some of the 
facilities really are very good in Europe and we should take 
advantage of it but it is indeed always a question. I have to 
say with respect to keeping some of that data in the United 
States and with respect to the previous Member's question, it 
is a difficult question. One has to walk that line between----
    Mr. Wu. Dr. Kroo, I don't mean to cut you off but I am 
going to.
    Dr. Kroo. That is fine.
    Mr. Wu. Dr. Shin, how did NASA let the situation develop 
where Mr. Henne's data is going to be used by folks who didn't 
pay for it?
    Dr. Shin. To that very specific issue, NASA aeronautics has 
established a program called Aeronautics Test Program a few 
years ago and----
    Mr. Wu. But it doesn't seem to be working.
    Dr. Shin. Well, in the past, there has been some issues 
with the maintaining and up-keeping the NASA wind tunnels so 
that is why we established this program, and we are making good 
progress. We are also working with our partners in DOD so----
    Mr. Wu. So Dr. Shin, if we hold this hearing again in two 
years or in one year, will you have a different answer for Mr. 
Henne? Will you have a solution for Mr. Henne?
    Dr. Shin. We are certainly working toward that goal
    Mr. Wu. Are you working toward it or will you have a 
solution for Mr. Henne?
    Dr. Shin. We will do our best.
    Mr. Wu. Thank you.

                           Noise and Aviation

    Mr. Henne. Mr. Congressman, I wonder if I could make a shot 
at the first question you asked, and that was about investment 
in noise. I don't believe that we, the United States, are 
investing enough in it and I brought two exhibits if you are 
interested. One is the CLEEN program, as provided--some 
information provided both by the FAA and NASA, and if you read 
it, it is a program proposed to spend up to $20 million a year 
for four, five years, up to $20 million a year for four or five 
years. This is at the same time that the announced program by 
the European Commission is $1.6 billion euro for seven years, 
which means $2.4 billion on the same subject, and so it is an 
order of magnitude larger investment in clean technology that 
is being made in Europe compared to the United States, an order 
of magnitude.
    Mr. Wu. I thank you for calling that to our attention.
    I yield back, Mr. Chairman.

                            R&D and NextGen

    Chairman Udall. Thank you. We will start another round and 
the Chair recognizes himself for five minutes. I want to pick 
back up on NextGen and turn to Mr. Meade. In the area of 
advanced communication, navigation and surveillance, your 
committee found that NASA's aerospace efforts didn't have 
planned research to address their R&D milestones as identified 
in the recent decadal survey. Since the NextGen concept seems 
to rely extensively on those capabilities being available, 
should we be concerned?
    Mr. Meade. If I heard your question correctly, Mr. 
Chairman, I think we should be concerned. We evaluated the 
milestones against what we thought would be a rational program 
and found deficiencies in those sensor areas and so NextGen 
depends upon those sensors and the integration of those sensors 
within the aerospace systems and I would say that that would be 
a high-priority item.

             NASA Aeronautics and Technology Demonstration

    Chairman Udall. Does anybody else care to comment?
    Let me move to Mr. Henne then. In your testimony, you state 
that NASA aeronautics needs to work beyond just fundamentals 
and needs to take a continuing role in technology 
demonstration, and then Dr. Kroo, you stated in your testimony 
that NASA has focused R&D activities on the kind of fundamental 
research that will be important for longer-term solutions. The 
next step is to understand how some of the most promising 
technologies can be integrated at the system level and 
transitioned form the lab to the user. It seems to me that both 
of you are saying that NASA needs to be more than fundamental 
or basic research if it is to be relevant to the Nation's 
needs. Is that correct?
    Mr. Henne. That is correct. Those two statements are very 
similar in reality. One of the things that seems to have dried 
up is large-scale demonstrations of technology. Those are the 
things that reduce the risk, that give companies confidence in 
fact that the technology is mature enough to take to market, 
and when that link is dropped because it is expensive, it costs 
a lot to do those kind of demonstrations, when that is dropped, 
you have broken the chain. The technology isn't going to 
advance. It is going to stay in the lab, it is going to stay in 
the office and it will be a small-scale study going on and on 
and on and progressing it to the market won't happen.
    Chairman Udall. Dr. Kroo, I see you nodding. Would you have 
an example as well of opportunities that might be missed----
    Dr. Kroo. Well, absolutely, and I think that it is often 
tempting to think of these as demonstrations but in fact they 
are also experiments. These kind of system-level research 
activities let you know what you don't know, and that is very 
important in this area.
    Chairman Udall. Mr. Meade, Dr. Shin, would you care to 
comment?
    Mr. Meade. I fully support it. One of the ideas that we 
came up with on the Committee was the fact that--or 
realizations, I should say, was the fact that there are very 
few flight experiments any longer for a couple of reasons. 
Everybody is afraid of failure, and once you get in the air, 
there is always a chance, particularly as you are advancing the 
state of the art, that it won't work, and that somehow is a 
negative mark on somebody's career and therefore there is a 
tendency to avoid those steps. And there is an intangible 
result from actually getting out into the field and flying 
something, and that is, you invigorate an entire generation of 
people who would like to come study in the avionics field, or I 
should say aeronautics field. So there is a tremendous benefit 
in making that user connection and also energizing the system.
    Chairman Udall. Dr. Shin, I would want to give you an 
opportunity to comment.
    Dr. Shin. Yes. I do recognize that we do not have large-
scale technology demonstration or validation efforts, as Mr. 
Henne pointed out, so that is accurate statement, but I also 
like to submit that in current NASA aeronautics portfolio, we 
do sizable amount of flight experiments and working with 
industry and so those are not in the traditional sense large-
scale, highly integrated flight validation efforts but we do 
work, as an example, blended wing body flight experiments that 
we are still conducting and also we, as a matter of fact, 
worked with Gulfstream on the sonic boom mitigation technology. 
That was done through flight experiments as well. So again, 
within the budget that has been allocated to us, we do believe 
we try to maintain the relevance with industry and also 
conducting flight experiments.
    Chairman Udall. I hear implied in your comments, though, if 
we were able to find more resources, there is certainly more 
than you could do in your directorate.
    Dr. Shin. I think we are--actually, NASA aeronautics and 
aeronautics community as a whole are in a good situation 
actually compared to previous years because we do have this 
national aeronautics R&D policy and plan that will guide us, 
government agency like NASA, to set the right priorities so we 
will continue to work within that plan and policy and make sure 
that our program is well aligned.
    Chairman Udall. Thank you, and the Chair recognizes the 
Ranking Member, Mr. Feeney, for five minutes.
    Mr. Feeney. Thank you.

      National Research Council Assessment of NASA R&D Activities

    Dr. Shin, the National Research Council's assessment of 
NASA's aeronautics R&D recommended that, and I will quote, 
``The Aeronautics Research Mission Directorate should ensure 
that its research program substantially advances the state of 
the art and makes a significant difference in a time frame of 
interest to users.'' They go on to recommend that NASA, in 
consultation with the aeronautics research community and others 
as appropriate, should redefine the scope and priorities within 
the aeronautics research program to be consistent with 
available resources. So they essentially suggest that there 
needs to be some fundamental redefinitions of priorities and 
additionally, as Mr. Meade stated earlier, they suggested there 
may be a cultural problem with respect to the lack of urgency 
and a view towards who the end user is as opposed to NASA using 
the technology, the end user. How do you respond to the 
National Research Council's assessment and Mr. Meade's 
suggestion?
    Dr. Shin. I generally agree with the essence of the 
recommendation, which points out that NASA aeronautics should 
be staying relevant and sort of being up on the U.S. industry 
and U.S. aeronautics community, and for the past almost 19 
years that I have been with NASA aeronautics, I have always 
thought, and my colleagues have always worked to address U.S. 
aeronautics community requirements and needs. So if there are 
some pockets of areas or groups of researchers who feel that 
NASA aeronautics is serving to our own need, that is something 
that I must correct and that is not what NASA aeronautics is 
all about. We don't produce our own aircraft or we don't serve 
to our own outcome. So again, in general, I respect NRC's 
observation and recommendation, so if there are cases like 
that, we will certainly work to remedy that.
    In terms of staying relevant, we are making all efforts 
because we invite industry partners to our annual technical 
interchange meetings that all three research programs have, and 
so far we have had one or two of those such meetings since we 
restructured the aeronautics program, and I have gotten--and I 
have also participated in some of those meetings, have gotten a 
lot of healthy interactions, so tech transfer or knowledge 
transfer should happen at all levels, that is my belief, not 
just at the end of the rope when everything is culminated to 
some large-scale validation. So we have to work with industry 
partners and academia up front and all along the technology 
development so we actually identify the transition point 
jointly rather than NASA decides this is the point that we have 
to transfer the technology. So by doing some of these things 
and focusing on what we do best, NASA aeronautics does best, I 
believe we can make still significant contributions in staying 
relevant to U.S. needs.
    Mr. Feeney. You just mentioned your academic partners. Dr. 
Kroo is here. Also, you know, for example, adjacent to my 
district is Embry-Riddle University, which has a keen interest 
in aeronautics. What--can you describe NASA's cooperation and 
use of academic researchers? Because it appears to me that 
would be a place where cutting-edge, futuristic, you know, 
research is the norm, and if you want to stay not just current 
but ahead of the curve, academia seems to be, you know, an 
important part of that whole program.
    Dr. Shin. I wholeheartedly agree with your view toward 
academia's role in our nation, and to that end, two years ago 
we have set aside, not as an afterthought but we set aside $50 
million out of our annual budget to bolster and promote and 
integrate these cutting-edge ideas and concepts coming from 
academia, and the funding vehicle is called NASA Research 
Announcement, in short, NRA. NRA is a very flexible procurement 
vehicle so it doesn't only allow grants, it could be 
cooperative agreements or contract even. The participants are 
not only universities but the idea of NRA is exactly what Mr. 
Feeney mentioned, to promote and bring out these cutting-edge 
ideas and concepts, and I am happy to report for about a year 
and a half that we started doing this, we have received over 
1,300 proposals and we have awarded over 300 recipients through 
NRA process, and the market for the participants is growing and 
also spanning not just from academia and also industry. So 
today, again, I am happy to report that we have about 30 
percent industry participation and 70 percent university in 
terms of number of awards, but in terms of funding, 40 percent 
industry and 60 percent academia. So one of the gratifying 
things through NRA that I have observed is some of these small 
universities or universities that we never really thought 
traditionally that they would have aeronautics expertise, we 
are getting a lot of these non-traditional engineering 
powerhouses, if you will, and a lot of good ideas and concepts. 
So it is solely based on the quality of the proposal and we are 
making good progress and I have been very pleased with the 
progress we have been making.
    Chairman Udall. I thank the gentleman.
    I now would like to recognize one of the most active 
Members of this subcommittee, the gentleman from New Jersey, 
Mr. Rothman.
    Mr. Rothman. Thank you. I want to thank our distinguished 
Chairman and the Ranking Member for holding this very important 
hearing and for your consistent and strong interest in these 
matters, and I apologize for being late, gentlemen, I had 
another place to be, but I am very interested in this subject.

                      Noise and Aircraft Pollution

    Let me ask Mr. Meade--I have a few questions. I represent a 
densely populated region in the most densely populated state in 
the country. So aircraft noise and aircraft pollution are 
constant concerns for the quality of life of my constituents. I 
believe that aeronautics research and development creating 
quieter, safer, cleaner aircraft is an important aspect in 
dealing with the quality-of-life issues my constituents deal 
with on a daily basis. So Mr. Meade, what can this committee do 
to help NASA achieve these important goals?
    Mr. Meade. Well, I think as far as our committee, from the 
NRC is concerned, we would recommend that the decadal survey be 
followed with regard to the environmental challenges that they 
have already specified and so I think the best and shortest 
answer I can give you is, take a look at the decadal survey and 
direct NASA to adjust their priorities to respond to those 
challenges.
    Mr. Rothman. Thank you.
    Dr. Shin, are you familiar with this survey that Mr. Meade 
has referred to?
    Dr. Shin. I am.
    Mr. Rothman. And has NASA taken into account the 
conclusions of that survey in its budget, in its project 
proposals or plans for the coming year?
    Dr. Shin. Yes. We have made a very thorough assessment from 
decadal survey, and in fact, we submitted our report to 
Congress a year and a half ago, as I recall. But in the 
environment area, this is one area that NASA aeronautics 
program actually has a very strong technology development 
effort.
    Chairman Udall. Dr. Shin, would you pull the microphone a 
little closer again?
    Dr. Shin. Yes. I keep doing that. For noise and emissions, 
these are the two areas actually we have a very strong 
portfolio in fundamental aeronautics program, and we have made 
a lot of progress in developing new concepts and also tools 
that will allow us to assess or develop new technologies.

                       U.S. R&D and European R&D

    Mr. Rothman. Dr. Shin, if I may, because I only have a 
limited amount of time, I was present when Mr. Henne suggested 
that there was a large order of magnitude difference between 
our investment and the implication being our work in NASA in 
those areas as compared with Europe. Can you comment on whether 
there is this huge order of magnitude difference in either the 
quality of the work, the advancements achieved here in America 
versus in Europe?
    Dr. Shin. I think recently it is a well-known fact that the 
European community is trying to increase the commitment in 
their funding in aeronautics research and development. So as 
Mr. Henne accurately pointed out, the funding is growing 
there----
    Mr. Rothman. But in terms of the technology, you know, just 
to make a silly analogy, if they were still in the Stone Age 
playing with the wheel and figuring out what to do with that, 
they would need a lot more investment to catch up to where we 
are. Where are they, though, in technology with regards to 
reduction in aircraft noise and aircraft emissions relative to 
where we are in the United States, and are they going to pull 
ahead of us in some dramatic and unacceptable fashion because 
of the relatively smaller amount of research dollars that are 
included in the President's budget for our country?
    Dr. Shin. In short, my assessment is, we are still far 
ahead of the Europeans' capabilities and knowledge in 
addressing environmental impact. I do believe that. And 
Europeans have always copied, if you will, the goals and 
objectives that U.S. government agencies and also industry put 
out. So that is the one indication that Europeans are trying to 
catch up.
    Mr. Rothman. Mr. Chairman, do I have time for two more 
questions?
    Mr. Henne, do you have a comment on that, Dr. Shin's last 
statement?
    Mr. Henne. I would say from our assessment of products 
coming from Europe versus products in the United States, they 
are very competitive. Our most recent engine selection was made 
selecting a Rolls Royce engine that is actually made in 
Germany, and it is an excellent engine, very low noise. They 
are extremely sensitive to low emissions. The engine company 
recently made an unsolicited change in the combustor to reduce 
emissions further, and we didn't even ask for it.
    Mr. Rothman. Dr. Shin, do you have any comment on Mr. 
Henne's last comment?
    Dr. Shin. Yes. I think the difference in my answer was, I 
was talking about R&D capabilities and I think Mr. Henne's 
answer was current product line. So that was the difference in 
my answer.
    Mr. Rothman. But in terms of the way people live 
practically, theoretical discussions of advancements in 
products are valuable but if they never reach the product line, 
they really--they won't help the quality of life as directly as 
those investments in product line research and development. 
When will we--when will this R&D in aircraft emissions and 
other emissions from aircraft that is being conducted by NASA 
bear the fruit of better products if, as Mr. Henne says, the 
products are now equal?
    Dr. Shin. Your observation is valid, and the current U.S. 
technologies in noise and emissions reduction started from 10, 
20, 30 years ago from NASA's research. So NASA's research has 
to put ourselves another 10, 20, 30 years ago ahead of current 
technologies and that is what we are doing.

                  Air Traffic Controllers and NextGen

    Mr. Rothman. One final question. I wanted to ask about, Dr. 
Shin, NASA's role in aeronautics research and development with 
regards to NextGen, and I will ask the question, if experts 
from the air traffic control community were consulted as this 
system has been developed, in other words, have actual air 
traffic controllers, the people in the towers who do this work 
every day, been involved in the development of this new air 
transportation system?
    Dr. Shin. I would like to--if I may, I would like to defer 
that question to actually FAA because air traffic controllers 
and that association is not part of NASA. My observation has 
been that JPDO and FAA have been working closely with air 
traffic controllers association and that workforce but I am not 
part of that agency so----
    Mr. Rothman. No, no, I didn't ask about that. Is your 
answer then that NASA has not involved the air traffic 
controllers in its research?
    Dr. Shin. We do heavily work with FAA and JPDO in air 
traffic management technology development.
    Mr. Rothman. I meant NASA directly with the air traffic 
controllers' expertise. Have you had that direct communication 
or do you rely on whatever FAA tells you their conversations 
with the air traffic controllers have informed them of?
    Dr. Shin. I apologize for not getting your question right 
away. We do work with air traffic controllers. In our research 
and development, we do use air traffic controllers as 
observers, also participants in developing our technologies, so 
we do have that close relationship, but in terms of actual 
working relationship within FAA, we don't . . . work that way.
    Mr. Rothman. Ten seconds. You have been so generous to me.
    I just want to make one comment to industry, that I do 
believe industry has----
    Chairman Udall. Mr. Rothman, why don't we do this? I will 
recognize the gentleman from Louisiana, Mr. Melancon, for five 
minutes and he can do whatever he would like with that time.
    Mr. Melancon. Mr. Chairman, I would like to yield my time 
to Mr. Rothman.
    Mr. Rothman. Oh, you are so kind. Thank you, Mr. Melancon.
    I just want to say, I don't take industry off the hook in 
terms of its responsibilities to do its own research and 
development and pay for it itself. They can't rely on the 
government to pay for it all, and while I respect and 
appreciate the profit motive and the great work and the great 
products made by private industry including great aircraft, you 
folks have some of that burden as well and you can't simply say 
the feds are not picking up the whole tab, so woe is us, so woe 
are us.
    Thank you, Mr. Melancon, for yielding, and Mr. Chairman 
again for your generosity and your leadership as always.
    Chairman Udall. Thank you, Mr. Rothman. I would note that 
between the short time that Mr. Melancon yielded to you, the 
time you took that you had two- to five-minute blocks and you 
used them quite well, and I know I speak on behalf of your 
constituents who admire and respect the passion and intensity 
with which you bring to discussions of sound pollution and air 
pollution, and you have a very compelling case to make because 
when we get this right, not only your constituents but 
Americans all over the country will benefit for higher quality 
of life because this is a problem that concerns all of us. I 
hear about it in my district as well. I thank the gentleman 
from Louisiana for being so generous as well with his time.
    Let me turn back to the panel. The Chairman recognizes 
himself for another five minutes.

                     NASA's Aviation Safety Program

    Dr. Shin, I want to ask you what you consider to be the 
most promising areas of research at NASA's Aviation Safety 
Program that could lead to new capabilities being in sort of 
the marketplace in the next five years, even the next 10 years.
    Dr. Shin. Yes. As I mentioned in my testimony, we are 
enjoying the safest system, but we are also changing a lot of--
we will be changing a lot of things in air traffic management 
system and also introducing new vehicle concepts. So when you 
mix all those things, you don't know what kind of new safety 
challenges will be ahead of us. So from a NASA research 
perspective, we are trying to be proactive and also forward 
looking utilizing the IT advancements in data mining and also 
analyzing and processing the data, so we are working with FAA 
closely to develop this aviation safety information and sharing 
system so automatically we can analyze the data and identify 
the precursors before the accident actually happens. So that is 
one such area that we are working on and also in projected 
highly automated system that we are all anticipating in NextGen 
vision, software validation and verification is very important, 
so we have to work proactively to develop technologies that can 
ensure that all the software and automation are functioning as 
designed, so validation and verification is another challenge.
    Chairman Udall. Anybody else on the panel care to comment?
    Mr. Henne. If I could, Mr. Chairman. Relative to safety, 
that is clearly a very high priority for our business, and I 
would like to point out one example of just excellent work by 
NASA that has led to a real-world improvement in aviation 
safety that is just now available, and that deals with 
synthetic vision. NASA has been doing synthetic vision work for 
years and years, and we some time ago did a joint program with 
NASA on a Gulfstream to look at synthetic vision. We flew it 
and learned things that were good, learned things that were 
bad. When we were done with that flight test experiment in 
conjunction with NASA work, we made a decision, it is time to 
go to market, let us take it to market. It has now been 
certified. It is now going out in our product line and it is a 
major advance in aircraft safety, and we are proud that NASA 
and we were joined together doing that to actually bring that 
to market in the end. So there is a lot of good things that 
NASA generates, they are the source of. The trick is to get 
that technology developed all the way and take it to market, 
and that is one just great example of aviation safety that is 
now done. It is available.
    Chairman Udall. Dr. Kroo, Mr. Meade, do you have any 
comments?
    Dr. Kroo. Just to look at the future area of aircraft 
safety, one of the academically interesting areas and an area 
that NASA is pursuing is the utilization of advances in 
autonomous systems and vehicle autonomy in general to both 
improve the safety of vehicles and to improve the situational 
awareness of pilots. That also creates difficulty if in fact 
there are autonomous vehicles operating in the same airspace. 
NASA is addressing that problem to some extent. There is a lot 
more needed.

                              NAOMS/ASIAS

    Chairman Udall. If I might, Dr. Shin, I would like to turn 
back to NASA's handling of the NAOMS aviation survey project, 
and as you all know, the Committee has been concerned. We have 
a GAO review underway to look at the survey data. I understand, 
however, that NASA and the FAA are working on another aviation 
safety database activity, and the acronym is ASIAS, I think Ah-
SI-uhs is maybe how it is pronounced, and it involves 
significant data mining and the merging of multiple disparate 
databases. As you know, the Federal Government doesn't have a 
great track record on the development of such large database 
management systems. What are NASA and yourselves doing to 
ensure that this latest effort stays on track and on budget? 
Furthermore, what are the specific objectives, budget and 
timetable for the ASIAS project and how are the 
responsibilities divided between the FAA and NASA? You could 
respond for the record if you would like. I know I just threw a 
lot of questions at you.
    Dr. Shin. Yes. I just want to respond in real time about 
ASIAS, if I may, and the others I would like to provide more 
detailed information for the record, with your permission. In 
the ASIAS, I think the real positive aspect there, sir, is the 
participants and who are actually playing together in this 
ASIAS effort. It is not just NASA, it is not just FAA working 
in isolation. It is not just airlines holding their 
information. The beauty of this system is, airlines are 
voluntarily providing their operational data, safety data, and 
FAA is in the lead role to make sure that all the 
confidentiality and all the other considerations are protected 
so that airlines can share their data, and NASA is providing 
the necessary technologies so I go back to one of my earlier 
comments that the clearer each agency's roles are identified 
and understood, I think the better we will be off working 
together. So ASIAS is one such case that FAA is the primarily 
regulatory agency providing the protection and NASA is the R&D 
organization providing necessary technologies, and airlines do 
see the value so they are coming to work together.
    Chairman Udall. Let the record note that we say the acronym 
ASIAS, and if you all do the job you want to do, I think it 
won't be a common parlance. It will be an acronym that is only 
known to those who track these important efforts. I appreciate 
your explanation there, and if you want to add additional 
material for the record, the Committee would welcome it.
    The Chair recognizes the gentleman from Florida, Mr. 
Feeney, for five minutes.
    Mr. Feeney. Well, thank you.

               National Research Council Priorities/UAVs

    Dr. Shin, the NRC assessment indicated, among other things, 
that there are about four areas that have been established as a 
priority by the decadal studies that are getting no attention 
whatsoever and no work is going on, and I wondered what the 
other three were and why they are not a priority but 
specifically with respect to the unmanned vehicles, it seems to 
me there would be some natural payoffs and that NASA would be 
the ideal place to study how we manage unmanned flight and how 
it relates to an increasingly crowded airspace. I know there 
are a number of federal agencies who have a keen interest in 
using unmanned vehicles, probably the private sector as well, 
and I wanted to know why, you know, what the reasons are that 
NASA has failed to establish a research project and make this a 
priority?
    Dr. Shin. Yes. I would like to suggest that NASA's current 
research portfolio does address UAV-related technologies. We do 
not have focus project bearing the UAV in the project name or 
title so one might think that we are not addressing UAV-related 
technologies, but if we examine all the portfolios that we 
have, technology investment, a lot of technologies are 
contributing to the UAV community that they need in the future. 
So again, from the R&D perspective, we are contributing to UAV 
requirements and needs. In fact, I have asked--this is a vague 
area because we don't have clear single project addressing UAV. 
I can certainly appreciate why external folks may feel that we 
are not addressing UAV as diligently or focused way as we 
should, so I have directed my program managers to come up with 
clear communication and cataloging all the things that the 
technology areas that are contributing to UAV, so that is in 
work, and when that documentation is completed, I would like to 
provide that to Congress for your information.
    [The information follows:]
                       Information for the Record
    NASA expects to have the UAV documentation discussed above 
completed by the end of August 2008, and the Agency will provide to the 
Subcommittee the technology areas that the Aeronautics Research Mission 
Directorate is contributing to UAVs in that timeframe.

    Mr. Feeney. Well, thank you, and I can say that in addition 
to the technology, there is an issue about rules and protocols. 
The FAA for a long time hasn't really figured out how to manage 
UAVs, and that has been a hindrance, I think, in the private 
sector because they don't know when or if they are going to be 
able to get permission to fly, so to the extent that regulatory 
hurdles and technology hurdles are holding back some real 
opportunities where we know we have needs.
    Mr. Meade, do you want to respond to Dr. Shin's----
    Mr. Meade. Yes, sir, I can. The UAV issues with respect to 
the decadal study, remember that we have to match up the 
milestones that are specified in the decadal study with what 
NASA is doing, and if there is not an exact match, well, then 
we basically have to say there is not a match, notwithstanding 
the fact that NASA is flying a couple of Global Hawks very 
recently, I do believe, and some other unmanned vehicles, and 
so they are active in that area to help explain a little bit of 
the confusion. They simply did not match up with the milestone 
specified in the decadal study, so that is where that comes 
from. Furthermore, with regard to the large systems analysis 
that would be required to integrate a UAV into the airspace and 
fly correctly, you know, NASA is very good at doing those sorts 
of things but they are not the regulatory agency for deciding 
how to fly them in the airspace.
    Mr. Feeney. And are you aware of the current status of the 
FAA's position as to giving permission or access to airspace 
for UAVs?
    Mr. Meade. From the Committee's standpoint, no. From my own 
personal opinion, the last I heard, it was get above the 
controlled airspace, which is 60,000 feet, and fly it out. 
Obviously that is a very specialized mission and that is--
basically I am uninformed of any other operations.
    Mr. Feeney. But obviously that is having a real deterrent 
effect to development and use and experiments with UAVs.
    Mr. Meade. Absolutely. If you don't know what the 
regulations are going to be, you can't design your system 
correctly.
    Mr. Feeney. Okay. Thank you, Mr. Chairman.
    Chairman Udall. I want to thank the Ranking Member for his 
participation today, and I think this has been an excellent 
hearing. We have covered a lot of ground with a really focused 
set of questions and testimony. I want to thank all of you for 
your presence here today. I would editorialize that I think we 
have confirmed the importance of the aeronautics arm of NASA 
and I think we have confirmed the importance of it to our 
economy, particularly as we move forward. I think we have 
confirmed that we are in some strong competitive environments, 
Mr. Henne, but that we have the know-how and the capital and 
the potential if we have the right kind of support from NASA.
    And this is where I will editorialize: I don't think we 
have enough resources. I look forward to working with Mr. 
Feeney during the rest of this Congress and with the next 
administration, whoever leads it, to find additional resources 
for the very, very important that is being done with NASA and 
in partnership with the private sector.
    Mr. Feeney. I wasn't going to say that I hope the next 
administrator is a former aviator, so I won't say that.
    Chairman Udall. There would be an element of leverage 
there, wouldn't there? But I hope whoever is the next President 
understands the importance of the new economy tied to 
aeronautics and, I would add, aerospace.
    If there are no objections, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Subcommittee may ask of the witnesses. 
We have already received a statement for the record from Mr. 
Costello, who also serves as the Chairman of the Transportation 
and Infrastructure Committee's Aviation Subcommittee. Without 
objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Jaiwon Shin, Associate Administrator, Aeronautics Research 
        Mission Directorate, National Aeronautics and Space 
        Administration (NASA)

Questions submitted by Chairman Mark Udall

Q1. IIn its report, the National Research Council recommended that NASA 
establish a more direct link with the U.S. industry to provide 
technology transfer in a way that does not necessarily include the 
immediate, public dissemination of results to potential foreign 
competitors. This is consistent with the 1958 Space Act establishing 
NASA which called for ``the preservation of the United States 
preeminent position in aeronautics and space through research and 
technology development related to associated manufacturing processes.'' 
How will NASA implement NRC's recommendation?

A1. There are several mechanisms in place to transfer knowledge between 
NASA and U.S. Industry. Specifically, non-reimbursable Space Act 
Agreements (SAA), NASA Research Announcement awards, and Small Business 
Innovative Research projects provide an opportunity to transfer 
knowledge. In addition, NASA personnel participating on technical 
committees (e.g., Radio Technical Commission for Aeronautics, Society 
of Automotive Engineers, American Institute of Aeronautics and 
Astronautics forums) inform those groups of latest research findings as 
they develop industry-wide standards, guidelines, and recommended 
practices for advance technology concepts. NASA Aeronautics Research 
projects also sponsor informal working groups with industry 
participation (many of whom are SAA partners) in which an open forum is 
provided for industry to learn the latest goings on in the project and 
for NASA to learn of emerging challenges facing the community.
    NASA believes that publishing the results of its research is 
important to its mission. Part of NASA's charter in the Space Act 
includes the ``widest practical and appropriate dissemination of 
information.'' The National Aeronautics R&D Policy also directs NASA to 
``provide for the widest practical and appropriate dissemination of 
research results, consistent with national security, foreign policy, 
and the Office of Management and Budget's Information Quality 
Guidelines.'' In addition, many of NASA's research areas (for example 
air traffic management research) must be coordinated with other 
research and regulatory entities around the globe, given the global 
nature of air transportation.

Q2. IThe NRC found that NASA's four research centers focused on 
aeronautics, which account for less than one third of NASA's total 
civil service workforce, absorbed almost 80 percent of NASA's reduction 
in civil service employees. Are there plans to continue this trend or 
redress this imbalance in the next five years?

A2. Achieving success and sustaining vibrancy in all of NASA's mission 
areas over the next few years is a challenge requiring NASA to draw on 
all of its expertise and resources. Mission success will depend on ten 
strong, healthy Centers, and the Agency is committed to workforce 
management that supports that goal. Workforce planning has been more 
effectively integrated into the annual budget process and the 
assignment of work to the NASA workforce is supported through a high 
level of collaboration between the programs and the Centers. Where 
civil service work demand exceeds available workforce at a Center, it 
is shifted to Centers where workforce is available. With plans to 
assign important space flight development activities in exploration and 
science to all of the Centers, NASA does not expect significant 
declines at three of the four research Centers. The exception is the 
Dryden Flight Research Center (DFRC), for which an estimated 6.2 
percent reduction is anticipated in the civil service workforce from FY 
2007 levels to the estimated FY 2013 levels. However, with significant 
work assignments remaining to be made in support of various exploration 
programs, NASA is committed to finding a viable, long-term role for 
DFRC.

Q3. IThe absence of runway incursion tools is one of the most glaring 
omissions in today's air transportation system. What can NASA do to 
assist Federal Aviation Administration (FAA) in correcting this 
deficiency and improve the safety of airport runways?

A3. NASA has been instrumental in developing technologies that can: 
sense where aircraft are on the airport; portray where the aircraft are 
to the pilot; portray Air Traffic Control (ATC) clearances to the 
pilot; and, alert the pilot if he/she deviates from their assigned 
flight path, or if a hazardous runway incursion has occurred. This 
research complements Federal Aviation Administration (FAA) research, 
which has largely focused on technologies to aid the controller and on 
airport signage, lighting, and markings. Runway safety is one of the 
FAA's highest priorities, as evidenced in their major investments in 
Airport Surface Detection Equipment-Model X and Runway Status Lights, 
and the Runway Incursion Reduction Program. The benefits of NASA's 
developments have been published, and NASA personnel continue to serve 
on Radio Technical Commission for Aeronautics standards committees to 
communicate their findings to industry. The current and planned future 
NASA research and development related to runway incursions extends the 
previous work by focusing on the implications of NextGen operating 
concepts.
    On an ongoing basis, NASA can assist the FAA in several ways: 
provide technical advice support the FAA in advancing and expediting 
the implementation of enabling technologies in system concept as 
defined by the past FAA/NASA collaborative efforts; participate in 
standards development activities; provide human factors subject matter 
expertise to review of FAA-developed mitigations; and continue to 
participate in runway safety forums organized by FAA.

Q4. IHow important is NASA's human factors research to NextGen? What 
human factors research is NASA planning to do to validate NextGen's 
ability to shift decision-making from the ground to the cockpit?

A4. NASA understands the importance of human systems integration 
creating an effective and efficient NextGen air transportation system, 
and has planned critical Human System Integration research in its 
programs. The Airspace Systems and the Aviation Safety Programs 
research the evolving role of humans in a more highly automated 
national airspace system. Defining the roles and responsibilities 
between pilot and controller and between human and automation is an 
active area of research in both programs. In addition, understanding 
issues involved in assigning the locus of control, whether it be on the 
ground (a centralized control concept) or on the flight deck (a 
distributed control concept), will be critical to full development of 
an efficient concept of operations for NextGen. Research to answer 
these fundamental questions is currently being pursued in early stages 
of operational concept development and by conducting human-in-the-loop 
evaluation studies employing active controllers and pilots. Human 
System Integration research is important to the advances in areas of 
separation assurance, dynamic airspace configuration, flight deck 
situational awareness, and airspace super-density operation.

Q5. IThe Secretary of Transportation tasked the JDPO with developing an 
action plan with its partner agencies that would accelerate the 
introduction of NextGen capabilities, possibly with a regional 
demonstration. What, if any, would NASA's role be?

A5. NASA will continue to address the fundamental research needs for 
NextGen by conducting applied research and development for advanced 
vehicles, safety and air transportation systems. Fundamental research 
includes foundational physics, discipline and multi-discipline studies 
and system-level integration. The Fundamental Aeronautics, Aviation 
Safety and Airspace Systems Programs conduct this research.
    Under the NextGen Acceleration Action Plan, the Federal Aviation 
Administration (FAA) will implement several algorithms that were 
completed by NASA under the Airspace Systems Program. These algorithms 
include aircraft sequencing and scheduling under airport constraints 
and surface management. Because the research is complete and the 
algorithms have already transitioned to the FAA, NASA will have at most 
a limited consulting role for implementation.
    NASA's direct contribution to the Action Plan is to accelerate 
validation studies that are coordinated with the FAA and the Joint 
Planning and Development Office (JPDO) via Research Transition Teams. 
In particular, NASA will accelerate validation and demonstration of 
methods related to traffic management advisor and surface management. 
The NASA and FAA Research Transition Team co-leads have been identified 
for both surface and traffic management, and planning workshops are 
underway to establish joint roadmaps. In addition, NASA will 
collaborate with the FAA to insure that research studies focus on 
regions, such as south Florida, that are targeted for FAA demonstration 
and implementation. NASA's contribution, which is consistent with our 
long-term research role, will enable the FAA to increase the impact on 
air transportation system capacity of the initial deployments as 
expanded capabilities are proven.
    Lastly, the FAA has expressed an interest in accelerating the 
implementation of technologies for closely spaced parallel runways. 
NASA is reviewing its portfolio in super density operations to 
determine if planned studies address the FAA's concept exploration 
requirements for closely spaced parallel runways.

Q6. IIn identifying research challenges in NextGen, you cite in your 
statement the need for ``improved software verification and validation 
techniques to prevent anomalies that could propagate across highly 
integrated systems with unintended consequences.'' With the difficulty 
both the Federal Government and the private sector experience in 
competing for software engineering talent, what strategies will NASA 
use to address this issue in a comprehensive way?

A6. NASA's Aviation Safety Program has two approaches for addressing 
this issue. First, the Integrated Resilient Aircraft Control project is 
developing methods of verifying and validating complex flight software. 
Second, the Integrated Vehicle Health Management project is examining 
methods of software health management (i.e., on-board monitors that can 
identify anomalies in software-driven behavior before they propagate). 
NASA's in-house level of effort is relatively small but is being given 
additional resources to grow. NASA also is discussing collaborative 
research with the National Science Foundation, and has issued several 
NASA Research Announcements and Small Business Innovation Research to 
involve industry and academia and extend the scale of our research.

Q7. IWhat will be the state of NASA's research in an on-board system to 
detect hazardous icing conditions when it is completed? Would this 
include validation and operational demonstrations? What do you plan to 
hand over to the private sector?

A7. A wide range of icing research is central to NASA's Aviation Safety 
Program. Within this program, the Intelligent Integrated Flight Deck 
project is developing a range of look-ahead technologies to portray 
potential icing conditions to pilots before they enter them. The 
technologies, utilizing radiometry and radar, determine the threat 
severity and will communicate to the flight deck through the on-board 
External Hazards Monitor. The Integrated Vehicle Health Management 
project is developing sensors to identify ice accretion on the airframe 
and in the engine, allowing pilots to take corrective action before the 
accretion becomes severe. The Intelligent Research Aircraft Control 
project is examining the underlying physics of ice accretion in jet 
engines with the goal of developing propulsion systems that are not 
susceptible to icing. This work includes validation in the Icing 
Research Tunnel and other ground-based facilities, and flight 
validation on NASA's specially instrumented Twin Otter and 
S<ls-thn-eq>093 Viking. NASA is widely recognized as a world leader in 
the field of aircraft icing. NASA collaborates extensively with the 
Federal Aviation Administration and with the private sector (including 
through reimbursable work sponsored by industry, and through Space Act 
Agreements, NASA Research Announcements and Small Business Innovation 
Research; hence transfer of the technology is natural. NASA personnel 
also actively contribute to a range of industry working groups and 
standards committees to examine further needs for NASA research to 
enable successful transition of these technologies to the private 
sector. NASA technical publications will also be used.

Q8. IWhat is the current understanding of the effects of space 
radiation and solar x-ray events on aircrew and on aircraft systems 
including avionics, high frequency communication, and GPS navigation 
systems, especially during high latitude polar routes? What specific 
issues are not well understood and what, if any, research is being 
conducted by NASA to address those gaps? What, if any, interaction does 
NASA's Aeronautics Research Mission Directorate have with NASA's 
Science Mission Directorate, the JPDO, and agencies such as National 
Oceanic and Atmospheric Administration (NOAA) on the status of 
research, models, and data from satellite sensors that may help improve 
the prediction and severity of space weather events and their potential 
application to civil aviation?

A8. NASA's Aviation Safety Program has examined, and continues to 
examine, the impact of high intensity radio frequencies and other 
strong sources of radiation, including lightning. NASA's Aeronautics 
Research Mission Directorate (ARMD) is not conducting research on the 
effects of space radiation and solar x-ray events on either air crew or 
aircraft systems; however, NASA's Science Mission Directorate actively 
conducts research on space radiation and solar x-ray input into Earth's 
geospace environment and co-chairs the interagency National Space 
Weather Program. The Science Mission Directorate is the lead NASA 
representative on the JPDO Weather Working Group whose goal is to 
reduce the adverse impacts of weather on air traffic operations. Space 
weather events and their potential application to civil aviation fall 
within the scope of the Weather Working Group, and long-range plans 
envision space weather data to be incorporated within the net-centric 
four-dimensional weather information system. ARMD participates on the 
Weather Working Group. Further, ARMD also represents NASA on the 
NextGen Executive Weather Panel that includes senior executives from 
the Federal Aviation Administration, NOAA and Department of Defense.
                   Answers to Post-Hearing Questions
Responses by Carl J. Meade, Co-Chair, Committee for the Assessment of 
        NASA's Aeronautics Research Program, National Research Council

Questions submitted by Chairman Mark Udall

Q1. IMr. Henne recommended in his testimony that NASA's Aeronautics 
procurement policies be enhanced to allow commercial contracting 
practices. During your review of NASA's aeronautics program, were 
contracting difficulties identified by the Principal Investigators the 
Committee met with? In your opinion, would the use of commercial 
contracting policies, as advocated by Mr. Henne, alleviate these 
difficulties?

A1. No Principal Investigator (PI) mentioned difficulties with 
contracting as an impediment to their research. I suspect, however, 
that such comments would have been thought to be outside the scope of 
the Committee's interests and therefore considered irrelevant by the 
PIs. It is commonly recognized that the government procurement 
practices are structured to be (and be perceived as being) fair and 
impartial--at the price of efficiency. Although the government has made 
some strides to reduce the bureaucracy associated with ``small'' 
procurements, my experience shows that there remains a significant 
difference in the efficiency between and commercial procurement 
practices. Although it is vitally important that the system be 
structured to eliminate any potential for abuse, there is a point of 
diminishing returns where the effort expended to make a perfect system 
is much more costly than one that is agile, flexible and adaptable to 
the immediate situation.

Q2. IWith regards to NASA's research facilities, your committee found 
that these facilities, with a few exceptions, meet the relevant needs 
of existing aeronautics research. However, your committee also noted 
that at the current investment rate, widespread facility degradation 
will impact the ability of ARMD projects and other important national 
aeronautics research and development to achieve their goals. 
Consequently, your committee recommended, absent an infusion of 
additional funds, that NASA continue to assess facilities and mothball 
or decommission facilities of lesser importance so that the most 
important facilities can be properly sustained. How serious do you view 
the future state of NASA's research facilities? How should your 
recommendation on possibly moth-balling or decommissioning facilities 
be considered by the RDT&E infrastructure plan currently being 
developed in response to the 2005 NASA Authorization Act?

A2. The Committee considers the current status of NASA aeronautics 
research facilities, as `minimal.' We endorse NASA's efforts to ensure 
that retention/maintenance of facilities carefully aligned with the 
research objectives. Furthermore, the requirement to maintain NASA 
research infrastructure should be evaluated while considering both DOD 
and NASA facilities to eliminate overlap and duplication, if any. To 
this end, the NASA Administrator and the have established the National 
Partnership for Aeronautical Test (NPAT) alliance. As a result, two 
studies of NASA and DOD facilities has been chartered. The first study 
was of Transonic Wind Tunnels and was completed in October 2007 
(documented in AEDC<ls-thn-eq>09TR<ls-thn-eq>0907<ls-thn-eq>0912.) The 
second study is underway and is investigating Supersonic Wind Tunnels. 
Additional studies are planned for Subsonic Wind Tunnels and Hypersonic 
Wind Tunnels. These studies will gather detailed information on the 
government facilities of interest to compare capabilities/conditions of 
the facilities. These studies, in addition to the NSTC's ``National 
Plan for Aeronautics Research and Development and Related 
Infrastructure,'' could be used to determine the national RDT&E 
infrastructure that satisfies national aeronautics R&D goals and 
objectives. This will drive assessments of which facilities should be 
maintained, upgraded, moth-balled or decommissioned. Nevertheless, even 
with the optimum investment of funds currently budgeted for NASA's 
aeronautics facilities, as time passes it is more and more likely that 
facility shortcomings will become a serious impediment to aeronautics 
research by NASA and the Nation and/or increase the extent to which 
U.S. aeronautics R&D programs must rely on foreign facilities.

Q3. IIn correlating the 51 highest-priority R&T challenges in the 
Decadal Survey of Civil Aeronautics to NASA's research portfolio, your 
committee found that over a third reflected inconsistencies between 
NASA projects and the Decadal Survey. Can you give us an example of an 
area of inconsistency, particularly one resulting from NASA choosing to 
do little or no work? Was the reason related to inadequate funding or 
something else?

A3. The Committee found that inconsistencies are generally the result 
of NASA choosing to do little or no work in a particular task area and/
or selecting research goals that fall short of advancing the state of 
the art far enough and with enough urgency either to make a substantial 
difference in meeting individual R&T challenges or the larger goal of 
achieving the strategic objectives of the Decadal Survey of Civil 
Aeronautics. Examples of inconsistencies can be seen by examining 
Decadal Survey challenges such as D10 (Safe Operation of Unmanned Air 
Vehicles in the National Airspace,) and B3 (Intelligent Engines and 
Mechanical Power Systems Capable of Self-Diagnosis and Reconfiguration 
Between Shop Visits.) Considering D10; neither the NGATS 
ATM<ls-thn-eq>09Airportal Project, NGATS ATM<ls-thn-eq>09Airspace 
Project, nor the IRAC Project have planned research to address the 
Decadal Survey milestones. Considering B3; although the Subsonic Fixed 
Wing and Supersonic Projects are participating in this research area, 
their results are unlikely to make a significant difference to the 
state-of-the-art; most of the research relevant to this challenge for 
these flight regimes is being funded by organizations other than NASA.
    However, as noted in the Committee's report, NASA does not have the 
resources necessary to address all 51 R&T challenges simultaneously in 
a thorough and comprehensive manner, and so it is inevitable that the 
project plans, as a whole, do not fully address all the priorities of 
the Decadal Survey. Determining how or why ARMD decided which 
priorities to pursue--and which to defer--was beyond the scope of our 
study, and the Committee was not given adequate information to this 
issue.

Questions submitted by Representative Tom Feeney

Q1. IDuring your appearance before our subcommittee, you testified that 
aside from the quality of the research conducted by ARMD, we would 
stress the need for a cultural change within the directorate. Indeed, 
the Committee was most concerned about the lack of urgency demonstrated 
by some projects and the tendency of some researchers to assume that 
the ultimate consumer of the fruits of their labor was NASA itself. You 
then went on to cite one of ARMD's guiding principles as an example of, 
perhaps, poor guidance that might drive this mindset. Could you 
elaborate further on the need for cultural change? Beyond the lack of 
urgency mentioned in your statement, what other attributes did the 
Committee find deserving of attention?

A1. The Committee came to recognize that some (but certainly, not all) 
PIs exhibited an inwardly focused attitude. We noted also the three 
guiding principles published by ARMD:

        1. IWe will dedicate ourselves to the mastery and intellectual 
        stewardship of the core competencies of aeronautics for the 
        Nation in all flight regimes.

        2. IWe will focus our research in areas that are appropriate to 
        NASA's unique capabilities.

        3. IWe will directly address the fundamental research needs of 
        the Next Generation Air Transportation System (NextGen) in 
        partnership with the member agencies of the Joint Planning and 
        Development Office (JPDO).

    Considering the above principles--particularly the first two--it 
may not be surprising that several contact with other stakeholders and 
have evidently failed to benchmark their objectives and progress 
against external research(ers). Consequently, the Committee recommends 
that NASA focus on ensuring better ties between its research and the 
intended users of its research. Specifically, ARMD should ensure that 
its research program substantively advances the state of the art and 
makes a significant difference in a time frame of interest to users of 
the research results by (1) making a concerted effort to identify the 
potential users of ongoing research and how that research relates to 
their needs and (2) prioritizing potential research opportunities 
according to an accepted set of metrics. Furthermore, ARMD should 
bridge the gap between research and application--and thereby increase 
the likelihood that this research will be of value to the intended 
users--as follows:

        <bullet> IFoster closer connections between NASA principal 
        investigators and the potential external and internal users of 
        their research, which include U.S. industry, the Federal 
        Aviation Administration, the Department of Defense, academia, 
        and the NASA space exploration program.

        <bullet> IImprove research planning to ensure that the results 
        are likely to be available in time to meet the future needs of 
        the Nation. Consistently articulate during the course of 
        project planning and execution how research results are tied to 
        capability improvements and how results will be transferred to 
        users.

    Implementing the above actions will require the flexibility to 
assign personnel possessing the right scientific talent to the right 
job at the right time. The current personnel practices of the NASA 
Centers inhibit flexibility. The inability to reassign personnel with 
ease as the situation dictates will inevitably result in organizational 
behavior that matches its goals to the personnel on hand, rather than 
the preferable alternative: choosing the most worthwhile goals and then 
staffing with the correct personnel to achieve those goals.

Q2. IAssuming that ARMD's budget profile does not change substantially 
in the near-term, given a choice between continuing its current 
approach of foundational research across a broad swath of research 
topics versus funding periodic large-scale demonstration flights at the 
expense of limiting research to a smaller set of projects and 
activities, which option would you find more attractive, and why?

A2. In the short-term, a narrowly scoped ARMD research program that 
includes flight demonstration projects will be most valuable. However, 
reducing the scope of NASA's research will cause long-term harm by 
eliminating the basic research that would provide the foundation for 
applied research in the future. The ``best'' approach is a matter of 
philosophy and expectation. If one expects the ARMD budget to one day 
be restored to historic levels (allowing NASA to conduct meaningful 
research on a wide variety of aeronautical disciplines and 
applications) then it makes sense for NASA to continue a broadly-scoped 
program of foundational research. This would conserve core competencies 
until that brighter day arrives, even though it means that NASA would 
be unlikely to make significant contributions to solving the critical 
aeronautics issues of today. On the other hand, if one believes that 
the current retrenchment in the NASA aeronautics budget is likely to 
continue indefinitely, then NASA would be better served by making the 
hard choices to reduce the scope of its research and focus its 
resources on areas where it can make significant contributions. 
Regardless of the approach taken, the Committee emphasizes that all 
aeronautics research must eventually be validated in flight. Government 
flight demonstration are important because in many cases flight 
demonstrations are beyond the economic viability of the commercial 
sector. This is particularly true with breakthrough technologies that 
have the highest potential payoff--and the highest risk of failure. Re-
establishing major flight demonstration projects under NASA sponsorship 
has the added benefit of encouraging and inspiring our young people to 
consider a career in aerospace engineering.

Q3. IDuring the hearing, it was suggested that ARMD research findings 
initially not be broadly disseminated in order to provide domestic 
companies an opportunity to capitalize on new discoveries. Do you agree 
with this concept?

        a. IIf such a policy were implemented, what effects would it 
        have on domestic companies' ability to do business with foreign 
        partners and customers? Would it imperil business relationships 
        and collaborations?

        b. IHow does NASA's current policy compare with that of other 
        foreign governments who underwrite aeronautics research and 
        development? Do they publicly disseminate new discoveries?

A3. It is essential to understand the very limited nature of the 
recommendation that the Committee is making with regard to foreign 
dissemination of research results. In particular, I agree with the 
Senior Vice President Henne's statement during the hearing, that if 
NASA policy regarding the dissemination of research results ``becomes 
crippling, it doesn't do anyone any good.'' However, the U.S. aerospace 
industry competes on an international scale. In the Internet world of 
today, when research results are made public, they are available 
instantaneously to domestic and foreign competitors alike. Foreign 
competitors are often more agile (due to various reasons such as less 
burdensome regulatory environment, etc.) and can react more quickly to 
incorporate research results into marketable products. The Committee 
recommends that NASA establish a process that would allow the American 
taxpayer, as underwriters of NASA research, to have an opportunity to 
benefit from the research products before making them available for 
off-shore production. recommendation would provide additional 
inducements for industry and academia to partner with NASA, without 
creating any new requirements that would discourage such partnering. In 
particular, the Committee recommends that NASA establish a mechanism 
U.S. commercial sector researchers could use, at their sole discretion, 
to limit the dissemination of research they conduct with NASA. Such a 
mechanism would not inhibit academic researchers, who generally want to 
publish the results of their research and who are staffed with many 
foreign nationals. Neither would it inhibit industry researchers from 
publicly disseminating the results of their research when they believe 
it is beneficial to do so. But if a U.S. company and NASA would benefit 
from cooperative research with NASA, having the option to limit 
dissemination of its research results to foreign competitors for a 
period of time might make that company more inclined to partner with 
NASA in that research, to the benefit of NASA, the U.S. aeronautics 
industry and the public in general. Framed in this way, such a policy 
would not inhibit a domestic company's ability to do business with 
foreign partners and competitors since the limitation on public/foreign 
dissemination could be waived at the discretion of the U.S. company 
conducting the research.
    The Committee did not investigate the policies of any foreign 
governments. Although I do not know the details, it is my belief that 
most foreign governments restrict the world-wide dissemination of their 
aeronautics research.
                   Answers to Post-Hearing Questions
Responses by Preston A. Henne, Senior Vice President, Programs, 
        Engineering and Testing, Gulfstream Aerospace Corporation

Questions submitted by Chairman Mark Udall

Q1. IIn your statement, you indicate that financially successful and 
environmentally acceptable civil supersonic transportation is still to 
be achieved. What are the challenges associated with civil supersonic 
transportation and what role should NASA's R&D play in addressing them?

A1. The challenges are many, but environmentally acceptable 
implementation is essential to financial success. This requires 
mitigation of the sonic boom which we all know significantly hampered 
Concorde operations, as well as adaptability to new engine technologies 
which reduce harmful emissions. A research aircraft must be developed 
and flown over land to demonstrate the sonic boom mitigation 
technologies, and through that, provide the technical database for 
justifying a change in current supersonic flight regulations.
    NASA, in partnership with industry, has the enterprise to engage 
such a plan for our country, and prove out the resultant capability 
through a large-scale, ``relevant,'' low-boom flight research program. 
This program would provide both a focal point and transition 
opportunity for various NASA R&D pipelines and conclude with an 
exploration of community response to low-boom, supersonic flight over 
land.

Q2. II understand that Gulfstream Aerospace and NASA have had a 
successful partnership in testing the Quiet SpikeTM concept in flight, 
an extendable telescopic boom that helps suppress sonic booms. How well 
did that research collaboration work? Are there any ``lessons learned'' 
that you think should be applied to NASA's interactions with industry 
in the future?

A2. It worked very well. The Gulfstream team provided the idea and the 
hardware, and NASA provided the flight test platform and flight test 
expertise. Gulfstream and NASA concluded the Quiet SpikeTM flight test 
program with an extremely successful industry-government partnership. 
It was not without its share of challenges. In the end, the success 
came from a small, experienced, and highly-motivated team being fully 
integrated into NASA's research environment with frequent open 
communication and an aggressive technical goal.

Q3. IAt present, commercial supersonic flight over the U.S. is 
prohibited due to sonic boom concerns. What needs to happen for that 
prohibition to be removed, and what role should NASA play? Are there 
other research areas related to commercial supersonic flight that NASA 
should be involved in?

A3. The prohibition needs to be converted to a rational rule that 
manufacturers can use for design and to show compliance with. This 
regulatory change needs to occur in the ICAO/CAEP international 
environment for setting accepted international standards. This process, 
while started, is in need of real flight data indicating feasibility. 
As stated above, flight demonstration of a low-boom aircraft that 
achieves an ``acceptable'' acoustic signature at the ground would 
greatly facilitate removal of the supersonic prohibition and 
establishment of a new standard. The flight vehicle proves the physics 
and validates that shaping technologies eliminate the environmental and 
social acceptability concerns associated with the sonic boom.
    Ideally, NASA would fully fund such a program. However, a more 
financially practical approach for NASA would be to engage in a 
supportive and collaborative effort with industry in the development 
and test of the experimental low-boom vehicle. NASA can also be 
involved at a more detailed level sharing its expertise and resources 
with industry partners in research areas such as propulsion, aircraft 
structure, flight controls, aerodynamic modeling to name only a few. In 
parallel, NASA should also be tasked with preparing for flight research 
by developing and demonstrating a capability for monitoring community 
response using telemetry and instrumentation to correlate what's being 
heard with Internet-based social surveys that enable broad data 
collection and analysis.

Q4. IIn your statement, you recommend that NASA Aeronautics procurement 
policies be enhanced to allow commercial contracting practices. Can you 
provide some more details on what you see as the problem and why the 
use of commercial contracting practices might be an answer at NASA?

A4. Traditional NASA contracting imposes restrictive government cost 
accounting standards under FAR Part 15. This requirement is non-typical 
for commercial entities such as Gulfstream and discourages 
partnerships. In addition, restrictive data rights clauses further 
deter participation in research efforts for fear of losing competitive 
advantage and key intellectual property necessary for market 
transition.
    In contrast to restrictive cost accounting, FAR Part 12 includes 
existing commercial terms which can provide NASA with adequate 
contractual protection under research contracts. Also, less restrictive 
data rights provisions would likely encourage otherwise reluctant 
commercial firms to support NASA technology development programs. The 
allowance or provision for these established commercial policies could 
substantially increase the pool of capable R&D resources NASA has 
available to support its programs.

Questions submitted by Representative Tom Feeney

Q1. IAssuming that ARMD's budget profile doesn't not change 
substantially in the near-term, given a choice between continuing its 
current approach of foundational research across a broad swath of 
research topics versus funding periodic large-scale demonstration 
flights at the expense of limiting research to a smaller set of 
projects and activities, which option would you find more attractive, 
and why?

A1. The latter option is more attractive and is a critical mechanism 
for NASA to fully realize its Aeronautics mission. Periodic large-scale 
demonstration by NASA Aeronautics has a proven record for lowering 
technology risk to a level where industry is able to assist with the 
completion of the maturation process. When properly planned for and 
executed, large-scale demonstrations result in flying laboratories of 
exceptional value, national facilities that can provide tremendous 
research capability extending far beyond the initial test mission and 
period of performance.

Q2. IDuring the hearing, it was suggested that ARMD research findings 
initially not be broadly disseminated in order to provide domestic 
companies an opportunity to capitalize on new discoveries. Do you agree 
with this concept?

        a. IIf such a policy were implemented, what effects would it 
        have on domestic companies' ability to do business with foreign 
        partners and customers? Would it imperil business relationships 
        and collaborations?

        b. IHow does NASA's current policy compare with that of other 
        foreign governments who underwrite aeronautics research and 
        development? Do they publicly disseminate new discoveries?

A2. We agree in concept, that U.S. Government funded research should 
benefit domestic companies. This is consistent with NASA's original 
charter. Various NASA programs in the past have had levels of 
restricted dissemination depending on the program.
    If such a dissemination policy were implemented, we do not believe 
there would have to be a negative impact on the aeronautics industry's 
ability to work with foreign entities--partners, suppliers and/or 
customers. Meaningful collaboration could still occur, however, U.S. 
industry would clearly be in a stronger position, given knowledge of 
government supported technology research activities. The policy will 
likely need to include an approval process to disclose based upon 
commercial potential for the U.S.-based entity.
    Foreign governments often restrict the publication of new 
discoveries developed with government funding. While the practice 
varies considerably, foreign governments appreciate the value of the 
aeronautical enterprise and their investment in it. They do introduce 
protective measures to benefit their national interests.
                   Answers to Post-Hearing Questions
Responses by Ilan Kroo, Professor, Department of Aeronautics and 
        Astronautics, Stanford University

Questions submitted by Chairman Mark Udall

Q1. IYou note in your prepared statement that the anticipated growth in 
air travel is a tremendous challenge, made even more difficult and 
complex by the insertion of potentially larger numbers of unmanned 
aircraft and even supersonic aircraft. How does the inclusion of 
unmanned and supersonic aircraft in the national airspace impact on 
safety? What research is needed to properly account for the future 
assimilation of disparate aircraft flying at different regimes in the 
national airspace? Is NASA doing or planning to do that?

A1. At the moment, unmanned and supersonic aircraft are not significant 
issues affecting the capacity or safety of the airspace system. But we 
anticipate that with additional applications for more-autonomous 
aircraft in the future and with the possibility of small civil 
supersonic aircraft, the wide speed and altitude range of this diverse 
set of air vehicles could become problematic--especially with our 
current approach to air traffic management. Rather than stifling 
innovation in this country by banning new types of flight vehicles, 
research is needed on how such aircraft may be accommodated in a next 
generation air traffic system. NASA is doing some research in this area 
as part of the aeronautics program and through the JPDO, but more 
extensive cooperative work with DOD and FAA needs to be undertaken, 
particularly for improved autonomous sense-and-avoid capabilities and 
more flexible, adaptive approaches to air traffic scheduling and 
control.

Q2. II note that you have spent some time in NASA as a researcher. 
Granted this was 20 years ago, but can you provide your views on how 
the in-house researcher role has changed over the years? In particular, 
do you agree with the concern expressed in the recent NRC report 
assessing NASA's aeronautics program regarding research time being 
taken away from in-house NASA personnel to monitor the performance of 
outside entities?

A2. Despite NASA's declining budget for aeronautics over the past 
decade, the Agency still manages to contribute in an important way to 
research advances in aeronautics. The role of NASA researchers has 
indeed changed greatly over the past twenty years, mostly due to three 
factors:

        a. IChanges in the way in which facilities are charged and 
        closing of many smaller experimental facilities makes it much 
        more difficult for researchers to use these facilities 
        themselves. When I was a researcher at NASA's Ames Research 
        Center, we tested several new, in-house designs in the wind 
        tunnels at Ames. This happens very infrequently now as the 
        larger projects and industry pay for the facilities and NASA 
        researchers support those tests.

        b. IThere has been a rather inconsistent relationship with 
        industry and academia over the past twenty years. In the 1990's 
        many of NASA's aeronautics projects were associated with a 
        smaller number of large industry programs, while an emphasis on 
        more fundamental work over the past two to three years has 
        allowed universities and small companies to play a greater 
        role. As a result, NASA researchers' involvement in externally 
        funded research has changed and it will surely take some time 
        to adapt to these changes.

        c. IThe decrease in the number of experienced, aeronautics-
        oriented, civil servants at NASA does mean that a larger 
        fraction of these peoples' time is spent monitoring the 
        external research funded by NASA. Although the total amount of 
        external research funding has not changed dramatically in ARMD, 
        the larger number of smaller contracts and the shrinking 
        internal research budget and staff does place increased demands 
        on researchers' time, especially in some of the project areas.

Q3. IIn characterizing the need to address the environmental problems 
facing aviation, you state that while NASA's fundamental research work 
addresses some of the issues, the work needs to be expanded and focused 
on the most promising technologies if it is to contribute in a 
significant way to solving these problems. Could you please elaborate a 
bit on that statement--what technologies do you think are worth 
focusing on, and how should NASA proceed? Because of the uncertainty 
associated with how aviation emissions will be dealt with worldwide, 
how would you respond to the concern that we may be honing in on 
solutions without a clear idea of the problem?

A3. NASA has recently adopted some challenging environmental goals for 
future aircraft, and these may help to provide a focus for fundamental 
research in various fields of aeronautics. However, a large array of 
technologies may be said to contribute in some way to these goals and a 
clear approach to prioritization is needed. The NRC Decadal Survey of 
Civil Aeronautics identified a large number of technologies that will 
likely be important in the development of future aircraft with more 
stringent environmental constraints, but it did not make specific 
recommendations regarding prioritization in light of the budgetary 
constraints under which NASA is operating. NASA seems to be doing a 
good job of identifying some of the most promising research over the 
last couple of years, but the problem is great and the scope of NASA's 
aeronautics research is very limited.
    Although many aspects of aircraft emissions' impact on the global 
environment remain uncertain, and the international community's 
approach to regulation or economic incentives is not completely 
formulated, many of the technologies important for future aircraft are 
not so uncertain. The benefits of improved fuel efficiency include, not 
just lower CO\ emissions, but reduced fuel cost, greater independence 
from foreign suppliers, and improved performance for both civil and 
military aircraft. It is important to better understand the 
relationship between aircraft emissions at altitude and atmospheric 
changes, but there is little chance that research enabling reduced 
noise and greater efficiency will be honing in on the wrong solution.

Q4. IIn your opinion, is NASA's research on environmental issues too 
focused on NextGen or is it broad enough to address the issues that are 
percolating globally?

A4. NextGen as broadly defined, covers almost any aspect of a next 
generation air transportation system. However, as NASA's work on 
NextGen proceeds, areas of emphasis must be identified and it appears 
that air traffic control/capacity expansion will likely form the heart 
of NASA work on NextGen. This is certainly an important research area 
because near-term changes to ATC are needed to maintain safety, while 
permitting future capacity increases. But it is important not to assume 
that the development of new and efficient ATC system will solve the 
problems of a next generation aviation system. Appending environmental 
and efficiency concerns to a program that starts with traffic 
management may dilute the program to the point that no concern is 
properly addressed. I believe that NASA's research and technology 
development work should address specific environmental objectives along 
with the goal of increasing system capacity. It is not clear that this 
should be confined to NextGen or the JPDO.

Q5. ISome of your research suggests that reduced aircraft emissions and 
noise can be achieved along with greater fuel efficiency by developing 
new types of aircraft that would operate at slower cruising speeds. 
Based on the apparent benefits of such new aircraft, have any 
manufacturers voiced interest in bringing such aircraft to the 
marketplace? What reaction would you expect from the flying public?

A5. Aircraft manufacturers are actively considering a range of possible 
options, particularly for the next generation of small, medium range 
aircraft that may replace the A320 and 737. To an aircraft designer the 
difference between Mach 0.8 and Mach 0.75 is enormous. To a passenger 
on a flight from San Francisco to Washington, D.C. the difference is 
about 15 minutes.
    Most current aircraft were designed when fuel cost $0.25 to $0.75 
per gallon and contributed less than 15 percent to the overall cost of 
a flight. With fuel costs now approaching 50 percent of total costs for 
some carriers, the airlines are already slowing down the existing fleet 
to save fuel. Re-designing aircraft with a greater emphasis on fuel 
efficiency, may not just help the environment, but might very well 
reduce the cost of flying in the future.

Questions submitted by Representative Tom Feeney

Q1. IAssuming that ARMD's budget profile does not change substantially 
in the near-term, given a choice between continuing its current 
approach of fundamental research across a broad swath of research 
topics versus funding periodic large-scale demonstration flights at the 
expense of limiting research to a smaller set of projects and 
activities, which option would you find more attractive, and why?

A1. This should not be a black and white choice. In fact, NASA's swings 
in emphasis from large scale projects to more basic research and back 
again over the years has made it very difficult for outside researchers 
to be able to count on NASA support and collaboration for the kind of 
long-term research that NASA should be doing. Instead, like any wise 
investor, NASA should have a balanced portfolio, with a sustained basic 
research agenda, that allows the Agency to identify promising but 
longer-term technologies, and a small number of larger scale 
experiments that can allow industry to better assess when some of these 
ideas are worth pursuing in the private sector. This is a difficult 
line to walk, especially in an era of declining resources for 
aeronautics, but it is necessary in order that NASA's research be both 
forward-thinking and relevant.

Q2. IDuring the hearing, it was suggested that ARMD research findings 
initially not be broadly disseminated in order to provide domestic 
companies an opportunity to capitalize on new discoveries. Do you agree 
with this concept?

        a. IIf such a policy were implemented, what effects would it 
        have on domestic companies' ability to do business with foreign 
        partners and customers? Would it imperil business relationships 
        and collaborations?

        b. IHow does NASA's current policy compare with that of other 
        foreign governments who underwrite aeronautics research and 
        development? Do they publicly disseminate new discoveries?

A2. I am quite concerned that such a policy would be very difficult to 
implement and generally counter-productive; it would prohibit many 
university students from working on NASA programs, might restrict 
hiring by small companies of excellent researchers who were not 
currently U.S. citizens, and discourage collaboration among some of the 
top researchers in the world. Clearly, some NASA programs with direct 
impact on national security should restrict dissemination of results. 
The classification mechanism is well developed and understood by 
industry and academia. An intermediate form of classification is much 
more problematic. Currently, companies working with NASA may maintain 
limited data rights or government-purpose rights in cases that involve 
collaborative research and proprietary data. Further limiting 
dissemination of NASA research--especially that of a more fundamental 
nature, isolates NASA researchers from other experts.
    Much of the work done at government-supported aeronautical research 
laboratories in Germany (DLR), France (ONERA), and Japan (JAXA) is 
broadly disseminated and, along with NASA publications, has formed an 
important knowledge base on which our research at Stanford is built.

                                  <all>

</pre></body></html>
